                 U.S. Department of Agriculture

                    Office of Inspector General
                    Financial Audit Operations




       Audit Report

Commodity Credit Corporation’s
   Financial Statements for
  Fiscal Years 2010 and 2009




                       Report No. 06401-25-FM
                               November 2010
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:         November 12, 2010

REPLY TO
ATTN OF:      06401-25-FM

TO:           Board of Directors
              Commodity Credit Corporation

              Ricky T. Valentine
              Controller
              Commodity Credit Corporation

ATTN:         Philip Sharp
              Acting Director
              Office of Business and Program Integration
              Farm Service Agency

FROM:         Gil H. Harden         /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Commodity Credit Corporation’s Financial Statements for
              Fiscal Years 2010 and 2009


This report presents the results of the audit of Commodity Credit Corporation’s (CCC) financial
statements for the fiscal years ending September 30, 2010 and 2009. The report contains an
unqualified opinion on the financial statements, as well as an assessment of CCC’s internal
controls over financial reporting and compliance with laws and regulations.

Clifton Gunderson LLP, an independent certified public accounting firm, conducted the audit. In
connection with the contract, we reviewed Clifton Gunderson LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), was not intended to enable us to express, and we do not express, opinions on
CCC’s financial statements, internal control or on whether CCC’s financial management systems
substantially complied with the Federal Financial Management Improvement Act (FFMIA); or
conclusions on compliance with laws and regulations. Clifton Gunderson LLP is responsible for
the attached auditor’s report, dated November 4, 2010, and the conclusions expressed in the
report. However, our review disclosed no instances where Clifton Gunderson LLP did not
comply, in all material respects, with Government Auditing Standards and the Office of
Management and Budget Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended.
Board of Directors et al.                                                                        2

It is the opinion of Clifton Gunderson LLP, that the financial statements present fairly, in all
material respects, CCC’s financial position as of September 30, 2010, and 2009, and its net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
generally accepted accounting principles.

The Clifton Gunderson LLP report on CCC’s internal control structure over financial reporting
identified three significant deficiencies. Specifically, Clifton Gunderson LLP identified
weaknesses in CCC’s:

   ·   Financial management system functionality;
   ·   Information security controls; and
   ·   Controls over child agency financial reporting.

Clifton Gunderson LLP considered the first significant deficiency to be a material weakness. The
results of Clifton Gunderson LLP’s tests of compliance with laws and regulations disclosed
noncompliance with FFMIA and Anti-Deficiency Act violations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
                           U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION


                                      September 30, 2010


                                       Table of Contents



Description                                                                       Page

INDEPENDENT AUDITOR’S REPORT                                                         1


    Exhibit 1 – Material Weakness                                                  1-1


    Exhibit 2 – Significant Deficiencies                                           2-1


    Exhibit 3 – Compliance and Other Matters                                       3-1


    Exhibit 4 – Status of Prior Year’s Findings and Recommendations                4-1


    Exhibit 5 – Management’s Response to Findings Contained in the Independent

      Auditor’s Report                                                             5-1



ANNUAL REPORT
a1

                                    INDEPENDENT AUDITOR’S REPORT


To the Inspector General,
U.S. Department of Agriculture:

To the Board of Directors
Commodity Credit Corporation:

In our audit of the Commodity Credit Corporation (CCC) for fiscal year (FY) 2010, we found:

     •	 The consolidated balance sheets of CCC as of September 30, 2010 and 2009, and the
        related consolidated statements of net cost and changes in net position, and the
        combined statements of budgetary resources for the years then ended (hereinafter
        referred to as “consolidated financial statements“), are presented fairly, in all material
        respects, in conformity with accounting principles generally accepted in the United
        States of America;
     •	 One material weakness and two significant deficiencies in internal control over financial
        reporting;
     •	 Substantial noncompliance with the Federal Financial Management Improvement Act
        (FFMIA) financial management systems requirements; and
     •	 Except for Anti-deficiency Act (ADA) violations, there are no instances of noncompliance
        with selected provisions of laws and regulations tested, exclusive of FFMIA.

The following sections discuss in more detail: (1) above conclusions, (2) our conclusions on
Management’s Discussion and Analysis (MD&A) and other supplementary information, (3) our
audit objectives, scope and methodology, and (4) CCC comments and our evaluation.

OPINION ON FINANCIAL STATEMENTS

The accompanying consolidated financial statements including the accompanying notes present
fairly, in all material respects, in conformity with accounting principles generally accepted in the
United States, CCC’s assets, liabilities, and net position as of September 30, 2010 and 2009,
and net costs; changes in net position; and budgetary resources for the years then ended.

CONSIDERATION OF INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered CCC’s internal control over financial
reporting as a basis for designing our auditing procedures and to comply with the Office of
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
CCC’s internal control over financial reporting and compliance or on management’s assertion on
internal control included in the MD&A. Accordingly, we do not express an opinion on the
effectiveness of CCC’s internal control over financial reporting or on management’s assertion on
internal control included in the MD&A.


4250 N. Fairfax Drive, Suite 1020
Fairfax, VA 22203


                                                                                  h
tel: 571­227­9500
fax: 571­227­9552                                1
www.cliftoncpa.com
Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A material weakness is a deficiency or a
combination of deficiencies in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. We consider the deficiency described in Exhibit 1 to be a material
weakness in internal control over financial reporting.

A significant deficiency is a control deficiency, or combination of deficiencies in internal control
that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance. We consider the deficiencies described in Exhibit 2 to be significant
deficiencies in internal control over financial reporting.
Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily disclose all significant
deficiencies that are also considered to be material weaknesses.

We also noted certain other nonreportable matters involving internal control and its operations
that we communicated in a separate letter to CCC management.

Also, as required by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended, we compared the material weakness disclosed during the audit with those material
weaknesses reported in the CCC’s FMFIA report that relate to the financial statements. Our
audit did not identify any material weaknesses that were not identified by CCC in their FMFIA
report.

SYSTEM’S COMPLIANCE WITH FFMIA REQUIREMENTS

Under the Federal Financial Management Improvement Act of 1996 (FFMIA), we are required to
report whether the financial management systems used by CCC substantially comply with the
Federal financial management systems requirements, applicable Federal accounting standards,
and the United States Standard General Ledger (SGL) at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

The objective of our audit was not to provide an opinion on compliance with FFMIA.
Accordingly, we do not express such an opinion. However, our work disclosed instances,
described in Exhibit 3, in which CCC’s financial management systems did not substantially
comply with Federal financial management systems requirements. The results of our tests of
FFMIA disclosed no instances in which CCC did not substantially comply with the Federal
accounting standards or the SGL at the transaction level.

COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of CCC’s compliance with selected provisions of laws and regulations for FY 2010
disclosed the following instances of noncompliance with the following laws and regulations that



                                                 2

are required to be reported under United States generally accepted government auditing
standards or OMB audit guidance which are described in Exhibit 3:

   •   Federal Financial Management Improvement Act of 1996 (FFMIA)
   •   The Anti-deficiency Act (ADA)

However, the objective of our audit was not to provide an opinion on overall compliance with
laws and regulations. Accordingly, we do not express such an opinion.

STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES

As required by United States generally accepted government auditing standards and OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have
reviewed the status of CCC’s corrective actions with respect to the findings and
recommendations included in the prior year’s Independent Auditor’s Report dated November 12,
2009. Exhibit 4 provides a discussion on the status of prior year findings and recommendations.

CONSISTENCY OF OTHER INFORMATION

CCC’s Management Discussion and Analysis (MD&A) and other required supplementary
information contains a wide range of information, some of which is not directly related to the
financial statements. We compared this information for consistency with the financial statements
and discussed the methods of measurement and presentation with CCC officials. Based on this
limited work, we found no material inconsistencies with the financial statements; accounting
principles generally accepted in the United States, or OMB guidance. However, we do not
express an opinion on this information.

The performance section and other accompanying information section are presented for
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on them.

OBJECTIVES, SCOPE AND METHODOLOGY

CCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of
the Federal Managers’ Financial Integrity Act (FMFIA) are met, (3) ensuring that CCC’s financial
management systems substantially comply with FFMIA requirements, and (4) complying with
other applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States. We are also responsible for: (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit, (2)
testing whether CCC’s financial management systems substantially comply with the three
FFMIA requirements, (3) testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit
guidance requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Annual Report.



                                                3

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles
used and significant estimates made by management, (3) evaluated the overall presentation of
the financial statements, (4) obtained an understanding of CCC and its operations, including its
internal control related to financial reporting (including safeguarding of assets), and compliance
with laws and regulations (including execution of transactions in accordance with budget
authority), (5) tested relevant internal controls over financial reporting, and compliance, and
evaluated the design and operating effectiveness of internal control, (6) considered the design
of the process for evaluating and reporting on internal control and financial management
systems under FMFIA, (7) tested whether CCC’s financial management systems substantially
complied with the three FFMIA requirements, and (8) tested compliance with selected
provisions of certain laws and regulations.
We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.
We did not test compliance with all laws and regulations applicable to CCC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to CCC’s financial statements for the fiscal year ended September 30, 2010. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.
We performed our audits in accordance with auditing standards generally accepted in the
United States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance. We
believe that our audits provide a reasonable basis for our opinion.
CCC COMMENTS AND OUR EVALUATION
CCC’s response to the findings identified in our report is presented as Exhibit 5. We did not
audit CCC’s response and, accordingly, we express no opinion on it. CCC did not concur with a
few of our findings and recommendations. We disagree with CCC’s responses on the non-
concurrences and stand by the conclusions reached in our report.
                                   *********************************
This report is intended solely for the information and use of CCC’s management, USDA’s Office
of Inspector General, OMB, the Government Accountability Office, and the U.S. Congress, and
is not intended to be, and should not be, used by anyone other than these specified parties.


a1
Calverton, Maryland

November 4, 2010



                                                  4

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                 September 30, 2010


MATERIAL WEAKNESS

1. Financial Management System’s Functionality (Modified Repeat Finding)

The CCC’s financial management system is not capable of recording certain payment
obligations (budgetary entries) at the transaction level. This include some programs associated
with the producer payments and the conservation reserve program, which represent payments
of at least $2.4 billion of CCC’s $11.6 billion gross cost in the statement of net cost as of
September 30, 2010. This deficiency does not allow CCC to perform an automated and real
time fund controls at the time contracts are initiated (obligated) by county offices.

The CCC financial management systems capture the activities of at least 50 farm programs
from over 2,000 county offices throughout the country. The current financial management
systems were put in place in the 1980s. Although functionality enhancements and updates are
continually made to the system, CCC recognizes that the aging of the financial management
and information systems with inherent limitations have posed significant challenges to its
financial operations. To address these challenges, CCC has started its Financial Management
Modernization Initiative (FMMI) through the agency wide Modernize and Innovate the Delivery
of Agricultural Systems (MIDAS) project since 2004. However, the FMMI is not expected to be
fully implemented for CCC until FY 2012.

Federal Management Financial Improvement Act states that one of the purposes of this Act is to
“increase the capability of agencies to monitor execution of budget by more readily permitting
reports that compare spending of resources to results of activities.”

CCC plans to continue its efforts to develop and implement new systems that will substantially
comply with the financial management systems requirements; and refine their manual funds
control, therefore, we will not repeat the recommendation in this report.




                                             1-1

                           U.S. DEPARTMENT OF AGRICULTURE

                            COMMODITY CREDIT CORPORATION

                        INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                   September 30, 2010


SIGNIFICANT DEFICIENCIES
2.	 Strengthen Information Security Controls (Modified Repeat Finding)

The CCC applications are hosted on systems managed by the United States Department of
Agriculture (USDA) - Farm Service Agency (FSA); USDA National Information Technology
Center (NITC), and the International Technology Services (ITS).

The CCC relies on extensive information technology (IT) systems to accomplish its mission and
in the preparation of its financial statements. Internal controls over these operations are
essential to ensure the integrity, confidentiality, and reliability of critical data while reducing the
risk of errors, fraud, and other illegal acts. The entity’s use of IT may affect the internal controls
relevant to the achievement of the entity’s financial reporting, operations or compliance
objectives, and its operating units or business functions.

Our review of IT controls covered general controls and selected business process application
controls. General controls are the structure, policies, and procedures that apply to CCC’s overall
computer systems. They include entity-wide security administration, access controls,
configuration management, segregation of duties and disaster recovery controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing. The
American Institute of Certified Public Accountants (AICPA) AU Section 314 Understanding the
Entity and Its Environment and Assessing the Risks of Material Misstatement states that while
general controls do not, by themselves, cause misstatements, they may permit application
controls to operate improperly and allow misstatements to occur and not be detected.

Furthermore, the Government Accountability Office (GAO) Financial Audit Manual (FAM) states
that the effectiveness of general controls is a significant factor in determining the effectiveness
of application controls and certain user controls. Without effective general controls, application
controls may be rendered ineffective by circumvention or modification.

The CCC is in the process of remediating specific IT findings identified in prior year audits.
However, continued efforts are needed to implement entity-wide controls for effective security
management, certification and accreditation process, and computer operations. Control
weaknesses remediated in FY 2010 included the following:

   •	 Development and implementation of a Configuration Management Plan,
   •	 The CCC is also continuing to implement prior year recommendations related to
      migration of its systems to web-based platforms.

Security Management Controls

The CCC policies are established to define risk limits, risk tolerance and control objectives.
These policies standardize procedures and practices to ensure that similar procedures are
followed by different people undertaking the same task; and that the effectiveness of these
procedures can be measured and monitored for compliance. When practices deviate
significantly from the established and approved policies and procedures, and without formal and
documented procedures and approval for these practices that override established policies and
procedures, control activities are left to the individuals who perform these activities, and it is


                                                 2-1

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                  September 30, 2010


unlikely that deviations will be detected. Therefore, their accuracy and availability relies largely
on individuals, rather than on a formal process. When an organization does not follow formal
policies and procedures, responsibilities may become unclear, misunderstood, and improperly
implemented; and controls may be inconsistently applied. Such conditions may lead to
insufficient protection of sensitive or critical resources.

The security management program establishes a framework and continuous cycle of activity for
assessing risk, developing and implementing effective security procedures, and monitoring the
effectiveness of these procedures. Through the Federal Information Security Management Act
of 2002 (FISMA), Congress requires each federal agency to establish an agency-wide
information security program to provide security to the information and information systems that
support the operations and assets of the agency, including those managed by a contractor or
other agency. OMB Circular No. A-130, Appendix III, Security of Federal Automated Information
Resources, requires agencies to implement and maintain a program to assure that adequate
security is provided for all agency information collected processed, transmitted, stored, or
disseminated in general support systems and major applications.

In FY 2010, we noted the following security management control weaknesses:

   •	 (Modified Repeat Finding) Inconsistencies are noted between CCC management’s
      current practices and CCC’s approved security management policies. The FSA
      Computer Security Procedure (which is used by CCC), Notice IRM 400 approved by the
      Deputy Administrator for Management states in Section 4 that “FSA-13-A is the only
      acceptable system access request format for privileges…” we noted that management
      was using several other access forms to grant access to systems resources. The
      Change Management Plan: Process Definitions and FSA Change Management Plan:
      ClearQuest implementation: defined procedures for use in CCC’s change management
      process such as obtaining signatories for approved changes, constitution of a Change
      Control Board and utilization of specific change control software, none of which was
      implemented by CCC. Information Systems Security Program Directive 6-IRM requires
      State and County Offices to implement contingency plans and test those plans at the
      state and county level while FSA/CCC management’s interpretation of Directive 6-IRM is
      to implement these controls at the Kansas City Central Office.

   •	 (Modified Repeat Finding) The CCC’s Certification and Accreditation (C&A) process
      did not have a rigorous process to review and maintain documentation of the results,
      and validate the conclusions reached. Test results were not supported. The Validation
      Test Report stated that several controls were either not tested or not applicable when in
      fact they were.

   •	 (Modified Repeat Finding) There is no formalized review and approval process for
      System Security Plans (SSP). We noted several inconsistencies that a methodical
      review would have prevented and/or corrected. Controls noted in the SSPs did not
      reflect implemented controls. Some controls were not related to the platform being
      accredited.




                                                2-2

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                 September 30, 2010


   •	 (New Finding) There are inconsistencies in the CCC’s background investigation policies
      and procedures regarding the requirement to have background investigations performed
      and the duration of employment necessary to trigger an investigation. There are
      conflicting policies maintained by USDA’s Human Resources Department (HRD) in
      Washington DC and FSA office in Kansas City.

Computer Operations

Computer operations should be in place so that all critical data, transactions and programs are
processed in a timely manner. These include controls over the effective configuration and
maintenance of operating system software, system logging and monitoring functions. The
CCC’s information systems employ aging and unsupported platforms that pose additional risk to
the integrity and availability of financial data. The USDA Inspector General’s April 22, 2010
testimony to Congress made reference to the risks posed by these antiquated software and
addressing related vulnerabilities. The FSA administrator in his March 10, 2010 Statement
before the House Committee on Agriculture also reiterated that these antiquated systems
remain one of the most pressing concerns for the Agency.

Ineffective access controls do not provide CCC with sufficient assurance that financial
information is adequately safeguarded from inadvertent or deliberate misuse, improper
disclosure or destruction.

In FY 2010, we noted that CCC continued migrating some of its mission critical applications to
web-enabled platforms.

We noted additional computer operations control weaknesses in FY 2010, as follows:

   •	 (Repeat Finding) The CCC currently hosts some of its County Office (CO) applications
      on IBM AS/400 V4R4 platforms that have been configured to emulate the IBM System
      36 System. Both the AS/400 V4-R4 and the System 36 operating systems are no longer
      supported by the vendor, which may render it difficult for CCC to have access to security
      patches and hot fixes to remediate any flaws and vulnerabilities within the operating
      system.

   •	 (New Finding) Access to CCC system resources was not always appropriately
      authorized, approved and/or monitored.
         o	 Access was granted to new employees without proper approval. In certain
             instances access to system resources was granted before authorization forms
             were submitted and approved, while in other instances, authorization forms were
             missing required approvals.
         o	 Access to shared folders used for Software inventory and metering [which allows
             CCC users to track and manage program change code] was not being monitored
             and reviewed.

   •	 (New Finding) Access permissions for terminated employees were not appropriately
      disabled and removed in accordance with CCC requirements. One terminated employee
      still had an active network account 81 days after separation from the Agency.




                                             2-3

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                 September 30, 2010


   •	 (New Finding) User re-certification (review of access permissions) was not consistently
      done. The concept of least privilege and assigning access on a need-only basis was not
      implemented as we noted no procedure was in place for reviewing and/or disabling user
      accounts that have never logged onto the network. We identified 30 such accounts that
      had never logged on to CCC resources; these accounts were eventually disabled by
      management.

   •	 (New Finding) Service Level Agreements (SLA) with Managed Hosting and Technology
      Services providers (NITC & ITS) were not revised or updated to ensure CCC resources
      are adequately protected and recovered within time frames imposed by CCC business
      requirements.

           o	 The list of critical applications monitored by ITS does not include key applications
              used by FSA for financial statement recording and reporting. The SLA with ITS
              does not specify recovery service metrics or requirements.
           o	 The NITC and ITS SLAs do not provide the capability for the FSA to adequately
              recover its systems within the FSA required period. For example, the SLA with
              NITC states that for Severity 1 issues, NITC has a Recovery Time Objective of
              48 hours. However, FSA Tier 1 systems must be recovered within 0 to 24 hours.
           o	 The Cotton Online Processing System (COPS) and CCC CORE are rated as Tier
              1 Applications for Recovery Point Objective (RPO). Applications with an RPO
              rating of Tier 1 must be recovered with no data loss via mirroring. FSA currently
              has no mirrored sites for any of its systems.

Recommendations

We recommend that FSA Office of Chief Information Officer (OCIO), in coordination with CCC
system owners and USDA OCIO officials:

1.	 Ensure all requests to add, modify, or remove access permissions are completed in
    accordance with approved USDA policy.

2.	 Incorporate a review of accounts that have never logged on to the network into the monthly
    network account review process.

3.	 Periodically review access permissions to sensitive shared folders and other critical access
    paths.

4.	 Ensure that the recovery requirements in the service provider’s SLAs are aligned with the
    CCC established recovery objectives for the major financial applications.

5.	 Review the SLA with ITS to ensure that it covers all major financial applications and defines
    the Recovery Service metrics or requirements for those applications.

We also recommend that

6.	 CCC should work with USDA HRD to review and update its personnel policies and
    procedures to ensure that they are consistent and uniformly implemented.



                                               2-4

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                  September 30, 2010


The CCC has started implementing the prior year recommendations related to reviewing and
updating CCC-wide security policies and directives; migration of its applications to web-based
platforms, and implementing mitigation/remedial action; therefore, we will not repeat the
recommendations in this report.

3.	 Strengthen Control Over Child Agency Financial Reporting (Modified Repeat Finding)

The CCC is a party to allocation transfers with the U.S. Agency for International Development
(USAID) as the transferring entity (parent). In accordance with OMB Circular A-136, Financial
Reporting Requirements, “The parent is accountable for and maintains the responsibility for
reporting while the child performs on behalf of the parent and controls how the funds are
expended. The parent is responsible for the program’s overall performance and may decide to
reallocate funds if the parent is not satisfied with the child’s performance.” It further states that
“The key to timely and accurate quarterly reporting by the child agency is the communication
between the parent and child. It is strongly recommended that issues such as formats, abnormal
balances, capitalization thresholds, useful lives, depreciation methodologies, transfer of trading
partner information, etc., be discussed and resolutions reached at a date required by the parent
to meet its reporting and auditing deadlines.”

During fiscal year 2010, CCC allocated funds of approximately $1.4 billion to USAID (the child)
to fund P.L. 480 Title II, transportation and other administrative costs in connection with foreign
donations.

We did not repeat our prior year audit recommendation that CCC amend its memorandum of
agreement (MOU) with USAID to require certain control procedures to be implemented at
USAID since CCC indicated that the MOU is expected to be executed by December 31, 2010.

Reconciliation of Unliquidated Obligation (Modified Repeat Finding)

USAID’s unliquidated obligation is approximately $1.4 billion as of September 30, 2010. We
requested but did not receive any audit evidence that USAID performed periodic reconciliations
between unliquidated obligations in the general ledger (GL) and subsidiary records. USAID
indicated that they do not prepare this reconciliation.

GAO Standards for Internal Control in the Federal Government states that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.

Recommendation

7.	 We recommend that CCC implement compensating controls such as obtaining from USAID
    a quarterly reconciliation of the unliquidated obligations related to the CCC funds and review
    the reconciliation to ensure that two related but independent records are reconciled and
    adjustments, if any, are made timely.




                                                2-5

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2

                                 September 30, 2010


Calculations & Recording of Accruals (New Finding)

USAID records transportation awards accrual on a quarterly basis. Accruals are calculated to
provide an accurate picture of an award’s true status. Accruals also help the Agency anticipate
future funding and spending. The Cognizant Technical Officer (CTO) evaluates the system
calculation and decides if an adjustment is necessary. The CTO uses a worksheet to calculate
estimated quarterly expenses. The worksheet has historical monthly expenses beginning with
the time the obligation/contract was made. The worksheet is used to calculate an estimate of a
month’s expenses by using a “burn rate” and a weighted quarterly average.
During our test of sample transactions, we identified two accrual transactions calculated using
the wrong burn rate when compared to the Burn Rate Accrual Table dated 2005. Using these
parameters, the rate indicated by the Accrual table was higher than the actual rate used by 7%.
This results in a combined understatement for the accrual and the expenses balance reported
as of June 30, 2010 by approximately $10 million. USAID management corrected the rates and
applied the correct rates in calculating the year-end accruals. However, these errors were
identified during the audit process and were not prevented, detected, and corrected timely by
the USAID’s internal control process.
GAO Standards for Internal Control in the Federal Government states that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.
Recommendations
We recommend that:
8.	 CCC implement compensating controls for control deficiencies at USAID by reviewing the
    USAID’s accrual for transportation awards to ensure that the amounts accrued are properly
    calculated.

9.	 CCC work with USAID to explore ways to increase the accuracy of accrual estimations such
    as instituting management reviews.

Single Audit Act Monitoring and Oversight (Modified Repeat Finding)

USAID does not have an adequate system in place to ensure that all award recipients
(grantees) subject to single audits have a single audit performed and have submitted their audit
reports in a timely manner. The office responsible for monitoring the audit findings could not
provide a complete or sufficient documentation to show how many audit reports were received
or reviewed, the management decisions issued on audit findings, or that the grantee took
appropriate and timely corrective actions. Specifically, our test of a sample of nine recipients
identified the following:

   •	 None of the nine grantees were identified on the CAMs Internal Tracking System
      provided by USAID. The tracking spreadsheet provided is not current and does not
      include all grantees required to file single audit report. The tracking spreadsheet does
      not show the fiscal period of the grantee, date the single audit report is due, or other


                                              2-6

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2

                                  September 30, 2010


       relevant information that could ensure that USAID is monitoring the grantees’ timely filing
       of the single audit reports.

   •	 Eight of the nine grantees had findings based on the latest SF-SAC data collection form
      submitted to the Federal Audit Clearinghouse. However, only one of the eight grantees
      was listed in the Open Audit Recommendation (OAR) listing provided for our audit.
      There was no other documentation from USAID to indicate that the audit findings of the
      other seven grantees were closed and/or required a management decision.

   •	 For the one grantee with 2008 findings reported in the OAR and requiring a corrective
      action plan (CAP), USAID could not provide documentation that the CAP was reviewed
      by management in a timely manner. Further, this recipient’s history showed CAP
      prepared for 2007 audit report, and a review was performed by USAID, however, the
      documentation provided did not indicate how USAID would address the recipient’s non-
      implementation of the CAP.

USAID relies on a diverse blend of ad hoc (excel spreadsheets), legacy, and transition systems
to capture and record single audit oversight information. Not having a coherent system to track
monitoring and oversight responsibilities may lead to difficulty in providing sufficient appropriate
evidence supporting the agency’s monitoring and oversight performance. Moreover, the risk that
USAID may continue to provide grants to organizations that do not deserve to receive the
federal grants increases when there is inadequate monitoring and oversight. Moreover, potential
fraud, waste, or abuse may not have been followed up or timely followed up.

OMB Bulletin A-133, Audits of States, Local Government, and Non-Profit (Single Audit Act),
Subpart D, Section .400 (c) states that the Federal awarding agency shall (3) ensure that audits
are completed and reports are received in a timely manner and in accordance with the
requirements of this part; (5) issue a management decision on audit findings within six months
after receipt of the audit report and ensure that the recipient takes appropriate and timely
corrective action.

Recommendations

We recommend that:

10. CCC implement	 compensating control to correct the control deficiencies identified on
    USAID’s Single Audit Act monitoring and oversight responsibilities.

11. CCC work with USAID to establish processes and controls that implement the single audit
    monitoring life cycle. These include ensuring that audits are completed and reports are
    received in a timely manner from all grant recipients subject to single audit, ensuring timely
    issuance of management decision on audit findings, and verifying recipient implementation
    of the corrective actions.

12. CCC work with USAID to ensure complete, adequate, sufficient, and reliable documentation
    is readily available for verification.




                                                2-7

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 3

                                  September 30, 2010


COMPLIANCE AND OTHER MATTERS

FFMIA (Repeat Finding)

The results of our test of FFMIA disclosed instances, as summarized below, where CCC’s
financial management systems did not substantially comply with the federal financial
management systems requirements.

   •	 The CCC’s financial management system’s functionality does not record certain
      payment obligations (budgetary entries) at the transaction level.

   •	 The CCC’s mission critical financial applications are currently supported by aging and
      outdated technology, and are in need of improvement to address performance, flexibility,
      and system interface issues. The CCC currently hosts some of its County Office
      applications on IBM AS/400 platforms that have been configured to emulate the IBM
      System 36 System. Both the AS/400 V4-R4 and the System 36 operating systems are
      no longer supported by the vendor, which may render it difficult for CCC to have access
      to security patches and hot fixes to remediate any flaws and vulnerabilities within the
      operating system.

Anti-Deficiency Act (New Finding)

On April 21, 2010, CCC became aware that some contracts under the Biomass Crop Assistance
Program (BCAP) were in possible violation of the Anti-Deficiency Act (ADA). The basis for anti-
deficiency violation was that the performance of the contracts was either explicitly or implicitly
continued past the March 31, 2010 deadline imposed by OMB under the terms of the OMB
apportionment for the BCAP. Through the USDA Office of General Counsel, CCC has
determined that by virtue of OMB Circular A-11, Preparation, Submission and Execution of the
Budget, footnotes are made binding on apportionments pursuant to OMB delegated authority to
apportion funds (31 U.S.C. 1513); thus a violation of a footnote is a violation of the
apportionment, which in turn constitutes a violation of the ADA.

As of the reporting date, CCC has concluded violations of the ADA occurred and the letters
reporting these violations to the President, through the OMB Director; Congress; and the
Comptroller General are pending clearance by Department officials.

The ADA prohibits the following:

   •	 Making or authorizing expenditure from, or creating or authorizing an obligation under,
      any appropriation or fund in excess of the amount available in the appropriation or fund
      unless authorized by law.
   •	 Involving the government in any obligation to pay money before funds have been
      appropriated for that purpose, unless otherwise allowed by law.
   •	 Making obligations or expenditures in excess of an apportionment or reapportionment, or
      in excess of the amount permitted by agency regulations.




                                               3-1

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 4

                                 September 30, 2010


STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04 Audit
Requirements for Federal Financial Statements, as amended, we have reviewed the status of
the CCC corrective actions with respect to the findings and recommendations included in CCC
internal control report for FY 2010 dated November 4, 2010. The following analysis provides our
assessment of the progress CCC has made through September 30, 2010 in correcting the
noted deficiencies.


                   FY 2009 Findings                     Years           FY 2010 Status
                                                       Reported
        Improvement needed in financial             2002 – 2009 /       Open/Modified
        system functionality and funds              Material           Reported as a MW
        control                                     Weakness
                                                    (MW)
        Strengthen Control Over the Farm            2009 /           Open /Reported as a
        Storage Facility Loans                      Significant      control deficiency in
                                                    Deficiency       Management Letter
                                                    (SD)                     (ML)

        Strengthen Reconciliation Control over      2009 / SD        Open/ reported as a
        the Statement of Budgetary Resources’                       control deficiency in ML
        (SBR) Gross Outlays and Offsetting
        Collections
        Strengthen Control Over Intra-              2009 / SD        Open/ reported as a
        governmental Balances                                       control deficiency in ML


        Strengthen Control over Accounts            2009 / SD               Closed
        Receivable and Revenue
        Improvement needed in                       2002 – 2007 /       Open/Modified
        information security controls               MW                 Reported as a SD
                                                    2009 / SD
        Strengthen Control Over Child Agency        2008 - 2009 /       Open/Modified
        Financial Reporting                         SD                 Reported as a SD




                                             4-1

                 EXHIBIT 5

Management’s Response to Findings Contained
     in the Independent Auditor’s Report
United States
Department of
                    --
                    USDA 



                    Exhibit V
Agriculture
                    TO:            Lynette Cockrell
Farm and Foreign
Agricultural                       Acting Regional Inspector General
Services
                                   Office of the Inspector General
Commodity Credit
Corporation
                                   Mia Leswing
1400 Independence                  Partner-in-Charge
Avenue, SW
Stop 0581                          Clifton Gunderson, LLP
                                                                                                 OV 092010
Washington, DC
20250-0581
                    FROM-_
                                   RickyT.  valentine~"2,/J
                                   Controller                       /V"C
                                   Commodity Credit orporat on

                    SUBJECT:       Response to the Draft Combined Independent Auditor's Report on the
                                   Commodity Credit Corporation's (CCC) Fiscal Years (FY) 2010 and 2009
                                   Comparative Financial Statements


                    We have reviewed Clifton Gunderson's Draft Combined Independent Auditor's Report
                    dated November 6, 2010, and do not concur with some of its contents. The Information
                    Technology Services Division will be providing a separate response that will be signed by
                    the Chief Information Officer and included in CCC's formal response in the final audit
                    report and is attached.

                    Repeat Recommendation Addressing Prior Years' Material Weakness (MW): CCC
                    plans to continue its efforts to develop and implement new systems that will substantially
                    comply with the financial management systems requirements; and refine their manual
                    funds control, therefore, we will not repeat the recommendation in this report.

                    CCC Response to the Repeat Recommendation for Prior Years' MW: CCC concurs
                    with continuing the corrective actions to implement compliant systems, however, CCC
                    does not concur with refining its manual processes since management believes any
                    additional manual controls would be too cumbersome and labor intensive to be cost
                    effective.

                    Recommendation #7: We recommend that CCC implement compensating controls such
                    as obtaining from the U.S. Agency for International Development (USAID) a quarterly
                    reconciliation of the unliquidated obligations related to the CCC funds and review the
                    reconciliation to ensure that two related but independent records are reconciled and
                    adjustments, if any, are made timely.


                                                         USDA is an Equal Opportunity Employer




                                                          5-1
Lynette Cockrell
Mia Leswing
Page 2


CCC Response to Recommendation #7: USAID concurs with the finding. USAID has
agreed to provide evidence to CCC that USAID has perfonned and completed an annual
reconciliation as of March 30 of the respective FY of the unliquidated obligations,
USAID's general ledger accounts, and USAID's budget module. USAID does not agree
to provide a quarterly reconciliation specifically for CCC due to resource constraints.

Recommendation #8: CCC implement compensating controls for control deficiencies at
USAID by reviewing USAID's accrual for transportation awards to ensure that the
amounts accrued are properly calculated.

Recommendation #9: CCC work with USAID to explore ways to increase the accuracy
of accrual estimations such as instituting management reviews.

CCC Response to Recommendations #8 and 9: CCC Management and USAID do not
concur with the finding and recommendation. Clifton Gunderson has not proven that the
cited condition of the wrong value for the burn rate in estimating accruals caused the
overall accrual estimate for CCC's appropriations to be erroneous. USAID asserts that
the methodology used produced a reasonable estimate of accrued expenses.

Recommendation #10: CCC implement compensating control to correct the control
deficiencies identified on USAID's Single Audit Act monitoring and oversight
responsibili ti es.

Recommendation #11: CCC work with USAID to establish processes and controls that
implement the single audit monitoring life cycle. These include ensuring that audits are
completed and reports are received in a timely manner from all grant recipients subject to
single audit, ensuring timely issuance of management decision on audit findings, and
verifYing recipient implementation of the corrective actions.

Recommendation #12: CCC work with USAID to ensure complete, adequate,
sufficient, and reliable documentation is readily available for verification.

CCC Response to Recommendation #10, 11, and 12: CCC does not concur with
implementing compensating controls over all business processes for CCC at USAID;
however USAID concurs with the findings and will implement a new system that will
provide the controls necessary to mitigate the findings noted. USAID has processes and
controls in place using the Agency's Audit Tracking System that implement the single
audit monitoring life cycle; however, the current system is inoperable because it is




                                     5-2
Lynette Cockrell
Mia Leswing
Page 3


incompatible with USAID's new desktop applications. USAID will be obtaining a
contractor to implement a new system to be completed by September 2011.

CCC will develop corrective action plans, where necessary, to address the findings and
recommendations identified during the audit. As we consider the required corrective
actions, we will continue to work with the Office of the Inspector General in ensuring that
the specific actions will assist us in successfully addressing the recommendations and
reaching management decision.

If you have any questions or require additional information, please contact
Elizabeth Russell at (703) 305-1283.

Attachment




                                      5-3
United States        Exhibit V
Department of                                                                                   NOV 82010
Agriculture
                     TO: 	         Lynette Cockrell 

Farm and Foreign
Agricultural                       Regional Inspector General 

Services                           Office of the Inspector General 

Commodity Cre<lit
Corporation                        Mia Leswing 

1400 Independence                  P3.11ner-in-Charge 

Avenue,SW                          Clifton Gunderson, LLP 

Stop 0581

Washington, DC
20250-0581
                     FROM: (r Jim Gwinn           ~-5:, ~,-~l~_ 

                          ..- ;t. Chief Information Officer 

                                   Fann Service Agency 


                     SUBJECT: 	 Respo1lse to the Draft. Combined Independent Auditor's Report on the 

                                Commodity Credit COTPoration's (CCC) Fiscal Years 2010 and 2009 

                                Comparative Financial Statements 



                     We have reviewed Clifton Gunderson's Draft Combined Independent Auditor's Report 

                     dated November 6,2010, and do not concur with some of its contents. 


                     The following reflects management's response to the InfOlmatiol1 Technology (IT) 

                     findings/recommendations described in Section 2, Significant Deficiencies (SO): 


                     Recommendation #1: Ensure all requests to add, modify, or remove access permissions 

                     are completed in accordance with approved U.S. Department of Agriculture (USDA) 

                     policy. 


                      CCC Response to Recommendation #1: CCC does not concur with the
                      recommendation. We do not agree that user provisioning additions, modifications, or 
     •
                      removals were completed in nOll-compliance of approved USDA or FSA poJicy. 

                      Furthermore, we have seven (7) strong compensating controls that encompass a quality 

                      assurance review of user provisioning additions or modifications and a multitude of 

                    . reviews for user provisioning removals. CCC does not believe that a Plan of Actions &
                      Milestones (POA&M) should be developed as our current policies, procedures, and
                      compensating controls are more than adequate to demonstrate "reasonable assurance"
                      that the control is working effectively. We agree to continue our due diligence in
                      reviewing our policies and operating procedures. eee does not concur with the assigned
                      "SD" severity level as it should be noted tl,at the condition on its own or in the
                      aggregate does 1I0t have a significant or material impact on the ftnanci.al statements.

                     Recommendation #2: Incorporate a review of accounts that have never logged on to the 

                     network into the monthly network account review process. 

                                                        USDA is an Equal Opportunity Employor




                                                         5-4
 I...ynette Cockrell
 Mia Leswing
 Page 2


 CCC Response to Recommendation #2: CCC concurs with the recommendation and
 because our Standard Operating Procedure (SOP) for this network review was
 immediately updated to include handling accounts that have never logged on to the
 network, CCC does not believe a POA&M should be developed. eee does not concur
 witl, the assigned "'SD" severity level as we demonstrated that these accounts would not
 be functional as tlley all have expired passwords associllted with them and these
 accounts make up a very smaU percentage ofour overalilletwork accounts.

 Recommendation #3: Periodically review access pennissions to sensitive shared folders
 and other critical access paths.

  CCC Response to Recommendation #3: CCC does 110t concur with the
  recommendation. CCC does not believe that a POA&M should be developed as e'vidence
  was provided that periodic reviews are being completed for those individuals with the
. authority to update our production environment with additions or changes and that
  segregation of duty requirements have been met for our testing and production
  environments. eee does not concur with the assigned '·SD" severity level as it should
  be noted that the condition on its own or in the aggregate does not have a sign{ficant or
  material impact on the finanCial statements.

Recommendation #4: Ensure that the recovery requirements in the service provider's
Service Level Agreements (SLAs) are aligned with CCC established recovery objectives
for the major financial applications. .

 CCC Response to Recommendation #4: CCC COnCllI'S with the recommendation and
will develop a POA&M to address the updating of our SLAs with our infrastructure
st."fVlce providers. eee does not concur with the assigned ~SD" severity level as: (1) it
should be noted that the condition on its own or in the aggregate does not I,ave a
significant or material impact on the.financial statements, and (2) eee adequately
demonstrated that our infrastructure service providers will meet our recovery objectives
fot' our major financial applications based on their level ofsupport provided durulg
our annual Disaster Recovery exercise.

Recommendation #5: Review the SLA with Information Technology Services (ITS) to
ensure that it covers all major financial applications and defines the Recovery Service
metrics or requirements fOT those applications.




                                     5-5
            Lynette Cockl'ell
            Mia Leswing
            Page 3


            CCC Response to Recommendation #5: CCC concurs with the recommendation and
            \"lill develop a POA&M to address the updating of our SLAs with om infrastructure
            service providers. eee does not concur with the assigned "SD" severity level as: (1) it
           .should he noted that the condition on its own or in the aggregatlt does not have a
            signijicaltt or material impact on the jimmcial statements, and (2) eee adequately
            demonstrated that our infrastructure service providers will meet our recovery objectives
            for our major financial applications based on their level ofsupport provided durillg
            ollr allHual Disaster Recovery exercise,

            Recommendation #6: CCC should work with the USDA Human Resources Division
            (HRD) to review and update its personnel policies and procedures to ensure that they are
            consistent and uniformly implemented.

            CCC Response to Recommendation #6: CCC does not concur with the
            recommendation. We do perform initial "fingerprint" checks and background
            investigations on pennanent employees and all employees needing computer access
            whether permanent or temporary. The employees identified in this condition were not
            pernlanent employees and did 110t have computer access. CCC does not believe that a
            POA&M should be developed as our current policies, procedures, aJ.1d compensating
            controls are more than adequate to demonstrate "reasonable assuf"ance" that the control is
            working effectively. We agree to continue our due diligence in reviewing our policies
            and operating procedures. eee does /tot concur with tile assigned "SD" severity level as
            it should be noted that tl,e condition on its own or in flU! aggregate does not have a
            sig/rijicant or material impact on the financial statements as the 6 employees were not
            granted any computer access.

            CCC win develop POA&Ms to address the findings and recommendations identified
            during the audit that we concur with. As we consider the required cOITective actions, we
            will continue to work with the Office of the Inspector General in ensuring that the
            specific actions wil1 assist us in successful1y addressing the recommendations and
            reaching management decision.

            If you have any questions or require additional infonnation, please contact
            Michael Serrone at (816) 926-6567.


            cc:    ControJJer, CCC                              Elizabeth Russell, FMDIPARLC
                   Chief Accountanl, OBI'                       Monty Tranbarger, FSC
                   Lisa Goree, ORAS                             Phil Short, ORAS




                                               5-6
- _..._ - - - - - - - - ­
U.S. DEPARTMENT OF
   AGRICULTURE
COMMODITY CREDIT
  CORPORATION




2010 ANNUAL REPORT




         1
U.S. Department of Agriculture
Commodity Credit Corporation
  1400 Independence Avenue, SW
      Washington, DC 20250

   2010 Annual Report


                   2
                                           PREFACE

This Annual Report shows the results of the Commodity Credit Corporation’s (CCC) operations for fiscal year 2010.
This report replaces the former Annual Report of the Commodity Credit Corporation and meets the requirements of
the CCC Charter Act, as amended, and the Government Corporation Control Act, as amended.

CCC worked closely with Clifton Gunderson LLP and the Office of Inspector General (OIG) for the United States
Department of Agriculture (USDA) in the development of this report.

The Management’s Discussion and Analysis section of the report contains the purpose, authority, mission, and goals
of the Corporation, financial, program summaries, and performance measures. This information is followed by the
audit opinion letter, financial statements, and accompanying notes.




The U.S. Department Agriculture (USDA) prohibits discrimination in all its program and activities on the basis of
race, color, national origin, age, disability, and where applicable, sex, marital status, familial status, parental status,
religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s
income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons
with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). To file a complaint
of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, SW., Washington,
DC 20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity provider
and employer.




                                                                 3
                                                           Table of Contents
Part I: Management’s Discussion and Analysis (Unaudited) ......................................................... 5
History of the Commodity Credit Corporation .............................................................................................................. 6
Structure of the Commodity Credit Corporation ........................................................................................................... 7
CCC Board of Directors ................................................................................................................................................ 8
CCC Program Areas ...................................................................................................................................................... 9
2010 Performance Highlights Summary ..................................................................................................................... 12
Financial Highlights .................................................................................................................................................... 13
Management Controls, Systems, and Compliance with Laws and Regulations .......................................................... 19
Federal Managers’ Financial Integrity Act (FMFIA) .................................................................................................. 22
       Fiscal Year 2010 Results ..................................................................................................................................... 22
       Material Weakness Remaining in Fiscal Year 2010 ............................................................................................ 23
Antideficiency Act (ADA) .......................................................................................................................................... 25
Management Summary, Initiatives, Information and Issues ....................................................................................... 25
Limitations of the Financial Statements ...................................................................................................................... 26
Part II: Performance Section (Unaudited)..................................................................................... 28
Performance Section .................................................................................................................................................... 29
       Income Support and Disaster Assistance Program Area ..................................................................................... 31
       Conservation Program Area ................................................................................................................................ 35
       Commodity Operations and Food Aid Program Area ......................................................................................... 38
       Marketing Expansion and Trade Building Program Area.................................................................................... 41
       Export Credit Program Area ................................................................................................................................ 44
Part III: Financial Section ............................................................................................................ 46
Notes to the Financial Statements................................................................................................................................ 51
Required Supplementary Information (Unaudited) ..................................................................................................... 97
Part IV: Other Accompanying Information (Unaudited) ............................................................ 102




                                                                                           4
   Part I: Management’s
   Discussion and Analysis
   (Unaudited)
Mission Statement
The Commodity Credit Corporation is a Government-owned and
operated entity dedicated to:

    Stabilizing, supporting, and protecting farm income and
    prices.

    Maintaining balanced and adequate supplies of agricultural
    commodities and aiding in their orderly distribution.

    Conservation of soil, air, and water resources and
    protection and improvement of wildlife habitats.

    Developing new domestic and foreign markets and
    marketing facilities for agricultural commodities.




                                 5
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



            History of the Commodity Credit Corporation

  E        stablished in 1933, the Commodity Credit Corporation (hereinafter CCC, Agency, or Corporation) is a
           government-owned corporation within the United States Department of Agriculture (USDA), created to
           stabilize, support, and protect farm income and prices. CCC is also the Federal government’s primary
financing arm for many domestic and international agricultural programs. CCC helps maintain balanced and
adequate supplies of agricultural commodities and aids in their orderly distribution.

CCC helps America’s agricultural producers through commodity and farm storage facility loans, purchases, and
income support payments. CCC also works to make available materials and facilities required in the production and
marketing of agricultural commodities. In addition, CCC provides incentives and payments to landowners to
establish conservation practices on their land.

CCC provides agricultural commodities to other Federal agencies and foreign governments. CCC also donates
commodities to domestic and international relief agencies as well as foreign countries. CCC assists in the
development of new domestic and foreign markets and marketing facilities for American agricultural commodities.
CCC operates numerous domestic programs such as income support, disaster, and conservation programs. It also
extends direct credit and guarantees commodity sales to foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and United States Treasury to
make payments. This disbursing authority allows CCC to make payments quickly and to provide financial support
to America’s producers and farmers immediately. CCC has multiple funding mechanisms. Most of the domestic
programs are operated out of a revolving fund, in which the CCC has a permanent indefinite borrowing authority, as
defined by OMB Circular A-11, Preparation, Submission, and Execution of the Budget. Borrowing authority
permits the Corporation to incur obligations and authorizes it to borrow funds to liquidate the obligations. This fund
also receives money from appropriated funding for costs incurred (i.e., realized losses), loan repayments, inventory
sales, interest income, and fees. Additionally, CCC receives direct appropriations for specific programs such as its
Credit Reform programs, foreign grant and donation programs, and disaster relief.




         Certain information contained in this discussion is considered “forward-looking information” as
         defined by the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal
         Financial Accounting Standards (SFFAS) No. 15, Management’s Discussion and Analysis, and
         Statement of Federal Financial Accounting Concepts (SFFAC) No. 3, Management’s Discussion
         and Risk Analysis Concepts. Such forward-looking information includes estimates and is subject
         to risks and uncertainties that could cause actual results to differ materially from this discussion.




                                                                6
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


          Structure of the Commodity Credit Corporation
A Board of Directors manages CCC and is subject to the general supervision and direction of the Secretary of
Agriculture who is an ex officio director and chairperson of the Board. The Board consists of seven members in
addition to the Secretary. The President of the United States, with the advice and consent of the Senate, appoints the
board members to office. The members of the Board and the Corporation’s officers are officials of USDA. CCC
officers, directly or through officials of designated USDA agencies, maintain liaison with numerous other
governmental and private trade operations.

CCC has no actual employees; it carries out the majority of its programs through the personnel and facilities of the
Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). Most of CCC’s programs are delivered through an extensive nationwide network of FSA field offices,
including approximately 2,400 USDA Service Centers and 51 state offices (including Puerto Rico). This network
enables CCC to maintain a close relationship with customers, successfully addressing their needs and continually
improving program delivery.

Though FSA provides the staff for CCC, several CCC funded programs fall under the Foreign Agricultural Service
(FAS) or Natural Resources Conservation Service (NRCS). FAS has the primary responsibility for USDA’s
international activities—market development, trade agreements and negotiations, and the collection and analysis of
statistics and market information. It also administers USDA’s export credit guarantee and food aid programs and
helps increase income and food availability in developing nations by mobilizing expertise for agriculturally led
economic growth.

NRCS is the primary conservation agent for the USDA. NRCS provides leadership in a partnership effort to help
America's private landowners and managers conserve their soil, water, and other natural resources. NRCS provides
financial assistance for many conservation activities. NRCS reaches out to all segments of the agricultural
community, including underserved and socially disadvantaged farmers and ranchers to ensure that CCC’s programs
and services are accessible to everyone.




                                                              7
                            COMMODITY CREDIT CORPORATION
                                   Management Discussion and Analysis


                                CCC Board of Directors
                        Chairperson, Thomas James Vilsack, Secretary of Agriculture
                          Vice Chairperson, Vacant, Deputy Secretary of Agriculture
           Member, James W. Miller, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
                         Member, Vacant, Under Secretary, Rural Development (RD)
              Member, Vacant, Under Secretary, Food, Nutrition, and Consumer Services (FNCS)
               Member, Vacant, Chief Financial Officer and Chief Information Officer, USDA
           Member, Edward M. Avalos, Under Secretary, Marketing and Regulatory Programs (MRP)
            Member, Harris D. Sherman, Under Secretary, Natural Resources and Environment (NRE)


                                          CCC Officers
                                President, James W. Miller, Under Secretary, FFAS
           Executive Vice President, Jonathan W. Coppess, Administrator, Farm Service Agency (FSA)
          Vice President, Carolyn Cooksie, Associate Administrator, Operations and Management, FSA
               Vice President, Rayne Pegg, Administrator, Agricultural Marketing Service (AMS)
               Vice President, John D. Brewer, Administrator, Foreign Agricultural Service (FAS)
                           Vice President, Janet Nuzum, General Sales Manager, FAS
                  Vice President, Julie Paradis, Administrator, Food and Nutrition Service (FNS)
              Vice President, David White, Chief, Natural Resources Conservation Service (NRCS)
         Deputy Vice President, James W. Monahan, Deputy Administrator, Commodity Operations, FSA
               Deputy Vice President, Philip G. Short, Deputy Administrator, Management, FSA
             Deputy Vice President, Brandon C. Willis, Deputy Administrator, Farm Programs, FSA
          Deputy Vice President, Michael Wooden, Acting Deputy Administrator, Field Operations, FSA
             Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
                        Deputy Vice President, Virginia Murphy, Associate Chief, NRCS
Deputy Vice President, Craig Derickson, Deputy Chief, Financial Assistance and Community Development, NRCS
        Deputy Vice President, Anthony Kramer, Deputy Chief, Easement and Landscape Planning, NRCS
                    Deputy Vice President, Eloris Speight, Deputy Chief, Management, NRCS
             Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
                              Deputy Secretary, Vacant, Farm Service Agency (FSA)
                         Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
                   Controller, Ricky T. Valentine, Director, Office of Budget and Finance, FSA
                 Treasurer, Heidi G. Ware, Deputy Director, Office of Budget and Finance, FSA
Chief Accountant, Agnes Leung, Acting Center Director, Policy, Accounting, Reporting, and Loan Center, Financial
                                            Management Division, FSA


                                               Advisors
                    General Counsel, Ramona Emilia Romero, Office of the General Counsel
  Associate General Counsel, Ralph A. Linden, International Affairs, Commodity Programs and Food Assistance
                                                   Programs




                                                           8
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


                                      CCC Program Areas
CCC funds many programs that fall under multiple agencies within the USDA. Each CCC-funded program helps
achieve parts of both the CCC mission and the strategic plan of the agency under which the program falls. CCC’s
mission and agency strategic goals are achieved through the successful implementation of the following key
programs:

Income Support and Disaster Assistance – Income support and disaster assistance programs provide financial
assistance to protect farmers and ranchers from fluctuations in market conditions and unexpected natural or man-
made disasters. Assistance is provided through income support programs, disaster assistance programs, and the
Noninsured Crop Disaster Assistance Program (NAP). FSA is responsible for administering income support and
disaster assistance. The agency is expanding the way it interfaces with farmers and producers in its traditional
“safety net” programs by adding on-line options while maintaining more traditional approaches. This has been a
monumental challenge for FSA. The performance discussion will cover the progress of the current initiatives.

Conservation – Supported by the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), conservation
programs offer farmers and ranchers a variety of financial and economic incentives to conserve natural resources on
the nation’s privately owned farmlands. Programs focus on reducing erosion, protecting streams and rivers,
restoring and establishing fish and wildlife habitats, and improving air quality through several conservation
incentive payments, technical assistance, and cost-share programs.

Commodity Operations and Food Aid – Commodity Operations personnel handle the procurement, acquisition,
storage, disposition, and distribution of commodities, and the administration of the U.S. Warehouse Act (USWA).
These programs help achieve domestic farm program price support objectives, produce a uniform regulatory system
for storing agricultural products, and ensure the timely provision of food products for domestic and international
food assistance programs and market development programs.

Market Expansion and Trade Building – Expanding markets for agricultural products is critical to the long-term
health and prosperity of the U.S. agricultural sector and, with 96 percent of the world’s population living outside the
United States, future growth in demand for food and agricultural products will occur primarily in overseas markets.
FAS market development programs play a critical role in helping to open new markets and in facilitating U.S.
competitiveness and by doing so, help to secure a more prosperous future for American agriculture. Support for
economic development and trade capacity building reinforces these efforts by helping developing countries to
become economically stable and improve their prospects to participate in and benefit from expanding global trade in
agricultural products.

Export Credit – CCC export credit guarantee and direct loan programs, administered by FAS in conjunction with
FSA, provide payment guarantees for third party commercial financing and direct financing of U.S. agricultural
exports. These programs facilitate exports to buyers in countries where credit is necessary to maintain or increase
U.S. sales but where financing may not be available without CCC credit facilities.




                                                               9
                              COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


       Future Effects of Demands, Events, and Conditions
Economic Fluctuation and Volatility
The world recession was the major underlying factor contributing to a decline in global agricultural demand, trade,
and prices, which reduced farm income and the value of U.S. agricultural exports in 2009. As economies of the
world recover, steady domestic and international economic growth supports gains in the U.S. agricultural sector over
the next decade. In addition, long-run developments reflect continued demand for agricultural commodities for the
production of bio-fuels. Thus, after declining in 2009, cash receipts to farmers and the value of U.S. agricultural
trade grow through the 2010-19 projection period. With increases in production expenses offsetting some of the
gains in cash receipts, net farm income should rise moderately from 2011 to 2019. Retail food prices should rise
faster than the general inflation rate through 2012, partly reflecting higher meat prices in 2011 and 2012.
Net farm income should decline in the near term from the 2008 peak but then grows moderately over the next
decade and exceeds the average of the previous ten years by the middle of the projection period. A sharp increase in
price volatility and more outside investment have marked commodity markets in recent years.

Increased price volatility has led to increased financial vulnerability in the commodity storage and marketing
sectors. Lower government payments and rising farm production expenses offset some of the anticipated gains in
cash receipts and other sources of farm income.

Government payments to farmers are projected to fall from $12.4 billion in 2010 to an average of less than $10
billion annually in 2011 to 2019. Price-dependent program benefits account for a declining share of payments.
Strengthening domestic and international demand holds prices for most crops above levels that would result in
marketing loan benefits or counter-cyclical payments. For example, even with stochastic considerations (included
here to capture potential variation in farm program benefits due to variability in production yields and the impacts
on prices), payments for marketing loan benefits and counter-cyclical payments for feed grains are minimal, and
likely to total less than $100 million from 2011 through 2019. Marketing loan benefits and counter-cyclical
payments for upland cotton are projected to average about $450 million per year over the same time period.
Payments for upland cotton represent more than 90 percent of the projected marketing loan benefits and counter-
cyclical payments for all commodities.

Initial enrollment in the Average Crop Revenue Election (ACRE) program covered less than 13 percent of eligible
base acres. Projections of government payments under the ACRE program exceed $400 million in 2010 (for 2009
crops), mostly reflecting reductions in prices from 2008 highs. Assuming stochastic yield variability for 2010 and
later crops, annual ACRE payments over 2011-2019 should average about $110 million, reflecting relative stability
in agricultural commodity markets in the projections and an assumed continued moderate level of producer
enrollment in the program.

Sustained higher crop prices make the use of land for production more valuable causing rental rates for land in the
Conservation Reserve Program (CRP) to rise. CRP is expected to be fully enrolled at the statutory cap of 32 million
acres from 2011 through 2019. Therefore, the expected increase in CRP payments from about $1.8 billion in 2010
to $2.3 billion in 2019 is solely due to rising rental rates.




                                                              10
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

With higher prices, government payments have a smaller role in the agricultural sector’s income. Government
payments, which represented more than eight percent of gross cash income in 2005, account for less than three
percent during most of the projection period. Conversely, the sector is more reliant on the market for income. Cash
receipts plus farm-related income rise to more than 97 percent of gross cash income.

The majority of the above came from: “USDA Agricultural Projections to 2019” OCE-2010-1, issued February
2010, pp 88, 89, Office of the Chief Economist, World Agricultural Outlook Board, Interagency Agricultural
Projections Committee.

Administrative Resource Constraints and Challenges
Although most CCC program outlays are mandatory, the salaries and administrative expenses (S&E) for the
agencies responsible for administering CCC programs are subject to a continuously constrained discretionary
spending environment. The agencies are under significant pressure to modernize the service delivery environment
in order to provide more flexibility in responding to fluctuations in program demand. A number of new CCC
programs authorized by the Food, Conservation and Energy Act of 2008 rely on price and yield data to determine
program eligibility and payment rates. As budgets are squeezed across the Department, statistical agencies are
cutting back on their data collections, and the resulting lack of data could jeopardize program intent.

FSA has a human capital plan in place, but it has not been updated to address the changing circumstances of the
Agency. FSA is challenged with continuing and deepening budget constraints, and, as reported by FSA officials,
permanent on-board employees are at a record low, down 16 percent in the last seven years. The ability of FSA to
deliver its programs could be seriously compromised as the retirement eligible employees depart before significant
numbers of new employees can be brought on board and trained to provide all required services. This is particularly
evident in the field offices where farm programs and loans are delivered to farmers and ranchers. FSA stated that its
retirement eligibility rate is currently at 20.5 percent with an additional 24 percent eligible for retirement within the
next five years. This could result in a potential loss of almost 45 percent of existing FSA employees by Fiscal Year
2015. If one third of the eligible employees retire during the next five years, the expected attrition from retirement
alone would be an additional 15 percent on top of the 16 percent reduction already due to budget constraints. FSA
officials have stated that a comprehensive workforce succession plan is needed to ensure continuity of the delivery
of Agency critical programs.

Natural Disasters and Weather Conditions
Extreme climate and weather events often cause extensive flooding and sustained droughts that profoundly affect
our society in general and agriculture in particular. Agriculture is vulnerable to variations and fluctuations in
weather and climate because existing agricultural practices were developed for average weather and climate
conditions. Furthermore, global climate change is acknowledged as a reality which will affect farming and ranching
practices and conservation measures. Agencies are in the process of developing plans to review programs and
operations to help mitigate global climate change while ensuring efficient and abundant agricultural production.




                                                               11
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


                   2010 Performance Highlights Summary
The Commodity Credit Corporation (CCC) was successful in meeting or exceeding its performance expectations for
2010. Significant progress in meeting CCC objectives was demonstrated by the fact that the Farm Service Agency
(FSA) exceeded three out of four of its CCC performance targets.

The Direct Crop and Counter-Cyclical Programs (DCP) authorized under the Food, Conservation, and Energy Act
of 2008, (Public Law 110-234), is a key program in the Agency effort to mitigate market losses. FSA provides
direct payments (cash) to eligible crop producers. The intent is to allow planting flexibility while providing a safety
net for producers. The DCP is authorized for FY 2008 through FY 2012. The Average Crop Revenue Election
(ACRE) Program, added under the 2008 Act, is a revenue-based farm safety net program offered as an alternative
program to the price-based safety net provided by counter-cyclical payments under DCP for crop years 2009
through 2012. Under ACRE a farm acre payment is based on a revenue-guarantee calculation using a five-year
average State yield and the most recent two-year price average. Participation in the ACRE program is limited to
farms with covered commodity or peanut base acres. The Fiscal Year (FY) 2010 performance target for the
measurement of these programs, “maintain the percent of eligible base acres participating in DCP and ACRE
programs” has exceeded its 95 percent participation rate target by achieving a 96.2 percent participation rate of
eligible base acres.

Another significant CCC function is executed through the CCC Warehouse Examination Program that performs
examinations of licensed and contracted warehouse facilities that store or handle commodities for CCC. The more
frequently warehouses are examined for compliance with CCC storage agreements and United States Warehouse
Act (USWA) licensing agreements by FSA warehouse examiners, the sooner any potential pest infestation or
quality deterioration of commodities in store will be discovered. Factors affecting the time between examinations of
these warehouses include the number of warehouses participating in storage programs for the CCC account, the
number of USWA licensed warehouses, the amount or value of commodity in store with CCC interest, the length of
time the commodities have been in store, whether the commodities have been forfeited or are simply under loan,
staff losses or attrition, and funding for the examination program. The CCC FY 2010 performance target of 400
days between warehouse examinations was exceeded based on current data that projects only 345 days between
examinations at the end of the fiscal year. This was made possible due to efficient examination practices and time
savings through the use of electronic warehouse receipts.

The CCC conservation programs help agricultural producers enhance and restore production and conservation
capabilities as well as enhance energy sustainability. The Conservation Reserve Program (CRP) is a voluntary
program for agricultural landowners. Through CRP, producers can receive annual rental payments and cost-share
assistance to establish long-term, resource conserving covers on eligible farmland. Participants enroll in CRP
contracts for ten to 15 years. An important measure of conservation performance is the monitoring of agricultural
land acreage enrolled as riparian and grass buffer zones under CRP. These buffers intercept sediment and nutrients
before they reach surface waters. CRP met its performance target of 1.99 million acres enrolled for the measure for
FY 2010, during which time producers set aside approximately 2.02 million acres as CRP buffer areas.

The CRP contributes to conservation objectives in other ways as well. The Farmable Wetlands Program (FWP) is a
recently enacted voluntary program to restore up to one million acres of farmable wetlands and associated buffers by
improving the land’s hydrology and vegetation. Eligible producers in all States can enroll eligible land in the FWP
through the CRP. Restored wetlands in CRP reached more than 2.5 million acres, exceeding the target by .06
million acres. These restored wetlands are the result of several initiatives, including the 250,000-acre Bottomland
Hardwood Timber Initiative, a 250,000-acre Non-floodplain Wetland Restoration Initiative, and a 150,000-acre
Prairie Pothole Duck Nesting Habitat Initiative. The major increase in restored wetlands is due to the announcement
of increased incentives for certain wetland practices and expansion of the Prairie Pothole Duck Nesting Habitat
Initiative.




                                                              12
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


                                      Financial Highlights
As part of its mission to stabilize, support, and protect farm income and prices, CCC is also responsible for
providing accurate, timely, and useful financial management information to all Agency stakeholders. These
statements have been prepared from the accounting records of the Agency as of September 30, 2010 and September
30, 2009 in accordance with generally accepted accounting principles for Federal entities and policies prescribed in
the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirement (Revised).

Assets: The Balance Sheet shows the Agency had total assets of $11.8 billion as of September 30, 2010, a decrease
of $650 million (5 percent) below the previous year’s total assets of $12.5 billion. The decrease of $159 million in
Commodity Inventories reflects a decrease in purchases and issuance of Price Support Certificates, primarily for
nonfat dry milk in fiscal year 2010. Producers, with a loan from CCC secured by pledged crop as collateral, may
purchase Price Support Certificates in the Adjusted World Price below the applicable loan rate. With market prices
and the Adjusted World Price for certain crops increasing, commodity certificate sales have decreased.

The increase in Fund Balance with Treasury is attributed to an increase in cash collections for Price Support loan
repayments between fiscal years 2009 and 2010.


   Assets                                                                              Dollars in Millions
   As of September 30                                                  2010     2009 Variance Variance %
   Fund Balance with Treasury                                      $ 1,797 $ 1,315 $     482         37%
   Cash and Other Monetary Assets                                         -       92     (92)      -100%
   Accounts Receivable, Loans and Credit Receivables, Net             9,834   10,726    (892)         -8%
   Commodity Inventories, Net                                            46      205    (159)       -78%
   General Property and Equipment, Net                                   57       44      13         30%
   Other                                                                 81       83      (2)         -2%
   Total Assets                                                    $ 11,815 $ 12,465 $ (650)          -5%


Liabilities: The Balance Sheet shows the Agency had total liabilities of $18.5 billion as of September 30, 2010.
This represents a decrease of $4 billion below the previous year’s total liabilities of $22.5 billion. The decrease in
Debt to the Treasury is primarily due to a decrease in notes payable on the loan principal and the accrual of interest
on U.S Treasury notes. CCC increased repayments to the Treasury and decreased its debts as a result.

CCC’s financial statements as of September 30, 2010 included a contingent liability of $100 million for Pigford II
claim litigation, a legal case for which a payment has been deemed probable. The decrease in Other Liabilities is
attributed to a downward adjustment from $1.25 billion as of September 30, 2009 to $100 million as of September
30, 2010, following a decision by the Department and the Office of General Counsel that $1.15 billion is a liability
of the Farm Service Agency.

Additionally, the Public Liability included $286 million in litigation related to Brazilian Cotton Industry World
Trade Organization.




                                                              13
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis


   Liabilities
   Dollars in Millions                                               2010     2009 Variance Variance %
   Accounts Payable                                              $    386 $    302 $     84        28%
   Debt to the Treasury                                             3,274    4,877   (1,603)      -33%
   Loan Guarantee Liabilities                                         184      221      (37)      -17%
   Environmental and Disposal Liabilities                               8        8        -         0%
   Other                                                           14,633   17,134   (2,501)      -15%
   Total Liabilities                                             $ 18,485 $ 22,542 $ (4,057)      -18%




    Assets and Liabilities




Ending Net Position: As of September 30, 2010 and September 30, 2009, the Agency’s net position was ($6.7
billion) and ($10.1 billion), respectively. Net Position is the sum of the Unexpended Appropriations, Cumulative
Results of Operations, and Capital Stock.


    Unexpended Appropriations and Cumulative Results of Operations

        Unexpended Appropriations                             Cumulative Results of Operations




                                                            14
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

Results of Operations: The Commodity Credit Corporation categorizes the net cost of operations based on the
Agency’s strategic goals. Net cost of operations was $11.1 billion and $14.2 billion for the fiscal years ended
September 30, 2010 and September 30, 2009, respectively. Overall total net cost of operations decreased 22 percent
from the prior year. As shown in the table below, Supporting Productive Farms and Ranches expenses comprise a
majority of the costs for the fiscal years ended September 30, 2010 and September 30, 2009. The activity that caused
the fluctuation in the Statement of Net Cost for the fiscal year ended September 30, 2010 relates to the following
strategic goals:


       •   Supporting Productive Farms and Ranches – For the fiscal year ended September 30, 2010 there were
           three contributing factors to the decrease from the prior year. First, the decrease in the Price Support
           Commodity Certificate program gross costs and earned revenues was caused by market prices and the
           Adjusted World Price for certain crops being higher than the National Average Loan rate. Also the
           recording of an anticipated court-ordered payment, a $1.15 billion contingent liability on CCC’s books in
           2009, was reversed and reassigned to another USDA agency in FY 2010. In addition, there was an
           increase in milk prices in FY 2010 which led to a decrease in gross cost for the Milk Income Loss
           program.

       •   Supporting Secure and Affordable Food and Fiber – The increase in net cost is due primarily to
            increase in costs associated with U.S. Agency for International Development.


       •   Conserving Natural Resources and Enhancing the Environment – The increase in net cost is
            primarily due to the initiation of disbursement activities of the new Biomass Crop Assistance Program
            (BCA).


       •   Supporting International Economic and Trade Capacity – The increase in net cost is primarily due to
            two contributing factors. First there was an increase in cost for P.L. 480 Direct Loans and secondly, the
            recording of unfunded liability for Brazilian Cotton Industry.




   Summary of Net Cost of Operations by Strategic Goals                                  Dollars in Millions
   For the Fiscal Years Ended                                           2010     2009 Variance Variance %
   Supporting Productive Farms and Ranches                        $    5,982 $ 10,335 $ (4,353)       -42%
   Supporting Secure and Affordable Food and Fiber                       243      156       87         56%
   Conserving Natural Resources and Enhancing the                      2,425    2,222      203           9%
    Environment
   Supporting International Economic Development and                   2,401        1,444         957          66%
    Trade Capacity Building
   Total Obligations                                              $   11,051    $ 14,157    $ (3,106)         -22%




                                                              15
                                                                COMMODITY CREDIT CORPORATION
                                                                   Management Discussion and Analysis


                      Supporting Productive Farms and Ranches

                                  40,000

                                  35,000

                                  30,000
Dollars in Millions




                                  25,000                                                                                     $22,716

                                  20,000
                                                                                                          $12,905
                                  15,000                           $12,682
                                  10,000                                      $2,347   $8,351                       $4,393
                                                $6,141                                                                                  $4,291
                                                                                                 $1,140
                                   5,000                  $159
                                         0
                                                     2010              2009                   2008            2007               2006
                                                                                         Fiscal Year
                      Gro s s Cos t             Earned Revenue




                      Supporting Secure and Affordable Food and Fiber

                                                 $279                                           $271
                                    300                                                $242

                                    200                             $171
                                                                                                                             $109
          Dollars in Millions




                                    100                   $36
                                                                              $15                                   $22                $34
                                       0
                                                         2010                2009               2008               2007             2006
                                   (100)
                                                                                                          ($110)
                                   (200)

                                   (300)

                                   (400)
                                                                                         Fiscal Year
                                Gro s s Cos t    Earned Revenue




                                                                                          16
                                                                   COMMODITY CREDIT CORPORATION
                                                                             Management Discussion and Analysis



Conserving Natural Resources and Enhancing the Environment
                                                   $2,426                                                                                  $2,366
                      2500
                                                                              $2,223                                 $2,158
                                                                                                   $2,125
                      2000
Dollars in Millions




                      1500


                      1000


                       500

                                                              $1                       $1                   $2                 $1                   $35
                                0
                                                        2010                     2009                 2008              2007                  2006
                                                                                                    Fiscal Year
                      Gro s s Co s t                          Earned Revenue




Supporting International Economic Development and Trade Capacity Building


                                                             $2,726

                                                2500
                                                                                                   $2,067
                                                2000
                        Dollars in Millions




                                                                                 $1,749                            $1,712

                                                1500

                                                                                                                                    $852
                                                1000
                                                                                                                                            $670
                                                                      $325                  $305            $416            $552
                                                 500


                                                    0
                                                                2010                   2009           2008            2007            2006
                                                                                                    Fiscal Year
                                              Gros s Cos t          Earned Revenue




                                                                                                      17
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis

Obligations and Outlays: Between FY 2010 and FY 2009, Obligations Incurred decreased by $1.9 billion. For
Direct Obligations, the difference was due to a subsidy payment to the Treasury.


   Summary of Obligations                                                               Dollars in Millions
   For the Periods Ended                                           2010        2009   Variance Variance %
   Obligations Incurred:
     Direct                                                   $  4,355    $  4,420    $    (65)        -1%
     Reimbursable                                               22,438      24,232      (1,794)        -7%
   Total Obligations                                          $ 26,793    $ 28,652    $ (1,859)        -6%


Between FY 2010 and FY 2009, Net Outlays decreased by $1.6 billion. In FY 2010, there was a disbursement of a
downward re-estimate from the Export Credit Guarantee Financing Fund, 12X4337, for General Sales Management
program subsidy and interest. A downward re-estimate indicates that an excess subsidy had been paid to the
financing account.


   Summary of Net Outlays                                                               Dollars in Millions
   For the Periods Ended                                           2010        2009   Variance Variance %
   Net Outlays:
     Gross Outlays                                            $ 24,996 $ 26,927 $ (1,931)             -7%
     Offsetting Collections                                     (13,115) (13,559)    444              -3%
     Less: Distributed Offsetting Receipts                         (576)    (473)   (103)             22%
   Net Outlays                                                $ 11,305 $ 12,895 $ (1,590)            -12%




    Budgetary Resources




                                                         18
                        COMMODITY CREDIT CORPORATION
                               Management Discussion and Analysis


   Management Controls, Systems, and Compliance with
               Laws and Regulations
FMFIA and FFMIA Assurance Statement




                                                  19
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                      20
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                      21
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


        Federal Managers’ Financial Integrity Act (FMFIA)
Overview
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal control and
financial management systems. These evaluations lead to an annual statement of assurance that:
    •    Obligations and costs comply with applicable laws and regulations;
    •    Federal assets are safeguarded against fraud, waste, and mismanagement;
    •    Transactions are accounted for and properly recorded; and
    •    Financial management systems conform to standards, principles, and other requirements to ensure that
         Federal managers have timely, relevant, and consistent financial information for decision-making purposes.


The Commodity Credit Corporation (CCC) annually evaluates its internal controls over financial reporting in
accordance with OMB Circular A-123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal
Control Over Financial Reporting” (A-123, Appendix A).


The CCC operates a comprehensive internal control program. This program ensures compliance with the
requirements of FMFIA and other laws and OMB Circulars A–123, Appendix A, and A–127, “Financial
Management Systems.” All FSA/CCC managers must ensure that their programs operate efficiently and effectively,
and comply with relevant laws. They must also ensure that financial management systems conform to applicable
laws, standards, principles, and related requirements. In conjunction with OIG and GAO, the Department’s
management works aggressively to determine the root causes of its material weaknesses so that it can direct
resources to focus on their remediation.


CCC remains committed to reducing and eliminating the risks associated with its deficiencies. It also strives to
efficiently and effectively operate its programs in compliance with FMFIA.


Fiscal Year 2010 Results
In compliance with the requirements of FMFIA, CCC evaluated, assessed, and tested its management controls for
program, financial, and administrative operations through the OMB Circular A-123, Appendix A, assessment for
FY 2010.




                                                             22
                                  COMMODITY CREDIT CORPORATION
                                            Management Discussion and Analysis


CCC has one existing material weakness. There is one system non-conformance related to Funds Control
Management. The following exhibit summarizes the result reported in CCC’s’ Financial Statements Audit Report.


  TOTAL MATERIAL                                1                                                                                1
  WEAKNESSES

  Conformance with Financial Management System Requirements (FMFIA § 4)
       Statement of Assurance                                                       Qualified
         Material Weakness                 Beginning          New        Resolved     Consolidated        Reassessed          Ending




  Funds Control Management                      1                                                                                1
  TOTAL NON-CONFORMANCE                         1                                                                                1




Summary of Outstanding System Non-Conformance
 System Non-               1. Funds Control Management                          Overall Estimated Completion Date               FY 2012
 Conformance
 Existing                  System improvements needed in recording obligations at the transactions level. (CCC)


 FY 2010 Accomplishments:                                                       FY 2011 Planned Actions:
 CCC:                                                                           CCC will:
 • Enhanced the usage of the electronic Fund Management System (eFMS)           • Incorporate transaction level obligations for the Conservation
    by incorporating transaction level obligations for the Tobacco Transition      Reserve Program (CRP) Annual Rental program as well as
    Payment Program, and Direct Payments, that check funds availability at         additional Farm Programs as they are implemented.
    the time of obligation.                                                     • Continue to incorporate WBSCM programs into eFMS as those
 • Implemented Web-based Supply Chain Management (WBSCM) to                        programs are moved from the Processed Commodities Inventory
    integrate obligation transactions for the Commodity Credit Corporation         Management System (PCIMS) to WBSCM.
    (CCC) Commodity Operations programs into eFMS for the programs              • Continue to develop the MIDAS program, and to make sure
    currently “live” or deployed in WBSCM.                                         financial requirements are clearly captured in the design of this
 • Completed planning phase and began software and acquisition phase of            system.
    the Modernize and Innovate the Delivery of Agriculture Systems (MIDAS)
    project.



CCC continues to report a material weakness for a system nonconformance based on the fact that the system cannot
record an obligation at the time a contract is executed by the county offices. The Funds Control Management
material weaknesses will be mitigated through the Financial Management Modernization Initiative (FMMI) which
continues to be on track and fully implemented by FY 2012.




                                                                        23
                               COMMODITY CREDIT CORPORATION
                                         Management Discussion and Analysis



         Federal Financial Management Improvement Act
                            (FFMIA)
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making, and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable, consistent
disclosure of financial data in accordance with generally accepted accounting principles and standards. These
systems must also comply substantially with: 1) Federal Financial Management System requirements; 2) applicable
Federal accounting standards; and 3) the United States Standard General Ledger (USSGL) at the transaction level.
Additionally, the Federal Information Security Management Act (FISMA) requires that there be no significant
weaknesses in information security policies, procedures or practices to be substantially compliant with FFMIA. The
following exhibit contains the outstanding initiatives to achieve compliance.

Exhibit 1: Initiatives To Be Completed

                                   Outstanding Initiatives to Achieve FFMIA Compliance
                                                                   Section of                     Target Completion
                        Initiative                              Non-compliance         Agency            Date
 Funds Control Management                               Federal Financial              CCC           12/30/2012
                                                        Management System
                                                        requirements.



Federal Financial Management System Requirements
CCC continues to develop a fully integrated funds control system, the electronic Funds Management System
(eFMS), within the FSA Core financial management system. This work includes integration with CCC’s general
ledger system at the transaction level. eFMS will also provide management with timely information to monitor and
control the status of budgetary resources recorded in the general ledger.


FY 2010 accomplishments included:
    •    Enhanced the usage of eFMS by incorporating transaction level obligations for the Tobacco Transition
         Payment Program, and Direct Payments, that check funds availability at the time of obligation.
    •    Implemented Web-based Supply Chain Management (WBSCM) to integrate obligation transactions for
         CCC Commodity Operations programs into eFMS for the programs currently “live” or deployed in
         WSCM; and
    •    Completed Planning phase and begin Software and Acquisition phase of MIDAS.




                                                              24
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


In FY 2011, CCC will:
    •   Incorporate transaction level obligations for the Conservation Reserve Program (CRP) Annual Rental
        Program as well as additional Farm Programs as they are implemented;
    •   Continue to incorporate WBCSM programs into eFMS as those program are moved from the Processed
        Commodities Inventory Management System (PCIMS) to WBSCM; and
    •   Continue to develop the MIDAS Program, and to make sure financial requirements are clearly captured in
        the design of this system.


 In FY 2012, CCC will:
    •   Complete software modifications to web-based program applications to send obligation transactions for
        CCC Farm Programs.
    •   Implement Financial Management Modernization Initiative (FMMI) for FSA program activity.
    •   Complete Initial Operating Capability for FSA's Modernize and Innovate the Delivery of Agricultural
        Systems (MIDAS).




                              Anti-deficiency Act (ADA)
FSA/CCC management has identified violations of the Anti-deficiency Act regarding the Biomass Crop Assistance
Program that must be reported to the Congress and the President.




                                                          25
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis




                   Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of the
entity pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books
and records of the entity in accordance with Generally Accepted Accounting Principles (GAAP) for Federal entities
and the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements should be read
with the realization that they are for a component of the U.S. Government, a sovereign entity.




                                                              26
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                      27
      COMMODITY CREDIT CORPORATION
         Management Discussion and Analysis




Part II: Performance Section
(Unaudited)




                                              Program Area

                                              Conservation




                            28
   Part II: Performance Section
   (Unaudited)
                  U.S. Department of Agriculture Strategic Goals
                                                     Ensure our national          Help America
Assist rural communities to create prosperity so      forests and private     promote agricultural
  they are self-sustaining, repopulating, and         working lands are          production and
              economically thriving                  conserved, restored,    biotechnology exports
                                                        and made more         as America works to
                                                      resilient to climate   increase food security



CCC Strategic Goal          CCC Strategic Goal        CCC Strategic Goal      CCC Strategic Goal

    Supporting                    Supporting         Conserving Natural           Supporting
    Productive                    Secure and           Resources and             International
    Farms and                     Affordable           Enhancing the               Economic
     Ranches                    Food and Fiber         Environment             Development and
                                                                                Trade Capacity
                                                                                   Building

                 Program Area                                                   Program Area

   Income Support and Disaster Assistance                                     Market Expansion
                                                          Program Area        and Trade Building

                                                          Conservation
                 Program Area
                                                                                Program Area
     Commodity Operations and Food Aid
                                                                                Export Credit




    Foreign
  Agricultural                                     Farm Service Agency
    Service


                             Commodity Credit Corporation


                                                     29
                              COMMODITY CREDIT CORPORATION
                                                Performance Section


                                      Performance Section
Given that most of CCC services are carried out by the employees of USDA agencies, the mission of CCC aligns
towards the strategic goals of the Department as well as to the strategic goals of the Farm Service Agency (FSA) and
the Foreign Agricultural Service (FAS). Each of these strategic goals, in turn, has objectives that support the results
that the Agencies want to achieve. The performance measures allow CCC to tangibly measure how well it is
achieving these objectives without creating a duplicate reporting burden. The table above summarizes the
relationship between the USDA’s strategic goal and the Agency’s strategic goal, CCC program area. The table also
displays which USDA agency administers the strategic goal.




                                                              30
                              COMMODITY CREDIT CORPORATION
                                               Performance Section




     Income Support and Disaster Assistance Program Area
                                       M ISS IO N          E L E M ENT
                           Stabilizing, supporting, and protecting farm income and prices.



Program Overview
CCC is the financial instrument for millions of income support and disaster assistance payments each year to
agricultural commodity producers. These payments stabilize, support, and protect farm income and prices. CCC
payment volume for these programs is driven by commodity market prices, payment eligibility rules established in
public policy, and natural or human-caused disasters. CCC payments are best explained in the context of a
commodity crop year. A crop year is the year in which a crop is harvested. This creates some unique challenges for
discussing payment trends and performance because a crop year can overlap one fiscal year to the next and not
directly correspond to one year’s financial statement.


The Direct Crop and Counter-Cyclical Program (DCP) is a key program in the Agency's effort to mitigate market
losses. The Food, Conservation, and Energy Act of 2008, (Public Law 110-234), enacted into law on May 22, 2008,
authorized DCP for FY 2008 through FY 2012. FSA/CCC provides direct payments (cash) to eligible crop
producers. The intent is to allow planting flexibility while providing a safety net for producers. For crop years 2008
through 2012, eligible crop producers will receive counter-cyclical (CC) payments if the effective price for the
covered commodity is less than the target price for the covered commodity. CC payments vary as market prices
change.


The FSA/CCC electronic Direct and Counter-cyclical Payment Program (eDCP) service allows agricultural
producers to enroll in DCP online. Producers can choose DCP payment options, assign crop shares, and sign, view,
print, and submit their DCP contracts from any computer with internet access at any time. This service is available
to all eligible producers for the 2008-2012 DCP program years and helps the Agency maintain participation rates for
this program. While producers still have the option to sign up for the program in person at their local USDA Service
Center, offering sign-up options through the Internet helps the Agency meet its performance objectives, in
accordance with the USDA mandate to expand E-Gov options for program participants.


The optional Average Crop Revenue Election Program (ACRE), added under the 2008 Act, is an alternative
revenue-based safety net to the price-based safety net provided by counter-cyclical payments. For crop years 2009
through 2012, farms with covered commodity or peanut base acres may participate in ACRE. Under ACRE,
producers may receive revenue-based payments as an alternative to receiving price-based CC payments. ACRE
provides producers an option to protect against declines in market revenue. ACRE involves State and farm revenue



                                                             31
                                COMMODITY CREDIT CORPORATION
                                                    Performance Section

changes from guarantee revenue levels that are based on national prices, State planted yields, and farm planted
yields. A decision to elect ACRE may be made in any of the crop years 2009-2012; however, the ACRE election is
irrevocable and cannot be changed from the time of election through the 2012 crop year. Producers on farms that
have elected ACRE must decide annually whether to enroll in ACRE. Failing to re-enroll the farm will render the
farm ineligible for program year farm program benefits even though the election is effective. Producers may elect
the ACRE alternative on a farm-by-farm basis. Producers who elect and enroll a farm in ACRE agree to: (1) forgo
CC payments, (2) a 20 percent reduction in their direct payments, and (3) a 30 percent reduction in the marketing
assistance loan rates for all commodities produced on the farm.


ACRE payments are tied to current plantings on the farm as opposed to CC payments, which are tied to the farm’s
base acres. ACRE payments are issued when two conditions are met for a commodity. The first condition is met
when the actual state revenue falls below the state ACRE guarantee. The second condition is met when the actual
farm revenue falls below the farm ACRE guarantee. Producers on participating ACRE Program farms can receive
both direct and ACRE payments, but the direct payment will undergo a 20 percent reduction. Land used for non-
agricultural purposes or land enrolled in the Conservation Reserve Program, Grassland Reserve Program and the
Wetlands Reserve Program is not eligible for ACRE, CC, or direct payments.


Direct payments are limited to $40,000 per person or entity minus the amount that direct payments are reduced
under ACRE. Total CC and ACRE payments are limited to $65,000 plus the amount that direct payments are
reduced. The limitation is attributed to entities and individuals, including indirect amounts received through entities.
Persons or legal entities whose average nonfarm Adjusted Gross Income (AGI) exceeds $500,000 are not eligible for
direct, CC or ACRE payments. Also, persons or legal entities whose average farm AGI exceeds $750,000 are not
eligible for direct payments under the DCP and ACRE Programs.


Analysis of Results
CCC helps farmers manage market risk primarily through income support and disaster assistance programs. These
programs help farmers and ranchers to address major fluctuations in market conditions and unexpected natural or
man-made disasters. These programs provide a safety net to farmers and ranchers and supports productive farms
and ranches, thriving agricultural communities, market-based agriculture and secure and affordable food and fiber.


                                                                                       Fiscal Year 2010
             Annual Performance Goals and Indicators                     2010 Target   2010 Estimate       Result

         Maintain the percent of eligible base acres participating in
         Direct and Counter-cyclical Payment Program (DCP) and
         Average Crop Revenue Election (ACRE) program                      95.00%         96.22%          Exceeded
         Threshold range: +-0.5 percent
         Rationale for Met Range: Management determination.




                                                                    32
                              COMMODITY CREDIT CORPORATION
                                                 Performance Section

CCC exceeded its performance target for 2010 to maintain the percent of eligible base acres participating in the DCP
and ACRE programs. Maintaining a high participation rate in the DCP and ACRE programs is important because
the associated program payments provide incentives for good land stewardship, crop and acreage reporting, and
maintaining green space. In order to participate in DCP and ACRE, producers must be willing to comply with the
following requirements: 1) share in the risk of producing a crop on base acres on a farm enrolled in DCP, and be
entitled to share in the crop available for marketing from the base acres or would have shared had a crop been
produced; 2) annually report the use of the farm's cropland acreage; 3) comply with conservation and wetland
protection requirements on all of their land; 4) comply with planting flexibility requirements; 5) use the base acres
for agricultural or related activities; and 6) protect all base acres from erosion, including providing sufficient cover
as determined necessary by the county FSA committee, and controlling weeds.


Other CCC Income Support and Disaster Assistance accomplishments during the year include:


         The Non-Insured Crop Disaster Assistance Program (NAP) provided a risk management tool for producers
         of non-insurable crops that are unable to obtain crop insurance through an insurance product. NAP
         enrollment was up, in part, because of the recent passage of the 2008 Act which requires participation in
         NAP and/or purchase of crop insurance in order to gain eligibility for other disaster programs authorized
         under the 2008 Act. NAP benefits paid have increased from $52.4 million in FY 2009 to $82.2 million to
         date in FY 2010.


         Over 22,800 Farm Storage Facility Loans (FSFLs) were disbursed from FY 2000 through 2010. The Food,
         Conservation and Energy Act of 2008 added hay and renewable biomass as eligible commodities. In
         August 2009, through the discretionary authority given the Secretary of Agriculture, cold storage facilities
         for fruits and vegetables were also added to the program. The FSFL Program has provided financing for
         on-farm storage for over 683 million bushels of eligible FSFL commodities since FY 2000. FSFL
         applications have increased from 1,717 in FY 2005 to 3,290 in FY 2009, an increase of 1,573. As of early
         August, FY 2010, 3,363 FSFLs have been approved and obligated totaling over $265 million.


         The Marketing Assistance Loan Program (MAL) disburses non-resource commodity loans during a crop
         year. Likewise, the Loan Deficiency Payment (LDP) program issues approximately 99 percent of crop year
         LDP benefits electronically. In crop year 2009, 33,833 LDPs were disbursed for a total of $124.5 million
         and 74,653 MALs were disbursed for a total of $6.8 billion. To date in crop year 2010, approximately
         8,307 LDPs have been disbursed totaling $14.8 million and 1,138 MALs have been disbursed totaling
         $50.2 million.


         The Milk Income Loss Contract Program (MILC) application and payment processing software was
         released nationwide to State and County Offices February 2, 2009. Approximately 97 percent of MILC


                                                                33
                                 COMMODITY CREDIT CORPORATION
                                                      Performance Section

         payments issued to eligible milk producers were in the form of electronic payments during FY 2009. FSA
         expects to again meet this 97 percent mark for FY 2010. As of August 17, 2010, approximately $831
         million has been disbursed for FY 2009 and $106 million has been issued for FY 2010 MILC payments
         using this software.


         The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided $50 million for
         Aquaculture Grant Program (AGP) to provide assistance to eligible aquaculture producers that suffered
         financial losses associated with high feed input costs during the 2008 calendar year. In FY 2009, the
         Commodity Credit Corporation (CCC) provided $47 million in grant funding to 37 participating States.
         However in FY 2010 to date, CCC has collected AGP refunds from States totaling $8.7 million and
         provided approximately $1 million in additional grant funding to States. It is anticipated that in FY 2010,
         approximately $3.1 million of additional AGP grant funding will be allocated to States that did not receive
         enough grant funding in FY 2009 to cover all eligible aquaculture feed losses in the State.


Program Area Performance Summary (includes Planned Actions)
CCC hopes to expand protection opportunities for producers through the ACRE program through which producers
may receive revenue-based payments as an alternative to price-based Counter-Cyclical payments.


             Performance Measure                          2006       2007        2008          2009           2010
                                                         Actual     Actual      Actual        Actual        Estimate



       Maintain the percent of eligible base acres
       participating in Direct and Counter-cyclical     97.34%     96.91%      96.31%         95.99%        96.22%
       Payment Program (DCP) and Average
       Crop Revenue Election (ACRE) program




Participation in the DCP and ACRE programs has been declining gradually. Producer participation is voluntary and
there are a variety of reasons as to why producers might choose to not participate in the programs. For example, the
base acreage may have been packaged and sold as a small parcel to a non-producer and, as a result of the small
parcel size, the associated direct and counter-cyclical payments may not be large enough to entice the landowner to
enroll in the programs. Due to relatively high prices and strong market conditions for most of the eligible loan
commodities, lower than average producer participation is expected for the MAL and LDP programs. It is
anticipated that MILC payments during FY 2011 will be $27 million and $20 million during FY 2012. The Farm
Storage Facility Loans (FSFLs), which have been increasing in number each of the last four years, are expected to
continue increase its participation.




                                                                  34
                              COMMODITY CREDIT CORPORATION
                                                Performance Section

                               Conservation Program Area
                                        M ISS IO N         E L E M ENT
         Conservation of soil, air, and water resources and protection and improvement of wildlife habitats


Program Overview
The focus of the USDA conservation programs administered by FSA is to use environmentally sound management
for agricultural lands to promote the conservation of natural resources and enhance the environment. The
Conservation Reserve Program (CRP) is the nation’s largest private-lands conservation financial assistance program
with a cumulative total of over 31.3 million enrolled acres. The CRP is a voluntary program available to agricultural
producers to help them safeguard environmentally sensitive land. CRP also contributes to increased wildlife
populations and has added more than two million ducks to the North Prairie Region annually, recovered sage and
sharp-tailed grouse populations in eastern Washington State, increased ring-necked pheasant populations, and
increased grassland bird populations. Producers enrolled in CRP plant long-term, resource-conserving covers to
improve the quality of water, control soil erosion and enhance wildlife habitat. In return, FSA provides participants
with rental payments and cost-share assistance. Contract duration is between ten and fifteen years. The long-term
goal for the FSA conservation programs is to protect and enhance the Nation’s natural resources and environment to
meet the needs of current and future generations.


Analysis of Results
The Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) limited the maximum CRP enrollment to 32
million acres beginning in FY 2010. FSA has either met or exceeded its targets established for FY 2010 and has
made substantial progress in protecting watershed health and enhancing soil quality. Enrolled acres annually reduce
soil erosion by more than 450 million tons, reduce nitrogen, phosphorus, and sediment leaving the field by over 85
percent, and sequester over 44 million metric tons of carbon dioxide.


                                                                                      Fiscal Year 2010
               Annual Performance Goals and Indicators                  2010 Target   2010 Actual         Result


 Increase Conservation Reserve Program (CRP) acres of
 riparian and grass buffers (cumulative and in million acres).
 Thresholds range: +-.5                                                    1.99           2.02             Met
 Rationale for Met Range: Management determination.


 CRP: restored wetland acreage (million acres)
 Thresholds range: +-.5
                                                                           1.99           2.05           Exceeded
 Rationale for Met Range: Management determination.




                                                             35
                             COMMODITY CREDIT CORPORATION
                                               Performance Section

During FY 2010, FSA has met its enrollment target for CRP acres of riparian and grass buffers. Riparian and grass
buffers intercept sediment and nutrients before they reach surface waters. To measure performance in achieving its
strategy, FSA monitors acreage of agricultural lands to be enrolled as buffer zones in CRP. CRP met its
performance target of 1.99 million acres for the measure. For FY 2010, producers have set aside approximately 2.02
million acres as CRP buffer areas.


Restored wetlands in CRP reached more than 2.5 million acres, exceeding the target by .06 million acres. These
restored wetlands are the result of several initiatives, including the 250,000-acre Bottomland Hardwood Timber
Initiative, a 250,000-acre Non-floodplain Wetland Restoration Initiative, and a 150,000-acre Prairie Pothole Duck
Nesting Habitat Initiative. The major increase is due to the announcement of increased incentives for certain
wetland practices and expansion of the Prairie Pothole Duck Nesting Habitat Initiative.


Program Area Performance Summary (includes Planned Actions)
Wetlands and buffers have increased prime wildlife habitat and water storage capacity and have led to a net increase
in wetland acres on agriculture land. The CRP continues to be acknowledged for its environmental benefits
generated by long-term conservation contracts protecting air, soil, water, and wildlife resources. The chart below
illustrates the long term program performance of the CRP.


                  Performance Measure                         2006       2007        2008       2009          2010
                                                             Actual     Actual      Actual     Actual       Estimate



Increase Conservation Reserve Program (CRP) acres of
                                                              1.86       1.92        2.0        2.03         2.02
riparian and grass buffers (cumulative and in million
acres.)
Threshold: +-.5


CRP: restored wetland acreage (million acres)
                                                              2.03       2.08       1.98        2.04         2.05
Threshold: +-.5

*Starting in FY 2010, the enrollment authority for CRP decreased to 32 million acres. The targets for 2010 were
reduced accordingly.

FY 2010 and FY 2011 enrollments are expected to be between 31 and 32 million acres. Sustained higher crop prices
make the use of land for production more valuable, so rental rates for land in the Conservation Reserve Program
(CRP) rise. CRP is expected to be fully enrolled at the statutory cap of 32 million acres from 2011 through 2019.
Therefore, CRP payments are expected to rise only moderately from about $1.8 billion in 2010 to $2.3 billion in
2019. While creating a challenging situation, FSA remains strongly committed to attaining its conservation and
global change objectives. Special focus will be placed on targeting and monitoring acreage impacts in the
President’s High Priority Performance Goals priority areas. In order to advance this area, FSA will be seeking new
wetland contracts for more than 50,000 acres in both FY 2011 and FY 2012, seeking contracts covering 40,000 acres



                                                             36
                              COMMODITY CREDIT CORPORATION
                                                Performance Section

to fulfill riparian buffers and grass filter goals, and continuing several initiatives, including the 350,000-acre upland
bird buffer, the 150,000-acre Duck Nesting Habitat Initiative, and the State Areas for Wildlife Enhancement (SAFE)
initiative, a 650,000-acre initiative, announced in FY 2007, to improve habitat for endangered, threatened, or high-
priority fish and wildlife species. The Department also will continue the 250,000 acre initiative to restore longleaf
pine. In the early 1700s, over 90 million acres of longleaf pine ecosystem existed. Today, fewer than four million
acres exist.




                                                               37
                              COMMODITY CREDIT CORPORATION
                                                Performance Section

       Commodity Operations and Food Aid Program Area
                                        M ISS IO N          E L E M ENT
  Maintaining balanced and adequate supplies of agricultural commodities and aiding in their orderly distribution


Program Overview
Commodity Operations manages the acquisition, handling, storage, transportation, and disposition of agricultural
commodities in order to carry out Commodity Credit Corporation (CCC) program commitments and to administer
the United States Warehouse Act (USWA). These programs help achieve domestic farm program price support
objectives, ensure the timely provision of various commodities for domestic and international food assistance, and
administer a uniform regulatory system for storing agricultural products. Warehouse operators issue negotiable
warehouse receipts to producers under the provisions of the USWA. Producers who use the stored commodity as
collateral for a Marketing Assistance Loan (MAL) may deliver the warehouse receipts to FSA as security for a nine-
month MAL. FSA also works with its Dairy Product Price Support Program (DPPSP) partners to provide adequate,
secure storage capacity to maintain quality and improve the purchase and delivery of food aid. Food assistance
purchases support domestic programs such as the National School Lunch Program and The Emergency Food
Assistance Program, as well as international food aid through the U.S. Agency for International Development and
the United Nations' World Food Program.


Analysis of Results
The FSA/CCC performance measure “Reduce the average number of days between warehouse examinations,” is on
track to achieve its target to reduce the average time between warehouse examinations. The FY 2010 target is 400
days between examinations. In FY 2010, the examinations were performed more frequently, an average of 345 days
between examinations. The more frequently warehouses are examined for compliance by FSA warehouse
examiners, the sooner any potential compliance issues, pest infestation, or deterioration of quality for commodities
in store will be discovered. From FY 2009 through FY 2010, changes to regulatory oversight and examination
requirements have been implemented. For example, beginning in April, 2009, State licensed warehouses were not
required to submit to examinations under the Uniform Grain and Rice Storage Agreement (UGRSA) for CCC
interest commodities. This change freed staff to concentrate on USWA licensed warehouse examinations, Cotton
Storage Agreement (CSA) examinations, and UGRSA examinations in States without licensing or storage
regulations. This led to a reduction in time between examinations in FY 2009 and FY 2010. The policy change has
shifted the role of CCC to that of a depositor or lien holder with no special rights or authority. Another factor that
has impacted the days between examinations is the reduction in inventories held by CCC due to limited loan
forfeitures and liquidation of the Bill Emerson Humanitarian Trust and the minimal time that stocks are maintained
in CCC inventory.




                                                               38
                              COMMODITY CREDIT CORPORATION
                                                Performance Section

As staffing has decreased, management has implemented procedures to conduct warehouse examinations at multiple
locations in a non-traditional manner designed to cut travel expenses while maintaining the integrity of the
examination. This process and continued use of electronic documents has helped the efficiency of the program.


                                                                                    Fiscal Year 2010
               Annual Performance Goals and Indicators                2010 Target     2010 Estimate        Result

 Reduce average time between warehouse examinations (in
 days)                                                                    400                             Exceeded
                                                                                          345*
 Threshold range: >102 percent                                                                             Target
 Rationale for Met Range: Management determination.



*Projection as of August 18, 2010


The CCC FY 2010 performance target of 400 days between warehouse examinations was surpassed with the annual
projection of only 345 days. In FY 2009 and 2010, examinations in State licensed UGRSA warehouses were
discontinued for the most part due to policy changes regarding oversight over CCC interest commodities.
Examination staff was able to shift priorities to USWA warehouse examinations, CSA examinations, and UGRSA
examinations in states without licensing or storage regulations. Factors affecting the time between examinations of
these warehouses include: 1) funding for the examination program; 2) CCC policy and regulations regarding storage
and oversight; 3) the length of time CCC-owned commodities are in storage; and 4) staffing and staff losses during
FY 2010. Retirements have reduced staff even as the numbers of USWA licensed warehouses have increased.
Examination division staffing has declined from 91 in January of 2006 to 68 in July of 2010. There are only 43
warehouse examiners currently in the field throughout the United States. These warehouse examiners are based in
strategic locations to perform timely examinations. The reduction in staff is anticipated to increase the time between
examinations. Examiners have to travel farther to conduct examinations. Some examinations that require teams
pose logistic problems because of the additional travel required to bring the teams together. Until additional staff
can be hired, management anticipates increased days between examinations in the next fiscal year.




                                                              39
                            COMMODITY CREDIT CORPORATION
                                             Performance Section

Program Area Performance Summary (includes Planned Actions)
For the past several years, the average number of days between examinations has been less than the target.
Commodity operations will continue to facilitate and encourage electronic commerce to reduce costs and delays
associated with marketing and delivering commodities. It will implement and encourage increased efficiencies
through non-traditional examination processes.



                      Performance Measure                   2006     2007     2008     2009       2010
                                                           Actual   Actual   Actual   Actual    Estimate


        Reduce average time between warehouse
        examinations (in days)

        Threshold range: >102 percent                       384      381      387      363        345*
        Rationale for Met Range: Management
        determination.


*Projection as of August 18, 2010

CCC will continue to provide food assistance purchases support to domestic and international programs. While
there is currently no CCC inventory of dairy products, Commodity Operations is currently projecting FY 2012
DPPSP purchases of 15 million pounds of non-fat dry milk, one million pounds of cheese, and .5 million pounds of
butter. Commodity Operations will continue its efforts to reduce the number of days between examinations as the
performance measure for the program. However, Commodity Operations anticipates an increase in the days
between examinations until hiring is authorized to fill vacancies caused by retirements within the organization.




                                                           40
                                    COMMODITY CREDIT CORPORATION
                                                         Performance Section



   Marketing Expansion and Trade Building Program Area
                                                M ISS IO N              E L E M ENT
           Developing new domestic and foreign markets and marketing facilities for agricultural commodities.



The Foreign Agriculture Service (FAS) promotes market expansion and trade building through cooperative
agreements between CCC and nonprofit agricultural trade commodity groups and through grant agreements with
private voluntary organizations, foreign governments, and the World Food Program. USDA uses funds or
commodities from CCC to encourage development, maintenance, and expansion of commercial export markets for
agricultural commodities.


Program Area Performance Summary
                                                                            Key Performance
                      Key Performance Measures                                 Measures               2010   2009   2008   2007   2006
                              In Millions ($)
                                                                        Application Response
                                                                        Time—Food Aid (in days)
                                                                                                      N/A    85     132    90     N/A
    800                                                                 ** Estimate; Final data not
                                                                        yet available
    600

    400                                                                                     Key Performance Measures
                                                                                                    (In Days)
    200

       0
             2010**     2009**      2008*       2007*    2006*
                                 Fiscal Years
                      Actual Sales for Small Companies
    Key Performance
         Measures            2010       2009     2008   2007     2006
 Target Dollar value of
 actual sales for small
 companies (dollars in
 millions)                   **800     **750     700*   462*     460*
 * Target exceeded
 ** Estimate; Final data
 not yet available


Key performance measures for the Market Expansion and Trade Building program area are noted above, with targets
established for FY 2007.




                                                                         41
                               COMMODITY CREDIT CORPORATION
                                                   Performance Section

Program Overview and Performance
          Program                                USDA FOOD AID PROGRAMS
                                     Help America promote agricultural production and                    Market Expansion
        Strategic Goal            biotechnology exports as America works to increase food               and Trade Building
                                                               security                                    Program Area
         Lead Agency                            Foreign Agricultural Service(FAS)
The USDA food aid programs address non-emergency food needs of developing countries through donation and long-term
low interest loans for the purchase of U.S. agricultural commodities.
      Recommendations for
                                                               Status of Implementing Recommendations
     Performance Measures
Develop and implement a new            Action taken, but not completed. USDA has selected a firm to build the Food Aid
food aid database with user web-       Information System (FAIS).
interface - the Food Aid
Information System
Improve the timeliness of              Action taken. FAS sends delinquency letters to organizations that fail to report. The
notifying cooperating sponsors         letters are sent within 60-90 days of the infraction.
when they are late in submitting
required semi-annual reports on
logistics and monetization.
FAS has developed and continues The USDA food aid programs meet both development and nutrition needs and involve
to refine a new food security          direct distribution of food and monetization of commodities donated. The development
annual performance measure and         aspects of food aid involve the monetization (sale) of the food aid and the
baseline.                              implementation of long-term development projects that benefit the people of the
                                       recipient country. The Food Aid Targeting Effectiveness Ratio (FATER) examines the
                                       degree to which food aid contributes to reducing a country's food distribution gap. The
                                       food distribution gap is the amount of food needed to raise consumption of each income
                                       group to the minimum nutritional requirement. When the FATER is zero, then this
                                       suggests that food aid was given to a country or countries, in which all people were at or
                                       above the minimum nutritional requirement. When the FATER is 100, then it is
                                       estimated that food aid raised the consumption of all income groups in a recipient
                                       country or countries to the minimum nutritional requirement level or above. USDA is
                                       also developing frameworks for the food aid programs and will be incorporating results
                                       oriented management.
Financial management                   Completed. MARAD reimbursement process has improved significantly. Improvements
improvements in the areas of           in the reconciliation and reporting of unobligated balances have been made and will be
credit reform, budget reporting        strengthened through development of the Food Aid Information System.
and reimbursements are on-going.
FAS has contracted for a review        Completed. Improvements in the food aid information and reporting systems will be
of food aid information and            achieved through implementation of the Food Aid Information System. Development of
reporting systems that will            the database system began in FY 2006. The second phase of implementation began in
identify areas for improvement in      FY 2009.
IT systems that will lead to
program efficiencies down the
road. This review is on-going.




                                                                   42
                               COMMODITY CREDIT CORPORATION
                                                   Performance Section

                                                USDA FOREIGN MARKET
          Program
                                              DEVELOPMENT PROGRAMS
                                    Help America promote agricultural production and                    Market Expansion
        Strategic Goal           biotechnology exports as America works to increase food               and   Trade Building
                                                            security                                       Program Area
         Lead Agency                            Foreign Agricultural Service
The purpose of these programs is to expand markets for U.S. agricultural commodities. Government funds provided through
FAS are used to help producers, exporters, private companies, and other trade organizations promote U.S. agricultural
commodities overseas.
      Recommendations for
                                                            Status of Implementing Recommendations
      Performance Measures
Reallocate funding to target funds Completed. Review of the application review process has been completed and program
to those that would benefit the      allocation criteria ensure that funds are targeted to those non-profit industry groups with
most from the programs.              a demonstrated ability to make the most effective use of the funds. Enhancements to the
                                     program evaluation process were completed in May 2007.
Include performance measures in      Completed. Relevant performance measures have been included in FAS’ Office of
the Foreign Agricultural Service’s Trade Programs’ (OTP) final strategic plan.
strategic plan.
Work with cooperators to             Dropped, replaced with program-wide cost-benefit study results which were completed
systematically collect long-term     March 2010.
performance information for use
in the OTP strategic plan.
Complete enhancement of the          Completed. Assigned contractor completed the planned software enhancement/upgrade
Unified Export Strategy online       in time for the 2011 application program year.
system for the 2011 program year.




                                                                   43
                                 COMMODITY CREDIT CORPORATION
                                                        Performance Section



                                  Export Credit Program Area
                                           M ISS IO N                E L E M ENT
        Developing new domestic and foreign markets and marketing facilities for agricultural commodities.


CCC promotes exports of U.S. agricultural commodities through sales, payments, export credits, and other related
activities. Currently, CCC makes available export credit guarantees and export bonuses to promote exports. These
programs are administered by FAS and FSA on behalf of CCC.


Program Area Performance Summary

                                                    Key Performance Measures
                                                            In Billions ($)

                                10

                                 8

                                 6

                                 4

                                 2

                                 0
                                      2010 2009 2008 2007 2006
                                                  Fiscal Year

                                                 Trade Value from GSM


             Key Performance Measures                         2010            2009   2008   2007         2006


 Estimated trade value resulting from USDA GSM export
                                                              3.09*           5.32   3.11   1.45         1.36
 credit guarantee programs (dollars in billions)




* Estimate; Final data not yet available




                                                                       44
                              COMMODITY CREDIT CORPORATION
                                                Performance Section

Program Overview and Performance
                                            AGRICULTURAL EXPORT CREDIT
         Program
                                                 GUARANTEE PROGRAMS
                                     Help America promote agricultural production and             Market Expansion
       Strategic Goal             biotechnology exports as America works to increase food         and Trade Building
                                                           security                                 Program Area
        Lead Agency                               Foreign Agricultural Service
CCC’s Export Credit Guarantee Programs (ECGPs) encourage U.S. agricultural exports by underwriting credit to pay for food
and agricultural products sold to foreign buyers.
       Recommendations
                                                            Status of Implementing Recommendations
   for Performance Measures
Review and modify underlying           Action Taken But Not Completed. The initial phase of the study determined that
assumptions of defaults and            historical assumptions used to estimate recoveries and restructurings were
recoveries                             significantly understated, thereby overstating the program's overall "subsidy"
                                   cost. The revised assumptions on recovery and loan restructuring reduced the
                                   subsidy to 0.87 percent for FY 2009, -1.21 percent in FY 2010 and -0.86
                                   percent (estimated) in FY 2011, a significant reduction over previous years.
                                   The second phase of the project, which is near completion, would employ
                                   macroeconomic indices to better forecast country risk and claims and recoveries
                                   at the individual registration level, thus improving the ability to charge program
                                   fees appropriate to cover costs and losses.




                                                               45
Part III: Financial Section




               46
                                     COMMODITY CREDIT CORPORATION
                                                  Consolidated Financial Statements

                                               Commodity Credit Corporation
                                       CONSOLIDATED BALANCE SHEETS
                                             As of September 30, 2010 and 2009
                                                    (Dollars in Millions)

                                                                           2010                 2009
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 2)                             $               1,797    $           1,315
   Accounts Receivable, Net (Note 4)                                                 116                  129
   Other                                                                               1                    2
 Total Intragovernmental Assets                                    $               1,914    $           1,446
 Cash and Other Monetary Assets (Note 3)                                               -                   92
 Accounts Receivable, Net (Note 4)                                                 4,247                5,057
 Direct Loans and Loans Guarantees, Net:
   Commodity Loans, Net (Note 5)                                                     673                  414
   Credit Program Receivables, Net (Note 6)                                        4,798                5,126
 Subtotal                                                          $               5,471    $           5,540
 Commodity Inventories and Related Property, Net (Note 7)                             46                  205
 General Property and Equipment, Net (Note 8)                                         57                   44
 Other                                                                                80                   81
Total Assets                                                       $              11,815    $          12,465

  Stewardship Land (Note 1)

Liabilities:
  Intragovernmental:
    Debt to the Treasury (Note 10)                                 $               3,274    $           4,877
    Other:
       Resources Payable to Treasury(Note 12)                                      2,447                2,744
       Deposit and Trust Liabilities (Note 11)                                     1,356                  974
       Other (Note 12)                                                               203                  592
    Subtotal                                                       $               4,006    $           4,310
  Total Intragovernmental Liabilities                              $               7,280    $           9,187
  Accounts Payable                                                                   386                  302
  Loan Guarantee Liability (Note 6)                                                  184                  221
  Environmental and Disposal Liabilities (Note 13)                                     8                    8
  Other Liabilities:
    Accrued Liabilities (Note 14)                                                 10,227               11,560
    Deposit and Trust Liabilities (Note 11)                                            7                    7
    Other (Note 12)                                                                  393                1,257
  Subtotal                                                         $              10,627    $          12,824
Total Liabilities (Note 9)                                         $              18,485    $          22,542

Commitments and Contingencies (Note 15)

Net Position:
 Unexpended Appropriations                                         $               1,853    $            2,028
 Capital Stock                                                                       100                   100
 Cumulative Results of Operations                                                 (8,623)              (12,205)
Total Net Position                                                 $              (6,670)   $          (10,077)
Total Liabilities and Net Position                                 $              11,815    $           12,465

The accompanying notes are an integral part of these statements.




                                                                        47
                                     COMMODITY CREDIT CORPORATION
                                                  Consolidated Financial Statements


                                                      Commodity Credit Corporation
                               CONSOLIDATED STATEMENTS OF NET COST (NOTE 16)
                                        For the Fiscal Years Ended September 30, 2010 and 2009
                                                          (Dollars in Millions)

                                                                                      2010                   2009
Strategic Goals:

Supporting Productive Farms and Ranches:
    Gross Cost                                                                 $                 6,141   $          12,682
    Less: Earned Revenue                                                                           159               2,347
    Net Goal Cost                                                              $                 5,982   $          10,335

Supporting Secure and Affordable Food and Fiber:
    Gross Cost                                                                 $                  279    $            171
    Less: Earned Revenue                                                                           36                  15
    Net Goal Cost                                                              $                  243    $            156

Conserving Natural Resources and Enhancing the Environment:
    Gross Cost                                                                 $                 2,426   $           2,223
    Less: Earned Revenue                                                                             1                   1
    Net Goal Cost                                                              $                 2,425   $           2,222

Supporting International Economic Development and Trade Capacity Building:
    Gross Cost                                                             $                     2,726   $           1,749
    Less: Earned Revenue                                                                           325                 305
    Net Goal Cost                                                          $                     2,401   $           1,444

Total Gross Cost                                                              $              11,572      $          16,825
Less: Total Earned Revenue                                                                      521                  2,668
Net Cost of Operations                                                         $             11,051      $          14,157

The accompanying notes are an integral part of these statements.




                                                                        48
                                COMMODITY CREDIT CORPORATION
                                           Consolidated Financial Statements

                                           Commodity Credit Corporation
                CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                             For the Fiscal Years Ended September 30, 2010 and 2009
                                               (Dollars in Millions)

                                                                        2010                  2009

Capital Stock                                                  $                  100     $             100

Cumulative Results of Operations:
 Beginning Balance                                             $               (12,205)   $          (10,324)

Budgetary Financing Sources:
 Appropriations Used                                                           17,252                13,929
 Non-exchange Revenue                                                               3                     8
 Transfers in/out without Reimbursement, Net                                   (3,756)               (2,445)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement, Net                                      (232)                 (550)
 Imputed Financing                                                               1,378                 1,334
 Other                                                                             (12)                    -
Total Financing Sources                                        $                14,633    $           12,276
Net Cost of Operations                                                         (11,051)              (14,157)
Net Change                                                     $                 3,582    $           (1,881)
Cumulative Results of Operations                               $                (8,623)   $          (12,205)

Unexpended Appropriations:
 Beginning Balance                                             $                2,028     $           1,470

Budgetary Financing Sources:
 Appropriations Received                                                        17,077                14,494
 Other Adjustments                                                                   -                    (7)
 Appropriations Used                                                           (17,252)              (13,929)
Total Budgetary Financing Sources                              $                  (175)   $              558
Total Unexpended Appropriations                                $                 1,853    $            2,028

Net Position                                                   $                (6,670)   $          (10,077)

The accompanying notes are an integral part of these statements.




                                                                   49
                                         COMMODITY CREDIT CORPORATION
                                                     Consolidated Financial Statements


                                                          Commodity Credit Corporation
                                   COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                            For the Fiscal Years Ended September 30, 2010 and 2009
                                                              (Dollars in Millions)

                                                                                       2010                                      2009

                                                                                            Non-Budgetary                             Non-Budgetary
                                                                                            Credit Program                            Credit Program
                                                                         Budgetary        Financing Accounts       Budgetary        Financing Accounts
Budgetary Resources:
 Unobligated balance, brought forward, October 1:                    $         2,019      $            972     $         2,098      $         2,516
 Recoveries of prior year unpaid obligations                                   1,332                    34                 182                   10
 Budget authority:
   Appropriation                                                             18,014                     -              15,444                      -
   Borrowing authority (Note 17)                                             39,064                 1,199              28,870                    340
   Spending authority from offsetting collections:
      Earned:
       Collected                                                             11,295                    501             11,722                    553
       Change in receivables from Federal sources                                13                      -                (89)                     -
      Change in unfilled customer orders:
       Advance received                                                         382                     -                 154                      -
       Without advance from Federal sources                                       -                   (19)                  -                    (18)
      Expenditure transfers from trust funds                                    937                     -               1,130                      -
   Subtotal                                                          $       69,705       $         1,681      $       57,231       $            875
 Nonexpenditure transfers, net, actual                                       (3,617)                    -              (2,241)                     -
 Permanently not available                                                  (41,586)                 (348)            (27,445)                (1,583)
Total Budgetary Resources                                            $       27,853       $         2,339      $       29,825       $          1,818

Status of Budgetary Resources:
  Obligations incurred:
    Direct                                                           $        3,127       $         1,228      $        3,574       $            846
    Reimbursable                                                             22,438                     -              24,232                      -
  Subtotal                                                           $       25,565       $         1,228      $       27,806       $            846
  Unobligated balance:
    Apportioned                                                      $          305       $           861      $          330       $           363
    Exempt from apportionment                                                 1,188                     5                 841                     4
  Subtotal                                                           $        1,493       $           866      $        1,171       $           367
  Unobligated balance not available                                             795                   245                 848                   605
Total Status of Budgetary Resources                                  $       27,853       $         2,339      $       29,825       $         1,818

Change in Obligated Balance:
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                    $         9,542      $            159     $         7,967      $            201
   Less: Uncollected customer payments from Federal sources,
   brought forward, October 1                                                  (233)                  (177)              (322)                  (195)
 Total unpaid obligated balance, net                                 $        9,309       $            (18)    $        7,645       $              6
 Obligations incurred, net                                                   25,565                  1,228             27,806                    846
 Less: Gross outlays                                                        (23,881)                (1,115)           (26,049)                  (878)
 Less: Recoveries of prior year unpaid obligations, actual                   (1,332)                   (34)              (182)                   (10)
 Change in uncollected customer payments from Federal sources                   (13)                    19                 89                     18
 Total Change in Obligated Balance                                   $        9,648       $             80     $        9,309       $            (18)
 Obligated balance, net, end of period:
   Unpaid obligations                                                $         9,894      $            238     $         9,542      $            159
   Less: Uncollected customer payments from Federal sources                     (246)                 (158)               (233)                 (177)
Total, unpaid obligated balance, net, end of period                  $         9,648      $             80     $         9,309      $            (18)

Net Outlays:
 Gross outlays                                                       $       23,881       $         1,115      $       26,049       $            878
 Offsetting collections                                                     (12,614)                 (501)            (13,006)                  (553)
 Less: Distributed Offsetting receipts                                            -                  (576)                  -                   (473)
Total Net Outlays                                                    $       11,267       $            38      $       13,043       $           (148)

The accompanying notes are an integral part of these statements.




                                                                                50
Notes to the Financial
Statements




                 51
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 1 - Significant Accounting Policies
Reporting Entity
The Commodity Credit Corporation (CCC or the Corporation) is a Federal corporation operating within and through
the United States Department of Agriculture (USDA). It was established to stabilize, support, and protect farm
income and prices, assist in the maintenance of balanced and adequate supplies of agricultural commodities, and
facilitate the orderly distribution of those commodities.

CCC’s statutory authority for its operations is found in the CCC Charter Act, 15 U.S.C. 714, et seq. The
Corporation is managed by a Board of Directors subject to the general supervision and direction of the Secretary of
Agriculture who is an ex-officio director and chairperson of the Board. The members of the Board and the
Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds as well as an authority to borrow from the U.S. Treasury
(Treasury). The Treasury also holds capital stock in the amount of $100 million with no obligation to repay, on
which the Corporation pays interest. CCC receives direct appropriations for several of its foreign assistance
programs and special activities, such as disaster aid. Permanent indefinite borrowing authority exists for programs
subject to the Federal Credit Reform Act of 1990, as amended (Credit Reform). Receipts flowing through CCC's
related revolving fund include proceeds from the sale of CCC commodities, loan repayments, interest income, and
various program fees.

CCC has no employees or facilities. Its programs are administered through various agencies including USDA’s
Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). The accompanying financial statements include an allocation, as appropriate, of salaries and expenses
(e.g., facility costs) incurred by these agencies. In other instances, CCC reimburses the other agencies for their
administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of operations of CCC pursuant to the
requirements of 31 U.S.C. 3515 (b). These statements have been prepared from the accounting records of the
Agency as of September 30, 2010 and September 30, 2009 in accordance with generally accepted accounting
principles for Federal entities and policies prescribed in the Office of Management and Budget (OMB) Circular A-
136, Financial Reporting Requirements. OMB financial reporting guidelines require the presentation of
comparative financial statements for all principal financial statements. The statements are in addition to the external
financial reports used to monitor and control budgetary resources, which are also prepared from CCC’s general
ledger. These financial statements have been prepared for the Corporation which is a component of the U.S.
Government, a sovereign entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting
transactions. Under the accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred without regard to receipt or payment of cash. The budgetary accounting principles, on the other
hand, are designed to recognize the obligation of funds according to legal requirements, which in many cases is prior
to the occurrence of an accrual-based transaction. The recognition of budgetary accounting transactions is essential
for compliance with legal constraints and controls over the use of Federal funds. The financial statements include
all Treasury funds of CCC, which encompass its domestic and foreign activities. CCC consolidates all costs related
to its child activities for the allocated funds transfers and shared appropriations. In consolidation, intra-agency
activities and balances have been eliminated except for the Statement of Budgetary Resources (SBR), which is
presented on a combined basis as required by OMB guidance.




                                                              52
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
CCC modified its accounting practices for the Conservation Reserve Program (CRP) in FY 2010. The change of
practice was to record obligations of funds according to budgetary accounting principles and legal requirements.
CCC received funding from OMB in FY 2010 to allow the recordation of the CRP agreements as obligations in its
books and records. This will be reflected as a material variance on the SBR. Previously CRP recorded an unfunded
expense and payable to reflect the agreements which would be paid in the subsequent year.

Fund Balance with Treasury
CCC disbursements are made by checks or electronic funds transfers that are deducted from CCC’s account at
Treasury. Generally, receipts and disbursements for CCC are processed by the Federal Reserve Banking system.

Cash
Treasury requires that the Fund Balance with Treasury amounts reported via Federal Agencies' Centralized Trial
Balance System II (FACTS II) be in agreement with Treasury’s records. To comply with these requirements, cash
timing differences due to deposits in-transit or outstanding checks are reported as “in-transit”. The cash balance
consists of these timing differences as a result of varying processing times and cut-off dates between CCC, Treasury,
and other USDA entities.

CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities based on legal provisions, such as
payment due date or goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off information, and
other analysis which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities. In the case
of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b) for certain designated
commodities, repay the loan at the market rate; or (c) at maturity, forfeit the commodity in satisfaction of the loan.
These loans are not subject to the accounting and reporting requirements of Credit Reform (Note 6) because these
loans are less than 12 months in duration.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable balances.

Commodity loans are reported net of an allowance for doubtful accounts which reduces the loans to their estimated
net realizable value. The allowance is based on the estimated loss on ultimate disposition when it is more likely than
not that the loans will not be fully collected. When CCC disposes of forfeited commodities, depending on the type
of disposition, any loss on the disposition is realized as either a cost of sales or donation.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included the Fair and Equitable Tobacco Reform Act (the Law),
effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco producers or quota
holders. The quota holders are the landowners of the farm where a tobacco quota was assigned. Quota was the
quantity of tobacco required to meet the national domestic needs during the year. That national amount was
allocated among all the prior year quota holders to establish the quantity of tobacco that each individual quota holder
could market during the program year.




                                                               53
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
The Law required CCC to dispose of its outstanding tobacco loan portfolio and establish contracts with and make
payments to tobacco producers and quota holders to transition from the previous price support program to a free
market. This transition period encompasses ten years and began in fiscal year (FY) 2005. The Law authorized a
total maximum of $10.14 billion over the period to cover the realized losses of $292 million related to the
disposition of the tobacco loan collateral in FY 2005, making payments to producers and quota holders, and other
eligible expenses. CCC estimates that payments made over the 10-year period will be approximately $6.7 billion to
quota holders and $2.9 billion to tobacco producers. The total source of revenue or other financing for the program
is intended to be derived from assessments levied upon manufacturers and importers of tobacco products and
collected quarterly. Manufacturers and importers are expected to pass these costs on to consumers of tobacco
products through increased sales prices. All collections from the tobacco industry are deposited into the Tobacco
Trust Fund.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly collection
of assessments from the tobacco manufacturers and importers. Because of the difference in timing of the collections
and assessments, collections will not match disbursements on an annual basis. The Law allows CCC’s revolving
fund to make payments to the quota holders and producers and allows for reimbursement from the Tobacco Trust
Fund. The assessments collected from the tobacco industry are subsequently transferred to CCC’s revolving fund,
reimbursing that fund for the payments made to quota holders and producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections from the
manufacturers and importers over the 10-year period ending in 2014. In addition, CCC recognized an accrued
liability for the present value of the remaining pay-out amount to the quota holders and producers. Because the trust
fund collections from the tobacco manufacturers and importers are intended to fund the payments to quota holders
and producers, the present value of the public receivable and the liability were reported in equal amounts on the
balance sheet in FY 2005. As actual activity occurs each fiscal year, the receivable and accrued liability estimates
are adjusted to reflect the expected cash flows for the remaining period of the contracts, as well as the historical
collection and disbursement activity.

Credit Reform Accounting
Purposes of The Federal Credit Reform Act of 1990 (FCRA) include measuring more accurately the costs of Federal
credit programs and placing the cost of credit programs on a budgetary basis equivalent to other Federal spending.
The FCRA applies to direct loans and loan guarantees made on or after October 1, 1991.

Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts that require
the repayment of such funds within a certain time with or without interest. It includes the purchase of, or
participation in, a loan made by another lender and financing arrangements that defer payment for more than 90
days. Loan guarantees represent insurance that the payment of all or part of the principal or interest on any debt
obligation of a non-Federal borrower to a non-Federal lender will be received by the non-Federal lender. A
defaulted loan guarantee occurs if the borrower fails to make a payment pursuant to the terms of the obligation.

The cost of direct loans is accounted for on a net present value basis at the time when the direct loan is disbursed. It
includes the cash flows of loan disbursements; repayments of principal; payments of interest; recoveries or proceeds
of asset sales; and other payments by or to the Government over the life of the loan. The present value computation
also contains effects for estimated defaults, prepayments, fees, penalties, and any expected actions, such as the
exercise by the borrower of an option included in the loan contract.

The cost of loan guarantees is also accounted for on a net present value basis at the time when the guaranteed loan is
disbursed. The cost includes the estimated cash flows of payments by CCC to cover defaults and delinquencies,
interest subsidies, and other requirements, payments to CCC including origination and other fees, penalties, and
recoveries, including the effects of any expected actions by CCC and the exercise by the guaranteed lender or the
borrower of an option included in the loan guarantee contract.




                                                               54
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
In estimating net present values, the discount rate is the average interest rate on marketable Treasury securities of
similar maturity cash flows of the direct loan or loan guarantee for which the estimate is being made. When funds
are obligated for a direct loan or loan guarantee, the estimated cost is based on the current assumptions adjusted to
incorporate the terms of the loan contract.

The credit program account is the budget account into which an appropriation to cover the cost of a direct loan or
loan guarantee program is made and from which such cost is disbursed to the financing account. The financing
account is the non-budget account or accounts associated with each credit program account that holds balances,
receives the cost payment from the credit program account, and also includes all other cash flows to and from CCC
resulting from direct loan obligations or loan guarantee commitments made on or after October 1, 1991. The
liquidating account is the budget account that includes all cash flows to and from CCC resulting from direct loan
obligations or loan guarantee commitments made prior to October 1, 1991. These accounts are shown in the Federal
budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991, are credited
to the liquidating accounts. The amounts credited are available to the same extent that they were available to
liquidate obligations arising from such direct loans obligated or loan guarantees committed prior to October 1, 1991,
including repayment of any obligations held by the Department of Treasury. The unobligated cash balances of such
accounts that are in excess of current needs must be transferred at least annually to the general fund of the Treasury.

Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements (Refer to Note 6). Credit program
receivables consist of:

         direct credits extended under Public Law 83-480 (P.L. 480) programs;
         receivables in the Debt Reduction Fund;
         receivables for the General Sales Manager program in the form of reschedule agreements;
         loans made to grain producers to build or upgrade farm storage and handling facilities;
         loans made to apple producers who incurred losses due to low market prices; and
         a loan made to the Texas Boll Weevil Eradication Foundation.

These receivables (including related interest), for both pre- and post-Credit Reform, are recognized as assets at the
present value of their estimated net cash inflows. The difference between the outstanding principal of these
receivables and the present value of their net cash inflows is recognized as an allowance. CCC uses the Credit
Subsidy Calculator 2 (CSC2) for computing the subsidy re-estimates for its Credit Reform programs. The CSC2 is
an OMB tool for performing credit calculations, incorporating both financing account interest and dollar re-
estimates functionality. CCC also uses the Treasury Credit Reform Certificate Program guidelines, Statement of
Federal Financial Accounting Standards (SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees,
SFFAS No. 18, Amendments to Accounting for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting for Direct Loans and Loan Guarantees for the accounting and reporting of its loan
subsidy cost re-estimation and amortization.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of foreign credit
and other foreign receivables (capitalized interest). In such circumstances, CCC records an allowance to reduce the
receivable, including the capitalized interest, to the present value of future cash flows. Interest income is recognized
only when, in management's judgment, debtors have demonstrated the ability to repay the debt in the normal course
of business.




                                                               55
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the SFFAS No.
3, Accounting for Inventory and Related Property, issued by the Federal Accounting Standards Advisory Board,
represent commodities acquired by the Corporation for donation or price support purposes. They are eventually sold
or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after acquisition.
Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the purchase settlement
price. Since loan rates and income support levels are established by statute, inventory acquisitions are usually
recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the previous
month. In other cases, the cost is computed on the basis of actual (historical) cost of the commodity. Actual cost is
used with: (a) simultaneous acquisition and disposition for commodity export programs; and (b) dispositions of
commodities previously pledged as price support loan collateral, which are acquired and simultaneously disposed of
by CCC during the exchange of commodity certificates. Commodity certificates are issued electronically by CCC
and must be immediately exchanged for a commodity owned by the Corporation.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other Federal entities is classified as an
expense with the public since the commodities being sold are originally purchased or otherwise acquired from a
public source.

Commodity inventories are valued at net realizable value in accordance with SFFAS No. 3. Ending inventory
balances are examined at period end to determine each commodity’s market value. A valuation allowance is
recorded if the book value of a commodity exceeds its market value.

In FY 2008, CCC entered into an agreement with The Seam, a private company, to facilitate the exchange of CCC-
owned commodities for food products to be utilized in domestic and export food programs. CCC receives Barter
Delivery Obligations (BDOs) in exchange for CCC-owned commodities. The BDOs represent the net sales
proceeds (gross proceeds minus a sales commission percentage) from The Seam’s sale of the CCC-owned
commodities and; The Seam uses the BDOs to acquire food products on behalf of CCC.

For financial statement purposes, the BDOs are valued at the net sales proceeds and are presented as part of CCC’s
Commodity Inventories and Related Property. CCC recognizes gain or loss on each exchange transaction
determined by the difference between CCC’s book value of the commodity and the BDO value received in the
exchange.

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related to placing
the asset into service such as freight, installation, and testing. Purchases of property valued at $25,000 or more and
a useful life of 2 years or greater are capitalized. Property and equipment is depreciated on a straight-line basis.
Automated Data Processing (ADP) computer equipment has a service life of 5 years. There is no salvage value
associated with general property and equipment.




                                                               56
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
In addition, internal use software valued at $100,000 or more and a useful life of 2 years or greater is capitalized.
Internal use software development costs are accumulated and capitalized upon completion. In accordance with
SFFAS No. 10, Accounting for Internal Use Software, capitalized software development costs include contractor
developed software, purchased software, and internally developed software. Capitalized internal use software costs
are amortized over a period of 5 years beginning with the first year the software is fully operational. Also included
are costs incurred by FSA which are transferred to CCC without reimbursement and are reflected as software-in-
development on CCC’s financial statements until such time as the software is completed and put into operation.
Once the software is put into operation, amortization begins.

Producer Assistance Advances
Public Law 107-25 (commonly referred to as the Agricultural Economic Assistance Act) authorized three grant
programs whereby the Corporation disbursed funds to State governments for various purposes, such as promoting
agriculture and supporting activities for specialty crops. The three grant programs are Specialty Crops - Base State
Grant, Specialty Crops - Grants for Value of Production, and Commodity Assistance Program. Disbursements are
accounted for as advances on the Other Assets line of the Balance Sheet and are recognized as expenses based on
the States’ reporting of their use of the funds.

Non-Entity Assets
Non-entity assets are assets held by CCC that are not available for use in its operations.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange transaction
occurs (i.e., receipt of goods or services in return for a promise to provide money or other resources in the future), a
liability is recognized in the period in which the exchange occurred. If a nonexchange transaction occurs (i.e.,
government programs where there is a one-way flow of resources or promises), a liability is recognized for any
unpaid amounts due as of the reporting date. Liabilities not covered by budgetary resources, disclosed in Note 9,
result from the accrual of unpaid amounts due for various CCC programs. Budgetary resources for the programs
will not be made available until the subsequent fiscal year until congressional action is completed.

Resources Payable to Treasury
Resources payable to Treasury represent the net resources of the pre-Credit Reform programs. These net resources
are held as working capital until funds are no longer needed to fund liabilities, at which time they are returned to
Treasury.

Loan Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is necessary to
maintain or increase U.S. sales of agricultural products. CCC underwrites credit extended by the private banking
sector under the Export Credit Guarantee Program (GSM-102) and Facilities Guarantee Program (FGP). Credit
guarantee liabilities represent the estimated net cash outflows of the guarantees on a present value basis. CCC
records a liability and an allowance expense to the extent, in management's estimate,CCC will be unable to recover
claim payments under the Credit Reform Export Credit Guarantee programs.

Imputed Costs
Imputed costs represent costs incurred from other USDA agencies for the benefit of CCC. The majority of CCC’s
programs and related expenses are delivered through the personnel and facilities of FSA. The imputed costs consist
of the costs of hired labor, opportunity costs of unpaid labor, capital recovery of machinery and equipment,
opportunity costs of land, general farm overhead, payroll taxes, and insurance.

Tax Status
CCC, as a Federal agency, is not subject to Federal, State, or local income taxes, and accordingly, no provision for
income tax is necessary.




                                                               57
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results will
invariably differ from those estimates.

Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity and a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate
budget authority and outlay funds to another department. A separate fund account (allocation account) is created in
the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers
of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity are
charged to this allocation account as they execute the delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to United States Agency for International Development (USAID) to fund P.L.
480 Title II transportation and other administrative costs in connection with foreign donations. CCC receives
allocation transfers, as the child, from FSA. CCC reports USAID’s budgetary and proprietary transactions for which
it is the parent and excludes FSA’s budgetary and proprietary transactions, for which it is the child.

SFFAS No. 29 – Heritage Assets and Stewardship Land
Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial Accounting Standard
(SFFAS) No. 29, Heritage Assets and Stewardship Land, was issued on July 7, 2005. The primary purpose of the
standard was to reclassify heritage asset and stewardship land information from the Required Supplementary
Stewardship Information (RSSI) to basic financial statement information with the exception of condition reporting,
which is considered Required Supplementary Information (RSI). SFFAS No. 29 requires this reclassification
through a phased-in approach beginning in reporting periods after September 30, 2005 with full implementation for
reporting periods beginning after September 30, 2008.

Easements purchased for the Wetlands Reserve Program (WRP) are considered stewardship land. The WRP
provides technical and financial assistance to eligible landowners to restore, enhance, and protect wetlands. This
voluntary program offers landowners an opportunity to establish, at minimal cost, long-term conservation and
wildlife habitat enhancement practices and protection.

Although the funding source for the purchase of easements has changed over the life of the program, the authority
for administering and managing the program has resided with NRCS since the 1994 USDA Reorganization Act.
NRCS holds the accountability for the management, monitoring, and enforcement for all easements purchased under
the WRP.

Based on agreements, NRCS remains responsible to disclose required information for all WRP easements as
stewardship land in FY 2010 and future years as long as NRCS maintains the administration, management
responsibilities, and accountability for the WRP easements.




                                                                58
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 2 – Fund Balance with Treasury
Fund balances with Treasury, by type of fund, as of September 30 are as follows:

                                                                                                (In Millions)

                                                                                       2010                      2009

Revolving Funds                                                                  $             (389)       $             (696)
General Funds                                                                                 2,186                     2,011

Total Fund Balance with Treasury                                                 $            1,797        $            1,315



The status of fund balances with Treasury as of September 30 is as follows:
                                                                                                 (In Millions)

                                                                                       2010                      2009

Unobligated Balance
  Available                                                                      $          2,359          $         1,537
  Unavailable                                                                               1,039                    1,454
Obligated Balance not yet Disbursed                                                         9,727                    9,290
Subtotal                                                                         $         13,125          $        12,281

Less: Borrowing Authority not yet Converted to Fund Balance                               (11,328)                  (10,966)

Total Fund Balance with Treasury                                                 $            1,797        $            1,315


Unobligated Balance, Unavailable represents unobligated resources not yet apportioned by OMB and unobligated
appropriations from prior years that are no longer available for new obligations. Borrowing authority not yet
converted to fund balance represents unobligated and obligated amounts recorded at September 30, 2010 and 2009,
which will be funded by future borrowings.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget. Borrowing authority permits the Corporation to incur obligations and authorizes it to
borrow funds to liquidate the obligations. See Note 17.


Note 3 – Cash and Other Monetary Assets
As of September 30, 2010, CCC does not have balances classified as Cash and Other Monetary Assets. As of
September 30, 2009, Cash and Other Monetary Assets was $92 million. In FY 2009, the balance reflected “in
transit” amounts that have not been cleared by Treasury as a result of varying processing times and cut-off dates
between CCC and Treasury.




                                                              59
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 4 – Accounts Receivable, Net
Accounts receivable as of September 30 are as follows:
                                                                                      (In Millions)

                                                                             2010                     2009
Intragovernmental:
  Due from the Department of Treasury                                  $               8        $                  7
  Due from the Department of Transportation                                           80                          89
  Due from Other Federal Agencies                                                     28                          33

Total Intragovernmental Accounts Receivable, Net                       $             116        $             129

Public:
  Claims Receivable                                                    $                -       $               17
  Notes Receivable                                                                     18                       31
  Interest Receivable                                                                   6                       12
  TTPP Receivable                                                                   4,125                    4,990
  Other                                                                               108                       11
Subtotal                                                               $            4,257       $            5,061

Less: Allowances for Doubtful Accounts                                                (10)                        (4)

Total Public Accounts Receivable, Net                                  $            4,247       $            5,057



CCC records a receivable due from the Department of Treasury. The receivable is related to the collection of credit
subsidy for the Debt Reduction Fund. Since this program is pre-credit reform, it does not have a program fund
account, and CCC records a separate receivable to capture the transaction with Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual increase in the share of
particular exports, mostly food aid that must be carried on U.S. flagged vessels. The Food Security Act and Section
901d (b) of the Merchant Marine Act, 1938 (the Act), provide for the reimbursement of certain transportation costs
the Corporation incurs. In accordance with these Acts, CCC establishes a receivable from the Department of
Transportation for freight costs paid to U.S. flagged vessels exceeding 20 percent of the total cost related to the
donated commodities and freight costs if CCC were to use a commercial vessel.

Other public receivables consist of amounts due as a result of program overpayments or dishonored checks.
Examples of CCC programs include Crop Disaster Assistance and Conservation Reserve Program.

As of September 30, 2010, the Accounts Receivable, Net: Public balance for the Tobacco Transition Payment
Program (TTPP) is $4,125 million and includes $345 million as a short-term receivable. TTPP comprises $11
million of the Notes Receivable balance; and, $6 million in Interest Receivable balance.

As of September 30, 2009, the Accounts Receivable, Net: Public balance for the Tobacco Transition Payment
Program (TTPP) was $4,990 million and included $314 million as a short-term receivable, and comprising $23
million of the Notes Receivable balance; and, $5 million in Interest Receivable balance. Refer to Note 1, under
Tobacco Transition Payment Program, for additional information.




                                                            60
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 5 – Commodity Loans, Net
Commodity loans receivable, by commodity, as of September 30 are as follows:

                                                                              (In Millions)

                                                                      2010                    2009
Cotton                                                          $            126        $             56
Dry Whole Peas                                                                 3                       2
Feed Grains:
  Barley                                                                       8                       5
  Corn                                                                       175                     148
  Grain Sorghum                                                                1                       2
  Oats                                                                         1                       1
Honey                                                                          2                       2
Oilseeds                                                                       2                       3
Peanuts                                                                       46                      27
Rice                                                                         143                      30
Soybeans                                                                      21                      14
Wheat                                                                        143                     124

Total Commodity Loans                                           $            671        $            414

Accrued Interest Receivable                                                    2                       3

Less: Allowances for Losses                                                    -                      (3)

Total Commodity Loans, Net                                      $            673        $            414



As of September 30, 2010, total commodity loans increased by $259 million and is attributed to increases in
outstanding rough rice loans. Current year prices for rough rice are significantly lower than in fiscal year 2009;
producers tend to place the commodity under loan in hopes that prices will recover before the loan matures.




                                                              61
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net
Direct credit and loan obligations and credit guarantee commitments made after FY 1991 and the resulting direct
credits and loans or credit guarantees are governed by the Federal Credit Reform Act of 1990, as amended. The
Credit Reform Act requires agencies to estimate for the President’s Budget the cost of direct credits and loans and
credit guarantees at the present value of future cash flows. Additionally, the present value of the subsidy costs (i.e.,
interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows) associated
with direct credits and loans and credit guarantees are recognized as a cost in the year the direct credit and loan or
credit guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in
time is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the subsidy at
that time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds that
might be expected if these loans were sold on the open market.

Credit Program Discussion and Descriptions
Guaranteed Loans, Credit Guarantee Programs – Export
CCC’s Export Credit Guarantee (GSM) programs encourage exports of U.S. agricultural products to buyers in
countries where credit is necessary to maintain or increase U.S. sales, but where financing may not be available
without such credit guarantees. The Corporation underwrites credit extended by the private banking sector in the
U.S. (or, less commonly, by the exporter) under the GSM-102 program for terms of 3 years or less. CCC does not
provide financing, but guarantees payments due from foreign banks and obligors. Typically, 98 percent of principal
and a portion of interest at an adjustable rate are covered. All guarantees under these programs are denominated in
U.S. dollars. In the event that CCC pays a claim under the guarantee programs, CCC assumes the debt and treats it
as a credit receivable for accounting and collection purposes.

Under Section 3101 of the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), authority for the GSM
103 and Supplier Credit programs was specifically repealed. Remaining liability under these programs is still
subject to annual reestimate.

Guaranteed loans outstanding at the end of FY 2010 were $6,645 million in outstanding principal and $6,513 million
in outstanding principal guaranteed, compared to $7,039 and $6,898 million, respectively at the end of FY 2009.
(See table 5.)
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the
loan guarantee liability through the year. The loan guarantee liability is a combination of the liability for losses on
pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved from $221 million to $184
million during FY 2010, a decrease of $37 million. There is no further loan guarantee liability for pre-1992
guarantees.

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in
the current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
guaranteed loan subsidy expense in FY 2010 was $6 million compared to $55 million in FY 2009. Table 7
illustrates the breakdown of total subsidy expense for FY 2010 and FY 2009. Guaranteed loan volume decreased
from $5,250 million in FY 2009 to $2,891 million in FY 2010. (See table 9.)




                                                               62
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Direct Loans
During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the value
of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and reestimates
all contribute to the change of the subsidy cost allowance throughout the year. For P.L. 480, the subsidy cost
allowance moved from $721 million to $737 million during FY 2010, an increase of $16 million. For Farm Storage
Facility Loans (FSFL), the subsidy cost allowance changed from $31.0 million in FY 2009 to $25.4 million in FY
2010, a decrease of $5 million. The subsidy cost allowance for the Boll Weevil program was $10 million for both
FY 2010 and 2009. Table 2 shows the reconciliation of subsidy cost allowance balances from FY 2009 to FY 2010.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. For P.L. 480,
subsidy expense in FY 2010 was $74 million compared to ($397 million) in FY 2009. For FSFL, total direct loan
subsidy expense for FY 2010 was ($14 million) compared to ($7 million) in FY 2009. Table 3 illustrates the
breakdown of total subsidy expense for FY 2010 and FY 2009. There was no additional direct food aid loans
disbursed in either 2009 or 2010. Disbursements for FSFL loans increased from $140 million in FY 2009 to $228
million in FY 2010 as shown in Table 4.

Direct Credit Programs – Food Aid
Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries in need of
food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace periods of up to 7
years). P.L. 480 Title I provides for government-to-government (and some government-to-private entity) sales of
U.S. agricultural commodities to developing countries on credit terms or for local currencies. Priority is given to
countries with the greatest need for food that are undertaking economic development to improve food security and
agricultural development, alleviate poverty, and promote broad based, equitable and sustainable development. All
credits under this program are denominated in U.S. dollars. Although legislative authority for the P.L. 480 Title I
Program still exists, there have been no new loans extended under the program since FY 2006.

Direct Credit Programs – Domestic
The FSFL Program was implemented to provide low cost financing for producers to build or upgrade on-farm
commodity storage and handling facilities. The loans have a term of 7, 10 or 12 years with a requirement of annual
repayment installments. Interest on these loans is accrued monthly from the date of disbursement. The borrower’s
rate is established to be equivalent to the rate of interest charged on the Treasury securities of comparable maturity.
In accordance with the 2008 Farm Bill, revised program regulations were promulgated to expand the program in
regard to available loan terms and eligible commodities, as well as to increase the loan limitation.

The Boll Weevil Program made available to the Texas Boll Weevil Eradication Foundation in FY 2001 an interest-
free $10 million loan to be repaid over 10 years.

The Apple Loan Program in FY 2001 provided loans to apple producers who suffered hardships due to low prices
following the 1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years. Eligible
applicants obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to a maximum
indebtedness of $500,000.

Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses on direct credit and loan programs were $3 million for each of
the fiscal years ended September 30, 2010 and 2009. Administrative expenses for the credit guarantee programs
were $7 million and $5 million for fiscal years ended September 30, 2010 and 2009, respectively.




                                                               63
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2010 and FY 2009 cohorts. These rates cannot be applied to the direct and
guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.

Events and Changes Having a Significant and Measurable Effect upon Subsidy Rates, Subsidy Expense, and
Reestimates
Current world events and government initiatives have a major impact upon CCC’s foreign receivables. Defaults
during FY 2009 by three banks in Kazakhstan were rescheduled during FY 2010. Ukraine defaults have not been
rescheduled to date. There were defaults on Russian banks during FY 2010, with projections of significant
additional claims (approximately $160 million) to be paid in FY 2011.

For the GSM program, a new model was introduced in FY 2010. Changes include the use of econometric
predictions versus a single ICRAS informed curve for each country for defaults and recoveries and predictions that
are generated at the registration level rather than at the country level. Economic factors evaluated include changes
in gross national product (GNP), exchange rate growth, and ICRAS grade. Data on GNP and exchange rates are
obtained from publications of the USDA Economic Research Service. ICRAS is provided by OMB.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time that may
affect subsidy rates and reestimates in the future.

Loan Modifications and Reschedulings
A modification is any Government action different from the baseline assumptions that affects the subsidy cost such
as a change in the terms of the loan contract. The cost of a modification is the difference between the present value
of the cash flows before and after the modification.

The Debt Reduction Fund is used to account for CCC’s modified debt. Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by
the Federal Credit Reform Act of 1990 as amended.

Interest Credit
Interest is accrued monthly on both performing and non-performing direct credits and credit guarantee receivables as
it is earned using simple interest calculations based upon a 365-day year. A non-performing direct credit or credit
guarantee receivable is defined as a repayment scheduled under a credit agreement, with an installment payment in
arrears more than 90 days. For those non-performing receivables, interest is not recognized as income; rather, it is
deferred until the interest is received or the receivable is returned to performing status.




                                                              64
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a present value basis.
For loans initiated before FY 1992 (Pre-1992), restatement of loan value on a present value basis is permitted but
not required. Since CCC elected to restate the Pre-1992 loan receivables from nominal value to net present value
starting in 2001, the accounting treatment, including revenue recognition and allowance calculation, has been
applied consistently to Pre-1992 and Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992 and Post-
1991 loan interest receivable, the portion related to non-performing loans is deferred and presented net of the loan
receivable line item in the balance sheet.

P.L. 480 Title I Direct Credit Reestimate Trend Analysis
The P.L. 480 program had a net reestimate for FY 2010 of $40 million, of which $17 million was the technical
reestimate and $23 million was interest on the reestimate. The upward reestimate totals $51 million, and the
downward reestimate totals $11 million. The FY 1999 cohort technical reestimate is $9.2 million and represents 54
percent of the total technical upward reestimate. Actual FY 2010 data reflects larger defaults and lower recoveries
than projected in FY 2009, and that trend of higher defaults and lower recoveries is carried through the projections
for FY 2011 and beyond. The largest impact is due to Russia’s projected recoveries, which are projected at $7
million lower than at the end of FY 2009.

Farm Storage Facility Loans Reestimate Trend Analysis
The FSFL program had a net downward reestimate of $20 million, of which $3.8 million was the upward technical
reestimate, $2.7 million was the interest on the upward reestimate, $23 million was the downward technical
reestimate and $3.6 million was the interest on the downward reestimate. Most ($15 million) of the downward
technical reestimate was in the 2009 cohort, which is due to the fact that the original subsidy rate was 6.25 percent
and was determined to be too high for this program, which has had a total of nine defaults since its inception.
Reestimates for other cohorts were not significant.

Export Credit Guarantees (GSM) Reestimate Trend Analysis
The GSM-102 program had a net downward reestimate of $88.3 million for FY 2010. The upward reestimate is
$95.2 million for the technical portion and $1.5 million interest on the reestimate. The upward reestimate is almost
completely attributable to the 2010 cohort and reflects projected defaults in excess of $100 million, mitigated to a
small extent based on fairly small projected recoveries. The downturn in the Russian economy due to drought and
resulting crop failures has affected the ability of some banks to remain solvent.

The downward reestimate is $143.2 million technical and $41.8 million interest on the reestimate. The 2007, 2008
and 2009 cohorts had large downward technical reestimates of $16.8 million, $45.3 million and $58 million
respectively. Although projected defaults are now greater than predicted at the end of FY 2009, the main cause for
the change is recoveries. The GSM program projected no recoveries for these three cohorts in the previous
reestimate. In the previous model (used at the end of FY 2009), the GSM program did not predict recoveries unless
a rescheduled agreement was constructed, and there were no rescheduled agreements in these cohorts at that time.
With the new model and methodology change that occurred this year, the GSM program now predicts regular
recoveries (not rescheduled) as well as recoveries on rescheduled agreements. In addition, Kazakhstan debt for
these three cohorts was rescheduled during FY 2010.




                                                              65
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
The Supplier Credit total reestimate was $25.3 million, comprised almost exclusively of an upward reestimate for
the 2004 cohort. As with GSM-102, assumptions were changed in the new model to reflect econometric predictions
based on historical patterns. Our recovery predictions for Supplier Credit are now approximately one-third of what
was predicted at the end of FY 2009 and more closely resembles actual experience to date in this cohort.

P.L. 480, Title I direct credits outstanding that were obligated prior to FY 1992 and P.L. 480 direct credits and direct
loans for FSFL, Boll Weevil, and Apple loans that were obligated after FY 1991 and related interest receivable
outstanding are as follows. Defaults on credit guarantees made prior to FY 1992 and related interest receivable are
also listed below. This information is current as of September 30, 2010 and 2009.


 Table 1. Direct Loan and Loan Guarantees, Net

                2010                                                                  (In Millions)
 Direct Loans
                                                   Loans Receivable,      Interest    Present Value    Value Of Assets
 Obligated Pre-1992                                     Gross           Receivable      Allowance      Related to Loans
   P.L. 480 Title I                                $          4,149     $        43   $      (1,517)   $          2,675
 Pre-1992 Total                                    $          4,149     $        43   $      (1,517)   $          2,675

 Obligated Post-1991
   P.L. 480 Title I                                $           1,215    $       17    $       (285)    $           947
   Debt Reduction Fund                                           258             1            (226)                 33
   Farm Storage Facility                                         548            41             (26)                563
   Boll Weevil Program                                            10             -             (10)                  -
 Post-1991 Total                                               2,031            59            (547)              1,543
 Total Direct Loan Program Receivables             $           6,180    $      102    $      (2,064)   $         4,218

 Defaulted Guarantee Loans
 Pre-1992
   Export Credit Guarantee Programs                $            134     $        1    $         (70)   $            65
 Pre-1992 Total                                    $            134     $        1    $         (70)   $            65

 Post-1991
   Export Credit Guarantee Programs                $            731     $       10    $       (226)    $           515
 Post-1991 Total                                                731             10            (226)                515
 Total Defaulted Guarantee Loans                   $            865     $       11    $       (296)    $           580


 Total Direct Loan and Loan Guarantees, Net        $           7,045    $      113    $      (2,360)   $         4,798




                                                              66
                            COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements




Note 6 – Credit Program Receivables, Net, Continued
Table 1. Direct Loan and Loan Guarantees, Net (continued)

               2009                                                             (In Millions)
Direct Loans
                                              Loans Receivable,     Interest     Present Value      Value Of Assets
Obligated Pre-1992                                 Gross          Receivable      Allowance       Related to Loans
  P.L. 480 Title I                            $          4,470    $        47   $       (1,407)   $           3,110
Pre-1992 Total                                $          4,470    $        47   $       (1,407)   $           3,110

Obligated Post-1991
  P.L. 480 Title I                            $          1,333    $       19    $        (302)    $          1,050
  Debt Reduction Fund                                      282             2             (216)                  68
  Farm Storage Facility                                    417            35              (31)                 421
  Boll Weevil Program                                       10             -              (10)                   -
Post-1991 Total                                          2,042            56             (559)               1,539
Total Direct Loan Program Receivables         $          6,512    $      103    $      (1,966)    $          4,649

Defaulted Guarantee Loans
Pre-1992
  Export Credit Guarantee Programs            $           135     $        1    $         (82)    $             54
Pre-1992 Total                                $           135     $        1    $         (82)    $             54

Post-1991
  Export Credit Guarantee Programs            $           620     $        7    $        (204)    $            423
Post-1991 Total                                           620              7             (204)                 423
Total Defaulted Guarantee Loans               $           755     $        8    $        (286)    $            477

Total Direct Loan and Loan Guarantees, Net    $          7,267    $      111    $      (2,252)    $          5,126




                                                            67
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 6 – Credit Program Receivables, Net, Continued

Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991)
Direct Loans
                                                                           (In Millions)
                                                                        2010           2009
 Beginning Balance of the Subsidy Cost Allowance                    $        763     $ 1,262
 Add: Subsidy expense for direct loans disbursed
   during the year by component
  Interest Rate Differential Costs                                           (2)          (1)
  Default Costs (net of recoveries)                                           8            5
 Total Subsidy Expense Prior to Adjustements and Reestimates        $         6    $       4

 Adjustments
  Loan Modifications                                                $        34    $      19
  Fees Received                                                               2            -
  Loans Written Off                                                        (214)         (77)
  Subsidy Allowance Amortization                                             (6)         (52)
  Other                                                                     168           34
 Total Subisidy Cost Allowance before Reestimates                   $       753    $   1,190
 Add or Subtract Subsidy Reestimates by Component
  Interest Rate Reestimate                                          $        23    $    (244)
  Technical/Default Reestimate                                               (3)        (183)
 Total Reestimates                                                           20         (427)
 Ending Balance of the Subsidy Cost Allowance                       $       773    $     763



Subsidy Allowance – End of Fiscal Year 2009 includes subsidy for both direct loans and loans receivable derived
from those guaranteed transactions on which CCC was called upon to perform. For comparison purposes, prior year
balances have been adjusted to reflect the same.




                                                               68
                                     COMMODITY CREDIT CORPORATION
                                                    Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued

 Table 3. Subsidy exepense for Direct loans by Program and Component

               2010                                                  (In Millions)

                                                                                                                                        Total
                                       Interest                Subtotal      Total        Interest Rate    Technical       Total       Subsidy
 Direct Loan Programs                Differential   Defaults   Subsidy    Modifications   Reestimates     Reestimates   Reestimates    Expense
  P.L 480 Title I                    $          -   $     -    $     -    $         34    $         23    $       17    $        40   $      74
  Farm Storage Facility                       (2)         8          6                -              -           (20)          (20)         (14)
 Total Direct Loan Subsidy Expense   $        (2)   $     8    $     6    $         34    $         23    $       (3)   $        20   $      60




               2009                                                  (In Millions)

                                                                                                                                        Total
                                       Interest                Subtotal      Total        Interest Rate    Technical       Total       Subsidy
 Direct Loan Programs                Differential   Defaults   Subsidy    Modifications   Reestimates     Reestimates   Reestimates    Expense
  P.L 480 Title I                    $          -   $     -    $     -    $         19    $       (245)   $     (171)   $     (416)   $    (397)
  Farm Storage Facility                         -         4          4                -              -           (11)          (11)          (7)
 Apple Loan Program                             -         -          -                -              1            (1)             -            -
 Total Direct Loan Subsidy Expense   $          -   $     4    $     4    $         19    $       (244)   $     (183)   $     (427)   $   (404)



*Subsidy reestimates are calculated on cumulative disbursements for all budget fiscal years and the respective
cohorts (direct loan/guarantee origination year) that comprise them.




                                                                               69
                                COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
For the fiscal years ended September 30, 2010 and 2009, current and prior year disbursements of post-1991 direct
credits and loans are as follows:

Table 4. Total Amount of Direct Loans Disbursed (Post -1991)

                                                                           (In Millions)
                                                                2010                       2009
Direct Loan Programs
  Farm Storage Facility                                   $               228       $             140
Total                                                     $               228       $             140




As of September 30, 2010 and 2009, post-1991 credit guarantees outstanding are as follows:

 Table 5. Guaranteed Loans Outstanding

                         2010                             (In Millions)

                                       Post-1991                                 Post-1991
                                     Outstanding      Total Outstanding         Outstanding       Total Outstanding
                                    Principal, Face    Principal, Face           Principal,          Principal,
 Loan Guarantee Programs                Value               Value               Guaranteed          Guaranteed
  Export Credit
  Guarantee Programs            $             6,645   $           6,645     $           6,513     $          6,513
 Tota Guarantees Disbursed      $             6,645   $           6,645     $           6,513     $          6,513

                         2009                             (In Millions)

                                       Post-1991                                 Post-1991
                                     Outstanding      Total Outstanding         Outstanding       Total Outstanding
                                    Principal, Face    Principal, Face           Principal,          Principal,
 Loan Guarantee Programs                Value               Value               Guaranteed          Guaranteed
  Export Credit
  Guarantee Programs            $             7,039   $           7,039     $           6,898     $          6,898
 Tota Guarantees Disbursed      $             7,039   $           7,039     $           6,898     $          6,898


* Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by foreign banks
to exporters or assignee U.S. financial institutions participating in the program.




                                                                   70
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
As of September 30, 2010 and 2009 Pre - 1992 Liability for Loan Guarantees (Present Value Method) are as
follows:

Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)


                2010                            (In Millions)

                                         Liabilities for Loan
                                         Guarantees on Post-
                                          1991 Guarantees           Total Liabilities for
 Loan Guarantee Programs                   Present Value             Loan Guarantees
  Export Credit Guarantee Program        $                184       $               184
 Total Liability for Loan Guarantees     $                184       $               184


                2009                            (In Millions)

                                         Liabilities for Loan
                                         Guarantees on Post-
                                          1991 Guarantees           Total Liabilities for
 Loan Guarantee Programs                   Present Value             Loan Guarantees
  Export Credit Guarantee Program        $                221       $               221
 Total Liability for Loan Guarantees     $                221       $               221




                                                            71
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
The change in the liability for Post - 1991 credit guarantees as of September 30, 2010 and 2009 is as follows:

Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                   (In Millions)
                                                                               2010             2009
Beginning balance of the loan guarantee liability                            $    221        $     161
Add: Subsidy expense for guaranteed loans disbursed during
the year by component
 Default costs (net of recoveries)                                                    10               77
 Fees and other collections                                                           (4)             (22)
Total of the above subsidy expense components                                $         6       $       55

Adjustments
 Fees received                                                               $        19       $       41
 Claim payments to lenders                                                          (161)             (25)
 Other                                                                               162               26
Ending balance of the subsidy cost allowance before reestimates              $       247       $      258

Add or Subtract subsidy reestimates by component:
 Interest rate reestimate                                                    $      (41)       $      (46)
 Technical/default reestimate                                                       (22)                9
Total of the above reestimate components                                     $      (63)       $      (37)
Ending balance of the loan guarantee liability                               $      184        $      221




                                                             72
                                    COMMODITY CREDIT CORPORATION
                                                Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Subsidy expenses, net of fees and other collections, for current year disbursements related to credit guarantees made
after FY 1991, and subsidy reestimates for the fiscal years ended September 30, 2010 and 2009 are as follows:


Table 8. Subsidy Expense for Loan Guarantees by Program and Component

         2010                                                      (In Millions)


                                                      Fees and                                                                        Total
                                                       Other                         Interest Rate     Technical         Total       Subsidy
Loan Guarantee Programs                  Defaults    Collections     Subtotal        Reestimates      Reestimates     Reestimates    Expense
 Export Credit Guarantee Programs       $     10    $          (4) $          6    $           (41) $          (22) $          (63) $     (57)
Total Loan Guarantee Programs           $     10    $          (4) $          6    $           (41) $          (22) $          (63) $     (57)


         2009                                                      (In Millions)

                                                      Fees and                                                                          Total
                                                       Other                         Interest Rate     Technical           Total       Subsidy
Loan Guarantee Programs                  Defaults    Collections     Subtotal        Reestimates      Reestimates       Reestimates    Expense
 Export Credit Guarantee Programs       $     77    $         (22) $        55     $           (46) $             9   $          (37) $      18
Total Loan Guarantee Programs           $     77    $         (22) $        55     $           (46) $             9   $          (37) $      18

*Subsidy reestimates are calculated on cumulative disbursements for all cohorts.




                                                                            73
                                     COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
For the fiscal years ended September 30, 2010 and 2009, current and prior year credit guarantee disbursements are
as follows:

 Table 9. Guaranteed Loans Disbursed
                                                                                        (In Millions)_
                                                                2010                                                      2009
                                             Principal,                Principal, Guaranteed           Principal,                Principal, Guaranteed
 Loan Guarantee Programs               Face Value Disbursed                 Disbursed            Face Value Disbursed                 Disbursed
  Export Credit Guarantee Programs     $                2,891          $              2,835      $                5,250          $              5,145
 Total Guaranteed Loans Disbursed      $                2,891          $              2,835      $                5,250          $              5,145




 Table 10. Administrative Expenses
                                                                 (In Millions)
                                                             2010             2009
 Direct Loan Programs                                      $       3       $       3
 Guaranteed Loan Programs                                          7               5
 Total Administative Expenses                              $     10        $       8




                                                                            74
                                     COMMODITY CREDIT CORPORATION
                                                   Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
FY 2010 and 2009 subsidy rates (percentage) for direct credits and loans are as follows:


Table 11. Subsidy Rates for Direct Loans (percentage)


                         2010
                                         Interest                                 Fees and Other
Direct Loan Programs                   Differential          Defaults              Collections                   Other                  Total
 Farm Storage Facility                          (0.88)               0.02                   (0.14)                       (0.01)                 (1.01)

                         2009
                                        Interest                                 Fees and Other
Direct Loan Programs                   Differential          Defaults             Collections                    Other                  Total
 Farm Storage Facility                          (0.82)                  7.21               (0.14)                         -                     6.25


For the fiscal years ended 2010 and 2009, there were no apportionments or funding for P.L. 480, and thus, no
subsidy rate was provided. The Apple Loan Program is a one year program, cohort 2001.


FY 2010 and 2009 subsidy rates (percentage) for credit guarantee programs are as follows:

Table 12. Subsidy Rates for Loan Guarantees (percentage)

                                  2010

                                                                        Fees and Other
 Guaranteed Loan Programs                         Defaults               Collections                 Other                    Total
  Export Credit Guarantee Programs                  (0.58)                           (0.63)                  -                 (1.21)


                                  2009

                                                                        Fees and Other
 Guaranteed Loan Programs                         Defaults               Collections                 Other                    Total
  Export Credit Guarantee Programs                   1.47                            (0.60)                  -                  0.87

Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed
pertain only to the current year’s cohort. These rates cannot be applied to the direct credits and loans and credit
guarantees disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new
direct credits and loans and credit guarantees reported in the current year could result from disbursements from both
current year and prior year(s) cohorts. The subsidy expense reported in the current year also includes modifications
and reestimates.




                                                                               75
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 7 – Commodity Inventories and Related Property, Net
Inventory and related property activity as of September 30 are as follows:
                                                                                       (In Millions)

                                                                             2010                      2009
Commodity Inventories - Beginning of Fiscal Year                      $                202       $                11
Acquisitions                                                                           946                     4,101
Cost of Sales                                                                          (47)                   (2,803)
Donations                                                                           (1,058)                   (1,113)
Other Dispositions, Additions and Deductions                                           (21)                        6

Commodity Inventories - End of Fiscal Year                            $                22        $              202

Less: Allowance for losses                                                              (2)                          -

Barter Delivery Obligations (BDO)                                                      26                            3
Commodity Inventories and Related Property, Net                       $                46        $              205


Commodity loan forfeitures included in the Acquisitions line item were $2.7 million and $47 million for the fiscal
years ended September 30, 2010 and 2009, respectively.

BDOs were received by CCC in exchange for CCC-owned commodities. The BDOs may only be exchanged for
food products to be utilized in domestic and export food programs. Refer to Note 1 for additional information.

Restrictions on Commodity Inventory
In accordance with the Bill Emerson Humanitarian Trust (BEHT) Act of 1998, CCC maintains a reserve of
commodities and funds for use when domestic supplies are so limited that quantities cannot meet the availability
criteria under P.L. 480. BEHT stocks can be exchanged for other U.S. agricultural commodities of equal value or
for an equivalent amount of funds from the market to meet emergency food needs. The 2008 Farm Bill extended the
authorization to replenish the trust through fiscal year 2012.




                                                             76
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 8 – General Property and Equipment, Net
General property and equipment as of September 30 is as follows:

                                                                           (In Millions)

2010:                                                                      Accumulated
                                               Acquisition Value           Depreciation             Net Book Value

Equipment                                      $             37        $               (37)      $                -
Capitalized Software Costs                                  134                        (77)                      57

Total General Property and Equipment           $            171        $             (114)       $               57


                                                                           (In Millions)

2009:                                                                      Accumulated
                                               Acquisition Value           Depreciation             Net Book Value

Equipment                                      $             45        $               (45)      $                -
Capitalized Software Costs                                  114                        (70)                      44

Total General Property and Equipment           $            159        $             (115)       $               44




Note 9 – Liabilities Not Covered by Budgetary Resources
                                                                                      (In Millions)

                                                                             2010                      2009

Accrued Liabilities (Note 14)
 Conservation Reserve Program                                         $                 -       $             1,734
 Tobacco Transition Payment Program                                                 3,797                     4,705
Environmental and Disposal Liabilities (Note 13)                                        8                         8
Total Liabilities Not Covered by Budgetary Resources                  $             3,805       $             6,447

Total Liabilities Covered by Budgetary Resources                      $          14,680         $          16,095

Total Liabilities                                                     $          18,485         $          22,542


Liabilities not covered by budgetary resources are liabilities for which Congressional action or OMB apportionment
is needed before budgetary resources can be provided. During FY 2010, CCC obtained OMB’s apportionment to
fund. As a result, the related accrued liability was moved to Liabilities Covered by Budgetary Resources.




                                                            77
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 10 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing and non-interest bearing notes, as of September 30 is as
follows:

                                                                                       (In Millions)

                                                                              2010                      2009
Debt - Beginning of Fiscal Year
 Principal: Interest Bearing                                            $            4,874        $              5,866
 Accrued Interest Payable                                                                3                          11
Total Debt Outstanding - Beginning of Fiscal Year                       $            4,877        $              5,877

New Debt
 Principal: Interest Bearing                                            $          32,793         $          22,876
 Accrued Interest Payable                                                               6                     3,014
Total New Debt                                                          $          32,799         $          25,890

Repayments
 Principal: Interest Bearing                                            $         (34,394)        $         (23,868)
 Accrued Interest Payable                                                              (8)                   (3,022)
Total Repayments                                                        $         (34,402)        $         (26,890)

Debt - End of Fiscal Year
 Principal: Interest Bearing                                            $            3,274        $              4,874
 Accrued Interest Payable                                                                -                           3
Total Debt Outstanding - End of Fiscal Year                             $            3,274        $              4,877


CCC may borrow interest-free up to the amount of its unreimbursed realized losses. Monthly interest rates ranged
from 0.250 percent to 4.375 percent during FY 2010 and from 0.375 percent to 2.000 percent during FY 2009.

There was no debt principal and interest refinanced for the period ended September 30, 2010. There was no
outstanding principal rolled over for the periods ended September 30, 2010 and 2009. There was no accrued interest
rolled into notes payable for the fiscal years ended September 30, 2010 and 2009. Interest expense incurred on
Treasury borrowings was $126 million and $140 million for the fiscal years ended September 30, 2010 and 2009,
respectively.

The FY 2010 and 2009 interest rates on long-term borrowings under the permanent indefinite borrowing authority
for the Credit Reform programs are calculated using the OMB Credit Subsidy Calculator 2. For FY 2001 and future
cohorts, the single effective interest rate produced from the calculator, along with budget assumptions, is used to
calculate interest expense.




                                                              78
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 10 – Debt to the Treasury, Continued
The repayment terms for borrowings made for the Export Credit Guarantee programs range from under
3 years up to 10 years. Currently, maximum loan terms do not exceed 7 years, while the repayment term for P.L.
480 direct credits program borrowing is 30 years. The repayment term is 7 years for direct loans under the Farm
Storage Facility Loans program, 3 years for direct loans under the Apple Loan Program, and 10 years for the direct
loans made under the Boll Weevil program. For all Credit Reform programs, principal repayments are required only
at maturity but are permitted at any time during the term of the loan.

CCC has a separate permanent indefinite borrowing authority for the Credit Reform programs to finance
disbursements on post-1991 Credit Reform direct credit and loan obligations and credit guarantees. On October 1,
CCC borrows from Treasury for the entire fiscal year based on annual estimates of the difference between the
amount appropriated (subsidy) and the amount to be disbursed to the borrower. CCC may repay the loan agreement,
in whole or in part, prior to maturity by paying the principal amount of the borrowings plus accrued interest up to
the date of repayment. Interest is paid on these borrowings based on weighted average interest rates for the cohort to
which the borrowings are associated. Interest expense incurred on borrowings associated with the Credit Reform
programs was $123 million and $122 million for the fiscal years ended September 30, 2010 and 2009, respectively.

CCC has an authorized capital stock of $100 million held by the Treasury and has permanent indefinite
appropriation authority to finance disbursements made under the liquidating accounts related to the pre-Credit
Reform program activities, which are not covered by available working capital. Interest on borrowings from the
Treasury (and on capital stock) is paid at a rate based upon the average interest rate of all outstanding marketable
obligations (of comparable maturity date) of the U.S. government as of the preceding month. CCC incurred $3
million in interest expense on capital stock for both fiscal years ended September 30, 2010 and 2009.




                                                              79
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 10 – Debt to the Treasury, Continued
Total debt outstanding, by program and maturity date, as of September 30, 2010, is as follows:

                 Program                         Debt (In Millions)          Maturity Date
  CCC Borrowing Authority                   $                         755       January 1, 2010
  Export Credit Guarantees                                            171    September 30, 2011
                                                                        1    September 30, 2013
                                                                       59    September 30, 2015
                                                                       44    September 30, 2018
                                                                        2    September 30, 2019
                                                                       92    September 30, 2020
                                                                       70    September 30, 2022
                                                                       65    September 30, 2024
  P.L. 480 Direct Credits                                             162    September 30, 2018
                                                                      111    September 30, 2019
                                                                       86    September 30, 2020
                                                                       65    September 30, 2021
                                                                       85    September 30, 2022
                                                                       68    September 30, 2023
                                                                       91    September 30, 2024
                                                                       91    September 30, 2025
                                                                       56    September 30, 2026
                                                                       59    September 30, 2027
                                                                       58    September 30, 2031
                                                                       36    September 30, 2032
                                                                       30    September 30, 2033
                                                                       26    September 30, 2034
                                                                       18    September 30, 2035
  Debt Reduction                                                       10    September 30, 2012
                                                                        4    September 30, 2013
                                                                        7    September 30, 2018
                                                                        1    September 30, 2020
                                                                        9    September 30, 2021
                                                                       40    September 30, 2022
                                                                       12    September 30, 2023
                                                                       19    September 30, 2024
                                                                       15    September 30, 2026
                                                                        3    September 30, 2028
  Farm Storarge Facility Loans                                          4    September 30, 2011
                                                                       11    September 30, 2012
                                                                       22    September 30, 2013
                                                                       48    September 30, 2014
                                                                       87    September 30, 2015
                                                                      110    September 30, 2016
                                                                      166    September 30, 2017
                                                                      405    September 30, 2018
  Total Debt Outstanding                     $               3,274




                                                             80
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 11 – Deposit and Trust Liabilities
Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities. Refer to
Note 18 – Disclosures Not Related to a Specific Statement for additional information. The balances, categorized as
intragovernmental and public, as of September 30 are as follows:

                                                                                       (In Millions)

                                                                              2010                     2009
Intragovernmental (Note 18):
Agricultural Marketing Service                                         $              486        $             274
Food and Nutrition Service                                                            485                      441
Foreign Agricultural Service                                                          193                      143
Natural Resources Conservation Service                                                192                      116

Total Intragovernmental Deposit and Trust Liabilities                  $             1,356       $             974

Public                                                                 $                7        $               7

Total Public Deposit and Trust Liabilities                             $                7        $               7

Within USDA, Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) coordinate with
FSA/CCC to purchase certain commodities for domestic feeding programs. AMS funds the purchase of
commodities for the purpose of facilitating additional sales in world markets at competitive prices. FNS funds the
purchase of commodities for the National School Lunch and many other domestic feeding programs administrated
by voluntary organizations which help to fight hunger worldwide. The commodities purchased are meats, poultry,
fish, fruit, vegetables, egg products, dry beans, and tree nuts. FNS coordinates the purchase through competitive
bids or negotiated contracts to assure the quantity, quality, and variety of commodities purchased meet the needs of
schools and institutions participating in the domestic nutrition programs. These purchases also assist farmers,
commodity producers, and processors by helping to maintain stable commodity prices.

The public liability was $7 million as of September 30, 2010 and 2009, respectively. The public liability consists of
unapplied collections for warehouse user fees, claims for disaster programs, and other miscellaneous collections that
are temporarily held in suspense until appropriately identified and applied.




                                                             81
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 12 – Other Liabilities
Other liabilities as of September 30 are as follows:

                                                                                        (In Millions)

                                                                               2010                      2009
Intragovernmental:
  Resources Payable to Treasury:
   P.L.480 Direct Credit Liquidating Fund                               $             2,402       $             2,697
   Export Credit Guarantee Direct Loans Liquidating Fund                                 45                        47

  Resources Payable to Treasury                                         $             2,447       $             2,744

  Accrued Reimbursements to CCC from Tobacco Trust Fund                                  -                        11
  Excess Subsidy Payable to Treasury                                                   179                       563
  Accrued Conservation Reserve Program Technical Assistance                              6                         -
  Other                                                                                 18                        18

Total Intragovernmental Other Liabilities                               $              203        $              592

Public                                                                  $              393        $             1,257

Total Public Other Liabilities                                          $              393        $             1,257


Resources Payable to Treasury represents CCC’s liquidating fund assets (cash and loans receivable, net of an
allowance) less any liabilities that may be held as working capital. Loans made in 1991 and before (pre-credit
reform direct loans and assigned loan guarantees) are accounted for in liquidating funds. These funds collect loan
payments and pay any related expenses or default claims. At the end of each year, any unobligated cash balance is
transferred to Treasury.

As of September 30, 2010, the Public Liability included $286 million related to Brazilian Cotton Industry and $100
million related to Pigford II claim litigation. There was a reversal of a $1.15 billion contingent liability resulting
from the Pigford II case that was transferred to the Farm Service Agency.




                                                              82
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 13 – Environmental and Disposal Liabilities
The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage facilities)
was discovered in groundwater. CCC recorded an estimate of the total liability for investigation and remediation of
affected sites of $8 million for both fiscal years ended September 30, 2010 and 2009 based on actual cleanup costs at
similar sites. This liability is not covered by budgetary resources.

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an active program to identify
affected sites, perform risk assessments, and conduct cleanup actions. As of September 30, 2010 and 2009,
payments for these activities totaled $4 million and $5 million, respectively. At September 30, 2010, CCC estimates
the range of potential future losses to be between $8 million and $55 million.



Note 14 – Accrued Liabilities
Accrued liabilities as of September 30 are as follows:

                                                                                      (In Millions)

                                                                             2010                      2009

Conservation Reserve Program                                           $            1,659       $             1,734
Export Programs                                                                        74                       135
Income Support Programs:
  Direct and Counter-Cyclical Payments                                              4,684                     4,960
  Milk Income Loss Contract                                                             1                        13
  Other                                                                                 9                         7
Tobacco Transition Payment Program                                                  3,797                     4,705
Other                                                                                   3                         6

Total Accrued Liabilities                                              $          10,227        $          11,560


The liabilities for Conservation Reserve Programs were considered current as of September 30, 2010 and 2009. The
liability of $3,797 million and $4,705 million under the Tobacco Transition Payment Program (TTPP) includes a
current liability of $955 as of September 30, 2010 and 2009. The remaining balance was a long term liability as of
September 30, 2010 and 2009. Refer to Note 1, under Liabilities, for additional information.




                                                             83
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 15 – Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to possible
loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or fail to occur.
A loss contingency is a liability when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations related to canceled
appropriations for which the reporting entity has a contractual commitment for payment and (2) amounts for
contractual arrangements that may require future financial obligations.

Commitments
Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the development,
maintenance, and expansion of commercial export markets for agricultural commodities through cost-share
assistance to eligible trade organizations that implement a foreign market development program. CCC makes funds
available to reimburse program participants for authorized promotional expenses. Program expenses for the fiscal
years ended September 30, 2010 and 2009 were $197 million and $215 million, respectively. At September 30,
2010 and 2009, CCC’s undelivered orders on current contracts were $219 million and $224 million, respectively.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the 1996 Act. The NAP provides financial assistance to
producers of non-insurable crops when a low yield crop, loss of inventory, or prevented planting occurs due to
natural disasters. The crops must be non-insurable commodities for which the catastrophic risk protection level of
crop insurance is not available. Program expenses for the fiscal years ended September 30, 2010 and 2009 were $96
million and $64 million, respectively. At September 30, 2010 CCC had no undelivered orders on current contracts.
CCC’s undelivered orders on current contracts at September 30, 2009 were $4 million.

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered under CCC
purchase contracts. Such commitments amounted to $71 million and $134 million for Export Program and, $257
million and $109 million for Food for Progress at September 30, 2010 and 2009, respectively.

Commitments for the Food for Education program amounted to $173 million and $34 million as of September 30,
2010 and 2009, respectively. The Price Support processing program had commitments of $3 million and $5 million
as of September 30, 2010 and 2009, respectively. As of September 30, 2010, there were no commitments for the
Food Security Reserve program.




                                                              84
                               COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements

Note 15 – Commitments and Contingencies, Continued
Conservation Reserve Program (CRP)
Through CRP, eligible participants sign 10 to 15 year contracts to remove land from production in exchange for an
annual rental payment. The participants also receive cost-share assistance for establishing conservation practices on
the reserve acreage and additional incentive payments for adopting high-priority conservation measures. CCC
estimates that the future liability for CRP rental payments through FY 2016 will average $1.8 billion annually. This
estimate is based on current program levels with the assumption that expiring lands are re-enrolled and new lands
are enrolled such that enrollment ranges between 30 and 32 million acres between FY 2010 and FY 2016. Accrued
liabilities for CRP totaled approximately $1.7 billion for both fiscal years.

Leases
As of September 30, 2010, future minimum rental payments required under FSA operating leases for State office
space, for which CCC is directly liable, consisted of the following:

                                (In Millions)
       Year                    Rent Expense
       2011                $                     5
       2012                                      4
       2013                                      1
       2014                                      1
       2015                                      1
       Total               $                    12

Allocated rent expense, net of reimbursements, was $54 million for both fiscal years ended September 30, 2010 and
2009, respectively. This allocated rent expense is recognized as part of the CCC’s imputed financing sources and
imputed costs.

Contingencies
Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC vigorously
defends its position in such actions through the Office of the General Counsel (OGC) and the U.S. Department of
Justice. CCC’s financial statements as of September 30, 2010 included a contingent liability of $100 million for
Pigford II claim litigation, a legal case for which a payment has been deemed probable. This amount has been
adjusted downward from $1.25 billion as of September 30, 2009 to $100 million as of September 30, 2010,
following a decision by the Department and the Office of General Counsel that $1.15 billion is a liability of the
Farm Service Agency.

A contingency is considered reasonably possible when the chance of the future confirming event or events occurring
is more than remote but less than probable. CCC has one ongoing case, Prime Time International Company v.
Vilsack. A payment for this case has been deemed reasonably possible, and an estimated range of potential loss is
between $3 million and $7 million.

No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote.




                                                             85
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost
Earned Revenue
Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other Financing Sources.
CCC follows the implementation guide for classifying, recognizing, and measuring inflows of resources. Earned
revenues are exchange revenues, which arise when a Federal entity provides goods and services to the public or to
another government entity for a price.


Earned revenue for the fiscal years ended September 30 is as follows:

                                                                                      (In Millions)

                                                                             2010                     2009

Intragovernmental Earned Revenue:
  Commodity Inventory Sales                                             $            788        $             921
  Interest Income                                                                     26                       47
  Other                                                                              132                      146
  Less: Intra-Agency Eliminations                                                   (788)                    (921)

Total Intragovernmental Earned Revenue                                  $            158        $             193

Earned Revenue from the Public
 Commodity Inventory Sales                                              $             43        $            1,916
 Interest Income                                                                     273                       190
 Other                                                                                47                       369

Total Earned Revenue from the Public                                    $            363        $            2,475

Total Earned Revenue                                                    $            521        $            2,668


Public commodity inventory sales decreased to $43 million in FY 2010 from $1,916 million in FY 2009. This
decrease is due to higher upland cotton market prices, which affected commodity certificate exchanges in FY 2010.
Of the total $47 million reported as other earned revenue from the public for September 30, 2010, a majority, $45
million of earned revenues, are attributable to the Tobacco Trust Fund Program.

CCC’s strategic goals are as follows:

         Supporting productive farms and ranches
         Supporting secure and affordable food and fiber
         Conserving natural resources and enhancing the environment
         Supporting international economic development and trade capacity building

Under supporting productive farms and ranches, program areas include Income Support and Disaster Assistance.
CCC provides financial assistance in the form of flexible payments and short term financing to stabilize, support,
and protect farm income and prices due to the fluctuation of commodity market prices or income support due to
damage caused by natural disaster. Commodity Loans, Tobacco Transition Payment Program, Disaster Assistance,




                                                            86
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Milk Income Loss Payments, Price Support, and Direct and Counter-Cyclical programs comprise major program
activity.

Under supporting secure and affordable food and fiber, program areas include Commodity Operations, Dairy Price
Support, and Food Security Reserve. Of these, CCC’s Dairy Price Support and Food Security Reserve programs
protect the nation’s agriculture and food supply through a uniform regulatory system for the storage of agricultural
products and ensure the timely provision of food products procured for domestic and international food assistance
programs and market development programs.

Under conserving natural resources and enhancing the environment, the Conservation Reserve Program safeguards
natural resources by paying farmers to take environmentally sensitive crop land out of production and plant long-
term resource-conserving covers (such as grasses and trees). These covers improve the quality of water and air,
control soil erosion, and enhance wildlife habitat.

Under supporting international economic development and trade capacity building, program areas include Export
Credit, Market Expansion, and Trade Building. FAS and CCC form cooperative agreements with other nonprofit
agricultural trade commodity groups to encourage development, maintenance and expansion of commercial export
markets for agricultural commodities. Major programs include Food Aid, Foreign Market Development and Export
Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section for additional information on the CCC’s
alignment of its strategic goals to the USDA Performance and Accountability Report Goals.




                                                             87
                                                                COMMODITY CREDIT CORPORATION
                                                                              Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2010 (In Millions) is as follows:
                                                                              Commodity          Income Support and          Conservation          Foreign         Intra-entity
                                                                              Operations          Disaster Programs           Programs            Programs         Eliminations         Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                   $             49 $                      909 $                     - $              - $                  - $             958
   Public Cost                                                                      (1,138)                     6,321                       -                -                    -             5,183
   Total Cost                                                             $         (1,089) $                   7,230 $                     - $              - $                  - $           6,141

   Intragovernment Earned Revenue                                         $                - $                     (1) $                    - $              - $                  - $             (1)
   Public Earned Revenue                                                                                          160                       -                -                    -              160
   Total Earned Revenue                                                   $                - $                    159 $                     - $              - $                  - $            159

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                   $            91 $                        28 $                     - $              - $                  - $            119
   Public Cost                                                                        173                         (13)                      -                -                    -              160
   Total Cost                                                             $           264 $                        15 $                     - $              - $                  - $            279

   Intragovernment Earned Revenue                                         $                8 $                        13 $                  - $              - $                  - $             21
   Public Earned Revenue                                                                   -                          15                    -                -                    -               15
   Total Earned Revenue                                                   $                8 $                        28 $                  - $              - $                  - $             36

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                   $                - $                         - $             415 $                 - $                  - $             415
   Public Cost                                                                             -                           -             2,011                   -                    -             2,011
   Total Cost                                                             $                - $                         - $           2,426 $                 - $                  - $           2,426

   Intragovernment Earned Revenue                                         $                - $                         - $                  - $              - $                  - $              -
   Public Earned Revenue                                                                   -                           -                    1                -                    -                1
   Total Earned Revenue                                                   $                - $                         - $                  1 $              - $                  - $              1

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                   $                - $                         - $                  - $           948 $             (788) $               160
   Public Cost                                                                             -                           - $                  -           2,566                -                  2,566
   Total Cost                                                             $                - $                         - $                  - $         3,514 $             (788) $             2,726

   Intragovernment Earned Revenue                                         $                - $                         -                 -    $           925 $             (788) $              137
   Public Earned Revenue                                                                   -                           - $               -                188                -                   188
   Total Earned Revenue                                                   $                - $                         -                 -    $         1,113 $             (788) $              325
                                                                                                                                         -
Total Gross Cost                                                          $           (825) $                   7,245 $              2,426    $         3,514 $             (788) $         11,572
Less: Total Earned Revenue                                                               8                        187                    1              1,113               (788)              521
Net Cost of Operations                                                    $           (833) $                   7,058 $              2,425    $         2,401 $                - $          11,051




                                                                                                       88
                                                         COMMODITY CREDIT CORPORATION
                                                                    Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2009 (In Millions) is as follows:
                                                                                               Income Support
                                                                              Commodity         and Disaster        Conservation            Foreign           Intra-entity
                                                                              Operations          Programs           Programs              Programs           Eliminations           Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                   $            54      $          930   $                  -   $              -   $                  -   $         984
   Public Cost                                                                      1,175              10,523                      -                  -                      -          11,698
   Total Cost                                                             $         1,229      $       11,453   $                  -   $              -   $                  -   $      12,682

   Intragovernment Earned Revenue                                         $                -   $            -   $                  -   $              -   $                  -   $           -
   Public Earned Revenue                                                                   -            2,347                      -                  -                      -           2,347
   Total Earned Revenue                                                   $                -   $        2,347   $                  -   $              -   $                  -   $       2,347

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                   $           87       $          24 $                     -   $              -   $                  -   $           111
   Public Cost                                                                        67                  (7)                      -                  -                      -                60
   Total Cost                                                             $          154       $          17 $                     -   $              -   $                  -   $           171

   Intragovernment Earned Revenue                                         $            (9) $              10    $                  -   $              -   $                  -   $             1
   Public Earned Revenue                                                                -                 14                       -                  -                      -                14
   Total Earned Revenue                                                   $            (9) $              24    $                  -   $              -   $                  -   $            15

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                   $                -   $            -   $             399      $              -   $                  -   $         399
   Public Cost                                                                             -                -               1,824                     -                      -           1,824
   Total Cost                                                             $                -   $            -   $           2,223      $              -   $                  -   $       2,223

   Intragovernment Earned Revenue                                         $                -   $            -   $              -       $              -   $                  -   $             -
   Public Earned Revenue                                                                   -                -                  1                      -                      -                 1
   Total Earned Revenue                                                   $                -   $            -   $              1       $              -   $                  -   $             1

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                   $                -   $            -   $                  -   $       1,057      $            (920) $             137
   Public Cost                                                                             -                -                      -           1,612                      -              1,612
   Total Cost                                                             $                -   $            -   $                  -   $       2,669      $            (920) $           1,749

   Intragovernment Earned Revenue                                         $                -   $            -   $                  -   $       1,113      $            (920) $               193
   Public Earned Revenue                                                                   -                -                      -             112                      -                  112
   Total Earned Revenue                                                   $                -   $            -   $                  -   $       1,225      $            (920) $               305

Total Gross Cost                                                          $         1,383 $            11,470   $           2,223      $       2,669      $            (920) $          16,825
Less: Total Earned Revenue                                                             (9)              2,371                   1              1,225                   (920)             2,668
Net Cost of Operations                                                    $         1,392 $             9,099   $           2,222      $       1,444      $               - $           14,157




                                                                                               89
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources
The SBR is a combined statement, and as such, intra-agency transactions have not been eliminated.

For the fiscal year ended September 30, 2010, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $4.4 billion direct obligations and $22.4 billion reimbursable obligations.

For the fiscal year ended September 30, 2009, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $4.4 billion direct obligations and $24.2 billion reimbursable obligations.

The majority of the amounts reported as permanently not available represent redemption of debt or the amount of
principal repayments paid to the Treasury on CCC's outstanding borrowings. The remaining balance represents
rescissions of budgetary authority. The amounts were $42.0 billion and $29.0 billion for the fiscal years ended
September 30, 2010 and 2009, respectively.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget. An indefinite permanent borrowing authority becomes available pursuant to standing
provisions of law without further appropriations actions by Congress after the transmittal of the budget for the year
involved. CCC's authority is established annually to record the obligations of CCC; apportionment documents
received for some of CCC's specific programs provide spending limitations within the borrowing authority and are
subject to the Anti-Deficiency Act. The borrowing authority provides that all obligations are reported, even though
subsequent appropriations or offsetting collections will ultimately be used to liquidate the obligations of the
corporation. The Circular A-11 permits the Corporation to incur obligations which can exceed the $30 billion
ceiling and authorizes CCC to borrow funds to liquidate the obligations. An indefinite borrowing authority ceiling
limits the amount of moneys derived from borrowing from Treasury to liquidate the obligations incurred.

Per the CCC Charter Act, 15 U.S.C. 714, the Corporation’s borrowing authority is made up of both interest and non-
interest bearing notes. These notes are drawn upon on a daily basis when disbursements exceed deposits, as
reported by the Federal Reserve Banks (FRBs), their branches, the Treasury, and CCC’s financing office. CCC is
authorized to issue and have outstanding at any one time bonds, notes, debentures, and other similar obligations in
an aggregate amount not to exceed $30 billion. CCC’s notes payable under its permanent indefinite borrowing
authority have a term of one year. On January 1 of each year, CCC refinances its outstanding borrowings, including
accrued interest, at the January borrowing rate. Refer to Note 10, Debt to the Treasury, for additional information.
The amount of available borrowing authority for the fiscal year ended September 30, 2010 is $11.3 billion.
CCC receives an annual appropriation to fund subsidy costs incurred. In addition, CCC has permanent indefinite
appropriation authority to finance disbursements made under the liquidating accounts related to the pre-Credit
Reform program activities, which are not covered by available working capital.

Undelivered orders, either unpaid or prepaid, are obligations, purchase orders, or contracts awarded for which goods
or services have not yet been received. The amounts for undelivered orders are $3.2 billion and $4.2 billion for the
fiscal years ended September 30, 2010 and 2009, respectively.

Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in
an expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.

No contributed capital was received during the reporting periods.



                                                              90
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources,
Continued
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act. CCC does not have obligations from canceled appropriations.

The SF-133, Report on Budget Execution, which is used by CCC to report and certify obligation balances is also
used to populate some portions of the Program and Financing Schedules (P&F Schedules) within the Budget of the
United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal Year 2012 are not available for
FY 2010, the reconciliation between the President’s Budget and the SBR for FY 2010 cannot be performed. The
Budget of the United States Government, Fiscal Year 2012 is expected to be published in February 2011 and will be
available on the website of the Office of Management and Budget (www.whitehouse.gov/omb) at that time. The
SF-133 and the SBR for FY 2010 will be reconciled to the FY 2010 actuals on the P&F Schedules reported in the
Budget of the United States Government, Fiscal Year 2012, once released.

The SF-133 and the SBR for FY 2009 have been reconciled to the FY 2009 actuals on the P&F Schedules presented
in the Budget of the United States Government, Fiscal Year 2011. While Net Outlays reconcile between the P&F
Schedules and the SF-133, Gross Outlays and Offsetting Collections show variances due to reporting differences
related to advances from the Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) by
Treasury. Currently, both AMS and FNS have agreed to change their reporting practices in order to reconcile at
Gross Outlays and Offsetting Collections.

A table presenting this comparison appears on the following page.




                                                              91
                                                                      COMMODITY CREDIT CORPORATION
                                                                                     Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources, Continued
The comparison of selected line items of the FY 2009 SBR to the actual on the FY 2009 P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2011 is as follows.
                                                                                                                                                                                                 Portion of
                                                                                                                                                                                                 Difference
                                                                                                                                           SBR                 P&F                             Resulting from
SBR             P&F                                                                                                                       Amount              Amount                             Reporting
Line Ref        Line No.                                                                  SBR Line Description                           (Ref. Tab B)    (Ref. Tab A, pg 2/2)   Difference     Requirements           Note

1               21.40                                        Unobligated Balance - Beginning of Year                                            4,614                4,611                3
2               22.10/73.40                                  Recoveries of Prior Year Obligations                                                 192                  220              (28)                            c
3A              40.00/60.00                                  Appropriations Received                                                           15,444               15,445               (1)
3B              67.10                                        Authority to Borrow                                                               29,210               24,614            4,596               4,597         a
3D1a/3D2a/3D5   58.00/68.00/69.00                            Offsetting Collections - Collected                                                13,559               13,558                1
3D1b/3D2b       69.10/74.00                                  Offsetting Collections - Receivable                                                 (107)                (107)               -
4               41.00/42.00/22.21/22.22/61.00/62.00          Budgetary Resources/Unobligated Balance - Net Transfers                           (2,241)              (2,242)               1
6               22.40/22.60/40.35/40.36/69.27/69.47          Permanently not Available                                                        (29,028)             (24,429)          (4,599)             (4,597)        a
7 or 11         23.90                                        Total Budgetary Resources/Status of Budgetary Resources                           31,643               31,668              (25)                            c
8               10.00                                        Total New Obligations                                                             28,652               28,681              (29)                            c
9/10            24.40                                        Unobligated Balance - End of Year                                                  2,991                2,989                2
12              72.40                                        Obligated Balance - Beginning of Year                                              7,651                7,560               91                             b
13              73.10                                        Obligations Incurred                                                              28,652               28,681              (29)                            c
14              73.20                                        Gross Outlays                                                                    (26,927)             (26,836)             (91)                            b
16              73.45                                        Recoveries of Prior Year Obligations                                                (192)                (220)              28                             c
17              74.00/74.10                                  Change in Uncollected Customer Payments from Federal Sources                         107                  107                -
18              74.40                                        Obligated Balance - End of Year                                                    9,291                9,292               (1)
19A/19B         90.00                                        Outlays                                                                           13,368               13,278               90                             b

    NOTES:

    General     Any difference that is not otherwise specified is a result of rounding.


       a.       The variance in the Revolving Fund, fund 12X4336, and the Farm Storage Facility and Sugar Storage Facility Loans Financing Fund, fund 12X4158, is due to the differences between the Program and Finance (P&F)
                and Statement of Budgetary Resources (SBR) crosswalks. The P&F crosswalk records standard general ledger (SGL) account 4143, Decreases to Indefinite Borrowing Authority, in Line 3B Borrowing Authority.
                However, the SBR crosswalk reports SGL account 4143 to Line 6, Permanently not Available. The variances between Line 3B and Line 6 offset.

       b.       OMB instructed CCC to zero out the FY 2008 balances for Treasury symbol 12X5310, Export Guarantee Program, Negative Subsidies, in FACTS II. Treasury symbol 12X5310 was reported on the FY 2008 SBR, and
                its ending balances have carried over to beginning balances on the FY 2009 SBR. This variance existed throughout FY 2009.

       c.       The variance in the Export Credit Guarantee Program Fund, fund 12X1336, reflects a corrective action taken to resolve an abnormal balance in FY 2009. The SGL account used 4971, Downward Adjustments of Prior-
                Year Unpaid Delivered Orders - Obligations, Recoveries, closed to the SGL account 4901, Delivered Orders - Unpaid.




                                                                                                                 92
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement
Transactions with Related Organizations
CCC maintains deposit and trust liabilities for Agricultural Marketing Service (AMS), Foreign Agricultural Service
(FAS), Food and Nutrition Service (FNS), and the National Resources Conservation Service (NRCS). Refer to Note
11, Deposit and Trust Liabilities, for additional information. In addition, CCC has the following transactions with
USDA agencies:

For the fiscal years ended September 30, 2010 and 2009, outlays under reimbursable agreements with other USDA
agencies amounted to $29 million and $35 million, respectively.

For the fiscal years ended September 30, 2010 and 2009, CCC received $19 and $17 million respectively from FSA
for the allocation of internal software development costs, which are capitalized. Currently, CCC reimburses FSA for
the costs incurred in the development of software used to administer agriculture programs. Refer to Note 1, under
General Property and Equipment, for additional information.

CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
commodities donated for these domestic purposes, including related transportation and storage costs for the fiscal
years ended September 30, 2010 and 2009 were $159 million and $170 million, respectively.

For the fiscal years ended September 30, 2010 and 2009, CCC transferred $21 million and $24 million, respectively,
to FNS for the Senior's Farmers Market Nutrition Program. CCC transferred $452 million in FY 2010 to the Animal
and Plant Health Inspection Service for bovine tuberculosis, light brown apple moth outbreak, and potato cyst
nematode eradication programs. In addition, CCC transferred $1 million to the Office of the CFO for bio-diesel fuel
education and bio-based products, $62 million to AMS for commodity assistance program and marketing service,
and $28 million to the Rural Business and Cooperative Development Service for biomass research and development
in FY 2010. Also in FY 2010, CCC transferred $109 million to Cooperative State Research, Education, and
Extension Service (CSREES) for the national agricultural higher education, research, and extension system which
are designed to address national problems and needs related to agriculture, the environment, human health and well
being, and communities.

For the fiscal years ended September 30, 2010 and 2009, CCC disbursed a total of $2.9 billion and $2.2 billion,
respectively, on behalf of NRCS for various conservation programs and technical assistance. In addition, for the
fiscal year ended September 30, 2010 CCC disbursed $54 million to NRCS for CRP technical assistance. These
programs included Wetland Reserve Program, Environmental Quality Incentive Program (EQIP), Farm and Ranch
Lands Protection Program (FRPP), Wildlife Habitat Incentives Program, Ground and Surface Water Conservation
Program, Grassland Reserve Program (GRP), and the Conservation Security Program. NRCS is responsible for the
administration of these programs. For GRP, NRCS has entered into a memorandum of understanding with CCC to
disburse funds using the services and facilities of CCC. It should be noted that although NRCS has been receiving
funding for the EQIP since FY 2003, CCC continues to receive separate funding for the FY 2002 and earlier
program years. Also in FY 2010, CCC transferred $6 million to other USDA agencies including Farm Service
Agency (FSA) and Risk Management Agency.

CCC also transferred funds to USAID to fund P.L. 480 Title II transportation and other administrative costs in
connection with foreign donations. Refer to Note 1 under Allocation Transfers and Shared Appropriations for
further information.




                                                             93
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement, Continued
Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of U.S.
Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s Farm Loan Program,
as well as other interest, fees, and penalties due to Treasury and other USDA agencies.


Custodial activities for the Fiscal Year ended September 30 are as follows:

                                                                                 (In Millions)

                                                                        2010                     2009

Revenue Activity:
 Sources of Cash Collections:
   Repayment of Farm Credit Loans                                 $            1,360       $            1,202
   Administrative and Other Service Fees                                          61                       13

Total Cash Collections                                            $            1,421       $            1,215

Total Custodial Revenue                                           $            1,421       $            1,215

Disposition of Collections:
 Transfers to Others:
    USDA Farm Service Agency                                      $            1,387       $            1,211
    Other USDA Agencies                                                           32                       13
    Department of Treasury                                                         2                       13

Total Disposition of Collections                                  $            1,421       $            1,237

Increase/Decrease in Amounts Yet to be Transferred (+/-)                           -       $              (22)
                                                                                   -
Net Custodial Activity                                            $                -       $                -




                                                             94
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The Reconciliation of Net Cost of Operations to Budget provides a link between
budgetary and proprietary accounting information. It serves not only to explain how information on net obligations
relates to the net cost of operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.




                                                              95
                                      COMMODITY CREDIT CORPORATION
                                                   Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget,
Continued
The Reconciliation of Net Cost of Operations to Budget for the fiscal year ended September 30, 2010 is as follows:

                                                                                                                      (In Millions)

                                                                                                               2010                   2009
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                                                     $    26,793         $       28,652
  Less: Spending Authority from Offsetting Collections and Recoveries                                           14,475                 13,644
  Obligations Net of Offsetting Collections and Recoveries                                                 $    12,318         $       15,008
  Less: Offsetting Receipts                                                                                        576                    473
  Net Obligations                                                                                          $    11,742         $       14,535
Other Resources:
  Transfers In/Out without Reimbursement, Net                                                              $      (232)        $         (550)
  Imputed Financing from Costs Absorbed by Others                                                                1,378                  1,334
  Other                                                                                                            (12)                     -
  Net Other Resources Used to Finance Activities                                                           $     1,134         $          784

Total Resources Used to Finance Activities                                                                 $    12,876         $       15,319

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not Yet Provided    $       950         $        (1,681)
  Resources that Fund Expenses Recognized in Prior Periods                                                      (2,434)                   (764)
  Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations
     Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy           723                     760
     Change in Unfilled Customer Orders                                                                            318                     108
     Decrease in Exchange Receivables from the Public                                                            6,708                   5,791
     Other                                                                                                         117                     166
  Resources that Finance the Acquisition of Assets                                                              (8,288)                 (9,771)
  Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations              862                    (489)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                               $    (1,044)        $        (5,880)

Total Resources Used to Finance the Net Cost of Operations                                                 $    11,832         $        9,439
 Total Resources Used to Fund Items Not Part of the Net Cost of Operations

Components of the Net Cost of Operations that will not Require or Generate Resources in the
  Current Period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                                  $       173         $          100
  (Increase) in Exchange Revenue Receivable from the Public                                                        (68)                    89
  Other                                                                                                         (1,174)                 1,064
Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods       $    (1,069)        $        1,253
Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                                                        1                     (38)
  Revaluation of Assets or Liabilities                                                                                18                      29
  Other Components not Requiring or Generating Resources:
    Bad Debt Expense                                                                                               137                   (523)
    Cost of Goods Sold                                                                                             835                  2,803
    Other                                                                                                         (703)                 1,194
Total Components of Net Cost of Operations that will not Require or Generate Resources                     $       288         $        3,465

Total Components of Net Cost of Operations that will not Require or Generate Resources
      in the Current Period                                                                                $      (781)        $        4,718

Net Cost of Operations                                                                                     $    11,051         $       14,157




                                                                               96
Required Supplementary
Information (Unaudited)




               97
                                                     COMMODITY CREDIT CORPORATION
                                                         Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)

                                                              12X4336        12X2278       12X8161       (72)12X2278    12X1336           Other        Total Budgetary
Budgetary Resources:
 Unobligated balance, brought forward, October 1:             $    1,342     $     237     $         -   $       21     $    316      $       103      $        2,019
 Recoveries of prior year unpaid obligations                       1,245               -             -           73               5               9             1,332
 Budget authority:                                                                                                                                 -
   Appropriation                                                        -        1,840          937                -          68           15,169              18,014
   Borrowing authority (Note 17)                                  39,064               -             -             -              -                -           39,064
   Spending authority from offsetting collections:
    Earned:
      Collected                                                   10,769            93               -             -              -           433              11,295
      Change in receivables from Federal sources                      (62)          75               -             -              -                -               13
    Change in unfilled customer orders:
      Advance received                                               382               -             -             -              -                -              382
    Expenditure transfers from trust funds                           937               -             -             -              -                -              937
  Subtotal                                                    $   51,090     $   2,008     $    937      $         -    $     68      $    15,602      $       69,705
 Nonexpenditure transfers, net, actual                            11,470         (1,249)             -         1,249              -        (15,087)            (3,617)
 Permanently not available                                        (41,152)             -             -             -              -          (434)            (41,586)
Total Budgetary Resources                                     $   23,995     $     996     $    937      $     1,343    $    389      $       193      $       27,853


Status of Budgetary Resources:
 Obligations incurred:
   Direct                                                     $         -    $     736     $    937      $     1,343    $     58      $           53   $        3,127
   Reimbursable                                                   22,371               -             -             -              -               67           22,438
 Subtotal                                                     $   22,371     $     736     $    937      $     1,343    $     58      $       120      $       25,565
 Unobligated balance:
   Apportioned                                                          -          185               -           87           10                  23              305
   Exempt from apportionment                                       1,188               -             -             -              -                -            1,188
 Subtotal                                                     $    1,188     $     185     $         -   $       87     $     10      $           23   $        1,493
 Unobligated balance not available                                   436            75               -           (86)        322                  48              795
Total Status of Budgetary Resources                           $   23,995     $     996     $    937      $     1,344    $    390      $       191      $       27,853




                                                                                 98
                                                              COMMODITY CREDIT CORPORATION
                                                                   Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)


Change in Obligated Balance:                                             12X4336        12X2278         12X8161       (72)12X2278    12X1336           Other         Total Budgetary
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                        $    7,803     $        251    $         -   $      849     $     11      $       628       $        9,542
   Less: Uncollected customer payments from Federal sources,
   brought forward, October 1                                                  (233)               -              -             -              -                -              (233)
 Total unpaid obligated balance, net                                     $    7,570     $        251    $         -   $      849     $     11      $       628       $        9,309
 Obligations incurred, net                                                   22,371              736         937            1,343          58              120               25,565
 Less: Gross outlays                                                         (20,877)        (834)          (937)            (899)        (64)            (270)             (23,881)
 Less: Recoveries of prior year unpaid obligations, actual                    (1,245)              -              -           (73)         (5)                 (9)           (1,332)
 Change in uncollected customer payments from Federal sources                    62              (75)             -             -              -                -               (13)
 Total Change in Obligated Balance                                       $    7,881     $        78     $         -   $     1,220    $         -   $       469       $        9,648
 Obligated balance, net, end of period:
   Unpaid obligations                                                    $    8,052     $        153    $         -   $     1,220    $         -   $       469       $        9,894
   Less: Uncollected customer payments from Federal sources                    (171)             (75)             -             -              -                -              (246)
Total, unpaid obligated balance, net, end of period                      $    7,881     $        78     $         -   $     1,220    $         -   $       469       $        9,648


Net Outlays:
 Gross outlays                                                           $   20,877     $        834    $    937      $      899     $     64      $       270       $       23,881
 Offsetting collections                                                      (12,088)            (93)             -             -              -          (433)             (12,614)
Total Net Outlays                                                        $    8,789     $        741    $    937      $      899     $     64      $      (163)      $       11,267


The accompanying notes are an integral part of these statements.




                                                                                            99
                                                     COMMODITY CREDIT CORPORATION
                                                         Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)

                                                             12X4049                12X4337              12X4158               Other          Total Non-Budgetary
Budgetary Resources:
 Unobligated balance, brought forward, October 1:        $              607    $              265    $              35     $           65     $              972
 Recoveries of prior year unpaid obligations                               -                    -                   34     $             -                    34
 Budget authority:
   Borrowing authority (Note 17)                                        381                   299                  519                   -                  1,199
   Spending authority from offsetting collections:
    Earned:
      Collected                                                         138                   158                  139                 66                    501
    Change in unfilled customer orders:
      Without advance from Federal sources                                 -                  (10)                   (8)                (1)                   (19)
   Subtotal                                              $              519    $              447    $             650     $           65     $             1,681
 Permanently not available                                                 -                  (91)                 (257)                 -                   (348)
Total Budgetary Resources                                $             1,126   $              621    $             462     $           130    $             2,339


Status of Budgetary Resources:
 Obligations incurred:
   Direct                                                $              493    $              329    $             375     $           31     $             1,228
 Subtotal                                                $              493    $              329    $             375     $           31     $             1,228
 Unobligated balance:
   Apportioned                                                          523                   235                   70                 33                    861
   Exempt from apportionment                                               -                   5                      -                  -                      5
 Subtotal                                                $              523    $              240    $              70     $           33     $              866
 Unobligated balance not available                                      110                   52                    17                 66                    245
Total Status of Budgetary Resources                      $             1,126   $              621    $             462     $           130    $             2,339




                                                                                   100
                                                               COMMODITY CREDIT CORPORATION
                                                                       Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)



Change in Obligated Balance:                                               12X4049                12X4337               12X4158               Other          Total Non-Budgetary
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                      $                -    $                 -    $             159     $             -    $              159
   Less: Uncollected customer payments from Federal sources, brought
   forward, October 1                                                                 (43)                  (125)                   (9)                 -                   (177)
 Total unpaid obligated balance, net                                   $              (43)   $              (125)   $             150     $             -    $               (18)
 Obligations incurred, net                                                           493                    329                   375                 31                   1,228
 Less: Gross outlays                                                                 (493)                  (317)                 (274)               (31)                (1,115)
 Less: Recoveries of prior year unpaid obligations, actual                              -                      -                   (34)                 -                    (34)
 Change in uncollected customer payments from Federal sources                           -                    10                      8                 1                     19
 Total Change in Obligated Balance                                     $              (43)   $              (103)   $             225     $            1     $               80
 Obligated balance, net, end of period:
   Unpaid obligations                                                  $                -    $               12     $             226     $             -    $              238
   Less: Uncollected customer payments from Federal sources                           (43)                  (115)                   (1)                1                    (158)
Total, unpaid obligated balance, net, end of period                    $              (43)   $              (103)   $             225     $            1     $               80


Net Outlays:
 Gross outlays                                                         $             493     $              317     $             274     $           31     $             1,115
 Offsetting collections                                                              (138)                  (158)                 (139)               (66)                  (501)
 Less: Distributed Offsetting receipts                                               (431)                  (127)                  (18)                 -                   (576)
Total Net Outlays                                                      $              (76)   $               32     $             117     $           (35)   $               38


The accompanying notes are an integral part of these statements.




                                                                                                 101
Part IV: Other Accompanying
Information (Unaudited)




               102
                                                                             COMMODITY CREDIT CORPORATION
                                                                                              Other Accompanying Information

Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity
For the Fiscal Year Ended September 30, 2010
(Dollars in Thousands)
                                            Beginning Inventory                                                                                                                                                                                                 Ending Inventory
                                              October 1, 2009                 Acquisitions               Cost of Sales a/                Donations              Other Additions, Net c/          Other Dispositions b/            Deductions, Net c/            September 30, 2010
                                 Unit of
                                 Measure   Quantity           Value       Quantity         Value      Quantity       Value          Quantity       Value         Quantity           Value        Quantity           Value       Quantity           Value       Quantity           Value
Feed Grains:
 Barley                         Bushels            -                -            15             33            -        -                   -              -             (15)            (33)            -                   -          -                   -              -               -
 Corn                           Bushels            -                -             -              -            -        -                 (20)          (123)             20             123             -                   -          -                   -
 Corn Meal                      Pounds        17,573            3,108       234,724         36,200     (250,132) (38,953)                  -              -               -               -             -                   -          -                   -       2,165              355
 Oats                           Bushels            -                -             -              -            -        -                   -              -               -               -             -                   -          -                   -           -
 Grain Sorghum                  Bushels          110              588        21,143         92,249      (21,253) (92,837)                  -              -               -               -             -                   -          -                   -           -
 Sorghum Grits                  Pounds             -                -             -              -            -        -                   -              -                                             -                   -          -                   -
 Total Feed Grains                             XXX        $     3,696         XXX      $   128,482        XXX $ (131,790)               XXX $          (123)          XXX       $           90       XXX        $           -       XXX        $           -       XXX        $       355

Wheat                           Bushels            -                -        36,297        207,969      (32,952)     (186,985)         (3,307)       (20,864)          (37)             (120)           -                   -          -                   -           -                -
Wheat Flour                     Pounds        17,639            3,534       361,314         60,207     (379,009)      (63,762)             88             27             -                 -            -                   -          -                   -          33                6
Wheat Products, Other           Pounds                                      150,164         22,094     (138,285)      (20,055)              -              -             -                 -            -                   -          -                   -      11,879            2,040
      Total Wheat                              XXX        $     3,534         XXX          290,270        XXX        (270,801)          XXX          (20,837)         XXX               (120)        XXX                    -       XXX                    -       XXX              2,046
Rice Products:
Rice Products                   Cwt.                  4           109         3,520         86,674       (3,352)      (82,391)                 -           -                -                -              -               -              -               -         172            4,391

Total Rice Products                            XXX                109         XXX           86,674        XXX         (82,391)          XXX                -          XXX                            XXX                    -       XXX                    -       XXX              4,391

Cotton, Extra Long Staple       Bales             -                   -          -               2           -              -              -               -             -                (2)           -                   -          -                   -          -                   -
Cotton, Upland                  Bales             -                   -        179          45,870        (177)       (45,354)             -               -            (2)             (516)           -                   -          -                   -          -                   -
         Total Cotton                          XXX                    -       XXX           45,872        XXX         (45,354)          XXX                -          XXX               (518)        XXX                    -       XXX                    -       XXX                    -

Dairy Products
 Butter                         Pounds
 Nonfat Dry Milk                Pounds       223,725          184,499           132            126       (1,000)            (825)     (52,190)      (59,808)       (164,924)        (118,279)         814               369            -                   -       6,558            6,081
 Cheese Regular Price Support   Pounds             -                -          (706)          (992)           -                -      (41,545)      (36,937)         42,251           37,929            -                 -            -                   -           -                -
   Cheese Variety               Pounds             -                -        21,216         45,646            -                -      (21,216)      (45,646)              -                -            -                 -            -                   -           -                -
 Ultra High Temperature Milk    Pounds             -                -        (2,877)        (1,287)           -                -     (123,997)      (31,563)        126,875           32,850            -                 -            -                   -           -                -
 Total Dairy Products                          XXX            184,499         XXX           43,493        XXX               (825)       XXX        (173,954)          XXX            (47,500)        XXX                369         XXX                    -       XXX              6,081
Peanuts                         Pounds             -                -        13,041          2,431       (2,427)            (413)           -             -         (10,614)          (2,018)           -                 -            -                   -           -                -




                                                                                                                     103
                                                                                      COMMODITY CREDIT CORPORATION
                                                                                                       Other Accompanying Information

Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity, Continued
For the Fiscal Year Ended September 30, 2010
(Dollars in Thousands)

                                                  Beginning Inventory                                                                                                                                                                                                 Ending Inventory
                                                    October 1, 2009                 Acquisitions                 Cost of Sales a/                     Donations                 Other Additions, Net c/       Other Dispositions b/         Deductions, Net c/        September 30, 2010
                                  Unit of
                                 Measure        Quantity         Value        Quantity         Value         Quantity        Value         Quantity           Value              Quantity       Value         Quantity       Value        Quantity       Value       Quantity       Value
Soybean Products               Bushels                     -              -             3             36             (3)          (36)              -                     -                 -             -              -            -              -           -              -           -
Soybean Products               Pounds                      -              -        54,465          9,996        18,725          4,018         (73,191)              (14,014)                -             -              -            -              -           -              -           -

Dry Edible Beans               Cwt.                     12            541            821         30,192            (784)       (28,899)             -                     -               -             -            -                -          -               -          49        1,834
Blended Foods                  Pounds               13,268          3,285        286,369         64,642        (284,028)       (64,221)             -                     -               -             -            -                -          -               -      15,609        3,707
Honey                          Pounds                    -              -              -              -               -              -              -                     -               -             -            -                -          -               -           -            -
Meat                           Pounds                    -              -              -              -               -              -              -                     -               -             -            -                -          -               -           -            -
Pork Bellies                   Pounds                    -              -              -              -               -              -              -                     -               -             -            -                -          -               -           -            -
Dry Whole Peas                 Cwt.                    166          3,127          2,739         46,680          (2,902)       (49,736)             -                     -               -             -            -                -          -               -           3           71
Lentils Dry                    Cwt.                      -              -            845         29,616            (845)       (29,616)             -                     -               -             -            -                -          -               -           -            -
Soybean Salad Oil              Pounds                    -              -         49,203         19,045         (26,140)        (9,987)       (23,063)               (9,058)              -             -            -                -          -               -           -            -
Vegetable Oil                  Pounds                5,525          3,365        265,060        148,363        (221,202)      (124,828)       (44,589)              (24,136)            551           322            -                -          -               -       5,345        3,086
Veg Cnd Veg Soup               Pounds                    -              -              -              -               -              -       (191,092)               (6,355)        191,092         6,355            -                -          -               -           -            -
Veg Cnd Tomatoes-Soup          Pounds                    -              -              -              -               -              -       (232,866)               (6,819)        232,866         6,819            -                -          -               -           -            -
Carton -Soup                                             -              -              -              -               -              -       (587,175)              (15,198)        587,175        15,198            -                -          -               -           -            -
 Subtotal                                            XXX           10,318          XXX          351,001           XXX         (303,717)         XXX                 (75,580)          XXX          26,676         XXX                 -       XXX                -       XXX          8,698


Total Inventory Operations                            XXX         202,156           XXX         945,791           XXX          (46,888)         XXX               (1,058,484)         XXX         (21,372)        XXX            369          XXX                -       XXX         21,570

Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated. Due to distinct units of measure, Quantity totals are not tabulated, and are denoted as xxx.
a/ Includes commodities subsequently exported and financed under P.L. 480.
b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of
   commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory
   exchanged or in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted
   individually.




                                                                                                                                    104
                         COMMODITY CREDIT CORPORATION
                                  Other Accompanying Information

Summary of Management Assurances
               Conformance with Financial Management Systems Requirements (FMFIA § 4)
Statement of Assurance           Systems do not conform to financial management system requirements
                                   Beginning                                                     Ending
Non-conformances                    Balance       New Resolved Consolidated Reassessed           Balance
Financial System Functionality         1                                                            1
Total Non-conformances                 1                                                            1

                Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                     Agency                    Auditor
Overall Substantial Compliance                         No                       No
1. System Requirements                                                  No
2. Accounting Standards                                                Yes
3. USSGL at Transaction Level                                          Yes




                                                 105
                                  COMMODITY CREDIT CORPORATION
                                          Other Accompanying Information

                        Improper Payment Information Act (IPIA) 2002 Compliance

Executive Order 13520 of November 20, 2009, Reducing Improper Payments, directed agencies to continue efforts
to identify and recover improper payments. The reduction of improper payments remains a key goal for agencies.
The Farm Service Agency (FSA), under the direction of the Department of Agriculture Chief Financial Officer
(OCFO), annually reviews programs to identify if any are susceptible to significant improper payments. The Office
of Management and Budget (OMB) is responsible for developing implementation guidance for IPIA. OMB defines
programs as high risk if they have more than 2.5 percent and $10 million in improper payments annually. Annually,
FSA completes risk assessments of the programs identified by the OCFO. Current OCFO guidance requires that
over the course of a three-year period, all agency programs will be risk assessed to determine their level of risk for
improper payments. The risk assessment determines whether each program is at a low or high risk for improper
payments. Key elements of the risk assessment process include identifying potential vulnerabilities within the
program and internal controls in place to address those vulnerabilities. A Test of Transactions (TOT) sample may
be performed on select programs to further determine their level of risk. The TOT is conducted based on guidance
issued by the OCFO on an annual basis.

As part of the IPIA compliance efforts and the risk assessment review process, the OCFO and or OMB may
conclude that a program should be categorized as high risk. If a program is identified as high risk, FSA must
complete a review of payments in accordance with the requirements outlined in Appendix C of OMB Circular A-
123. FSA then develops a statistically valid sample of payment transactions to determine the projected annual
amount of improper payments for the program being reviewed. Based on the findings (amount and type of errors),
FSA then must develop a Correction Action Plan (CAP) for reducing improper payments and establish performance
goals.

As part of the Fiscal Year 2010 IPIA Review Cycle, FSA completed risk assessments of seven programs identified
as high risk. The seven high risk programs were Marketing Assistance Loan Program, Loan Deficiency Payments,
Milk Income Loss Contract Program, Conservation Reserve Program, Direct and Counter-Cyclical Payments,
Noninsured Assistance Program, and Disaster Programs. A comparison of the FY 2010 Statistical Sample results to
FY 2009 is shown below.

                                    IMPROPER PAYMENTS INFORMATION ACT (IPIA) COMPLIANCE1

                 Value of Total                                Value of           Value of Incorrect
                                      Improper Payments                                                  Percent Incorrect
                    Outlays                               Administrative Errors    Disbursements
                                         ($ millions)                                                     Disbursements
                  ($ millions)                               ($ millions)            ($ millions)
Program        FY 2009    FY 2010    FY 2009    FY 2010   FY 2009     FY 2010     FY 2009   FY 2010     FY 2009    FY 2010
    MAL        $4,935      $4,151     $85.4      $34.7     $80.2       $30.9       $5.3       $3.8       0.16%      0.09%
    LDP2         NA         $114       NA        $.463      NA           $0         NA        $.471       NA        0.44%
           3
    MILC         NA         $602       NA         $4.7      NA          $1.0        NA        $3.7        NA        0.52%
    CRP        $1,876      $1,814     $11.2      $23.7      $5.8       $15.0       $6.8       $9.2       0.44%      0.47%
    DCP        $4,948      $5,921     $19.5      $55.6     $15.1       $12.9       $7.9       $42.7      0.17%      0.74%
    NAP          $67        $59        $8.3       $6.7      $5.4        $4.2       $3.7       $3.3       6.4%       5.63%
Disaster       $2,245       $108      $19.2       $5.1      $2.3        $1.1       $17.8      $4.0       0.84%      3.56%


1
  Estimates are individually calculated statistical projections and are not intended to conform to nor validate another
estimate using an arithmetical expression. Each point estimate is calculated with respect to its own expansion
factors and lies within its own confidence bounds. Because of the sample design complexity, additional calculations
are generally necessary to add or combine two distinct statistical estimates.
2
  Due to the low volume of payment activity in FY 2008, Loan Deficiency Payments were not reviewed.
3
  Due to the low volume of payment activity in FY 2008, the Milk Income Loss Contract Program was not reviewed.




                                                          106
                             COMMODITY CREDIT CORPORATION
                                       Other Accompanying Information



As FSA moves forward and awaits the issuance of guidance by OMB related to further implementation of the
Presidential Executive Order as well as the Improper Payment Elimination and Recovery Act of 2010 (IPERA),
other key developments that have recently taken place and those that will take place in the near future include:

         -   Issuance of draft guidance related to the risk assessment of those programs receiving Recovery Act
             funds.
         -   The Office of the Inspector General will be having an entrance conference to explain to agencies their
             plan for reviewing agency recovery efforts of improper payments for those programs currently
             identified as high risk.
         -   The OIG is also in the process of having a Planning Conference related to IPIA in which all agencies
             will participate.
         -   “Root Causes” of improper payments are also being reported as part of the statistical sample review to
             help focus on those areas which will provide for the most “Return on Investment” (ROI) efforts.
         -   FSA has also participated on OMB workgroups to help develop future guidance related to IPIA. This
             is a result of past and present successful efforts related to reducing improper payment amounts for
             agency programs.




                                                       107
                                COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

ADA      Anti-deficiency Act

ADP      Automatic Data Processing

AMS      Agricultural Marketing Service

BEHT     Bill Emerson Humanitarian Trust

BDO      Barter Delivery Obligations

BPMS     Budget and Performance Management System

CAP      Corrective Action Plan

CCC      Commodity Credit Corporation

CFO      Chief Financial Officer

COR      County Office Review

COTS     Commercial-off-the-Shelf

CRP      Conservation Reserve Program

CSC 2    Credit Subsidy Calculator 2

DAFP     Deputy Administrator for Farm Programs

DCP      Direct and Counter-Cyclical Payment Program

DPSP     Daily Product Price Support Program

eDCP     Electronic Direct and Counter-Cyclical Payment Program

EQIP     Environmental Quality Incentive Program

EPAS     Economics, Policy, and Analysis

FACTS II Federal Agencies Centralized Trial Balance System II

FAI      Finance Account Interest

FAPRI    Food and Agricultural Policy Research Institute

FASAB Federal Accounting Standards Advisory Board

FAS      Foreign Agricultural Service

FATER Food Aid Targeting Effectiveness Ratio

FCRA     Federal Credit Reform Act of 1990

FDIIP    Financial Data Integration Improvement Plan

FFAS     Farm and Foreign Agricultural Services

FFMIA Federal Financial Management Improvement Act

FGP      Facilities Guarantee Program

FISMA Federal Information Security Management Act



                                                           108
                               COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

FMFIA Federal Managers’ Financial Integrity Act

FMMI     Financial Management Modernization Initiative

FNCS     Food, Nutrition, and Consumer Services

FNS      Food and Nutrition Service

FRBs     Federal Reserve Banks

FRPP     Farm and Ranch Lands Protection Program

FSA      Farm Service Agency

FSFL     Farm Storage Facility Loan Program

FSIO     Financial System Integration Office

FSIS     Food Safety and Inspection Service

FY       Fiscal Year

GAAP     Generally Accepted Accounting Principles

GMLoB Grants Management Line of Business

GPEA     Government Paperwork Elimination Act

GPRA     Government Performance and Results Act

GRP      Grassland Reserve Program

GSM      General Sales Manager

HIPC     Heavily Indebted Poor Countries

ICRAS    Inter-Agency Credit Risk Assessment System

IPIA     Improper Payments Information Act of 2002

IT       Information Technology

ITS      Information Technology Services

JFMIP    Joint Financial Management Improvement Program

MAL      Marketing Assistant Loans

MAP      Market Access Program

MIDAS Modernize and Innovate the Delivery of Agricultural Systems

MILC     Milk Income Loss Contract Program

MRP      Marketing and Regulatory Programs

NAP      Noninsured Crop Disaster Assistance Program

NIST     National Institute of Standards and Technology

NPS      National Payment Service



                                                          109
                                COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

NRE     Natural Resources and Development

NRCS    National Resources Conservation Service

OCFO    Office of the Chief Financial Officer

OGC     Office of the General Counsel

OIG     Office of the Inspector General

OMB     Office of Management and Budget

PAR     Performance and Accountability Report

PART    Program Assessment Rating Tool

PECD    Production, Emergencies, and Compliance Division

P&F Schedule      Program and Financing Schedule

PL      Public Law

PP&E    Property, Plant and Equipment

PSD     Price Support Division

PV      Present Value

RD      Rural Development

REX     Re-enroll or Extend

RFI     Request for Information

RSI     Required Supplementary Information

RSSI    Required Supplementary Stewardship Information

SAP     Systems Applications Products

SCGP    Supplier Credit Guarantee Program

S&E     Salaries and Expenses

SBR     Statement of Budgetary Resources

SFFAC Statement of Federal Financial Accounting Concepts

SFFAS   Statement of Federal Financial Accounting Standards

SNC     Statement of Net Cost

SPPA    Strategic Partnership Program Agro-terrorism

TTPP    Tobacco Transition Payment Program

USAID United States Agency for International Development

USDA    United States Department of Agriculture

USFWS U.S. Fish and Wildlife Service



                                                           110
                           COMMODITY CREDIT CORPORATION
                                     Glossary of Acronyms

USGS   Geological Survey

USWA   United States Warehouse Act

WRP    Wetlands Reserve Program

WTO    World Trade Organization




                                            111
112
